<html>
<title> - U.S. DEPARTMENT OF THE INTERIOR BUDGET AND POLICY PRIORITIES FOR FISCAL YEAR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
   U.S. DEPARTMENT OF THE INTERIOR BUDGET AND POLICY PRIORITIES FOR 
                           FISCAL YEAR 2020

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 15, 2019

                               __________

                           Serial No. 116-16

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-444               WASHINGTON : 2019         
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                   
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 15, 2019..........................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:

    Bernhardt, David L., Secretary, U.S. Department of the 
      Interior, Washington, DC...................................     5
        Prepared statement of....................................     7
        Questions submitted for the record.......................    34

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................   101
    .............................................................
                                     



OVERSIGHT HEARING ON U.S. DEPARTMENT OF THE INTERIOR BUDGET AND POLICY 
                    PRIORITIES FOR FISCAL YEAR 2020

                              ----------                              


                        Wednesday, May 15, 2019

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Napolitano, Costa, 
Sablan, Huffman, Lowenthal, Gallego, Cox, Neguse, Levin, 
Haaland, Van Drew, Cunningham, Velazquez, DeGette, Clay, Brown, 
Soto, Case, Horsford, San Nicolas, Cartwright; Bishop, Gohmert, 
Lamborn, McClintock, Gosar, Westerman, Graves, Radewagen, 
Webster, Cheney, Gonzalez-Colon, Curtis, Hern, and Fulcher.

    The Chairman. Thank you. The Committee on Natural Resources 
will now come to order. The Committee is meeting today to hear 
testimony on the U.S. Department of the Interior's budget and 
policy priorities for Fiscal Year 2020. Under Committee Rule 
4(f) any oral opening statements at hearings are limited to the 
Chairman and the Ranking Minority Member. Therefore, I will ask 
unanimous consent that all other Members' opening statements be 
made part of the record of this hearing if they are submitted 
to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    Thank you, Mr. Secretary, for being here today. Let me 
recognize myself, Mr. Secretary, for my opening statements.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. Welcome again, and thank you for the 
opportunity that we had to personally meet, as you did with 
other individual members of the Committee. It is very much 
appreciated. I think the need for civility and professionalism 
in our communications and our interactions is a shared attitude 
by Members and yourself. I appreciated the conversation. It was 
necessary and frank, and I respect that.
    I think, Mr. Secretary, our differences are rooted in a 
very profound concern--on the direction of the Interior 
Department--a concern that is shared by the majority on this 
Committee. And that concern, and the direction, is rooted in 
the rationale and the motivation behind this direction, and the 
decision making that is at the Department of the Interior. And, 
I might add, the determination of this Committee to exercise 
its constitutional prerogatives to find out.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    The Natural Resources Committee meets today to hear testimony from 
Interior Secretary David Bernhardt. This is the Secretary's first 
appearance before this Committee as Secretary and we thank him for 
making time to join us today.
    This hearing comes at a difficult time in the relationship between 
Congress and the executive branch. President Trump has repeatedly, and 
wrongly, asserted that his Administration is under no obligation to 
cooperate with congressional oversight. The term ``Constitutional 
Crisis'' should not be used lightly, but if we are not in one, we are 
dangerously close.
    Secretary Bernhardt testifies today as a cabinet official 
representing a reckless, destructive, and unethical administration. 
Policy, ethics, and legal requirements which have guided every modern 
administration, have been discarded.
    Secretary Bernhardt is not President Trump, nor is he Ryan Zinke. 
He has sought personal meetings with me and many members of this 
Committee and he is here today in response to an invitation, and we 
very much appreciate his cooperation.
    There are troubling signs, however, that Secretary Bernhardt is not 
as distinct from his predecessor, or the President, as he should be. On 
the policy front, an administration set on sacrificing Federal lands 
and waters on the altar of corporate profits--as the Trump 
administration proudly seeks to do--faces a significant challenge.
    In passing the Wilderness Act, Endangered Species Act, NEPA, 
National Parks Organic Act, and dozens of other bedrock, environmental 
laws, previous Congresses and Presidents put in place a level of 
protection and conservation that is difficult for this Administration, 
and their corporate beneficiaries, to get around. So, they try to 
cheat. They try to cut corners, suppress scientific data, silence 
experts, ignore local residents, and hope that the industry's political 
muscle can help the Administration get around the law.
    Former-Secretary Zinke and President Trump were allies in that 
process. We are meeting today to discover if they have an ally in 
Secretary Bernhardt. And there are troubling signs that the Secretary 
is not as distinct from President Trump as he should be in meeting 
ethical standards as well.
    Like the President, Secretary Bernhardt had an extensive, private-
sector career prior to his public service, during which the very same 
corporate interests paid him handsomely as a lobbyist. And now we are 
witnessing a troubling lack of transparency regarding what role his 
former clients are playing in Secretary Bernhardt's current decision 
making.
    Secrecy and influence-peddling are the hallmarks of the Trump 
administration. We are here today to determine if they are the 
hallmarks of the Interior Department as well.
    Once again, let me extend my thanks to the Secretary for joining us 
today and let me express my sincere hope that the Interior Department 
will turn out to be the Bernhardt exception to the Trump rule.

                                 ______
                                 

    The Chairman. With that, let me submit for the record the 
remainder of the content of my opening statement, so that we 
can expedite the opportunity for Members to interact and ask 
questions of the Secretary today.
    If there is no objection with that, let me turn to and 
recognize Ranking Member Bishop for his opening statements.
    Mr. Bishop.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you. We actually have to drag this out, 
so you can get more Members here.
    Today, I am happy to be here. I want you to know, Mr. 
Chairman, I have brought my own Dr. Pepper, so this time when 
you spill coffee on me, I can come back. I have some place to 
respond.
    [Laughter.]
    Mr. Bishop. Mr. Secretary, thank you for being here. I am 
very happy to have you here as the 53rd Secretary of the 
Interior Department. Thank you also for being in Utah for the 
Golden Spike anniversary, 150th anniversary there. Your words 
were most profound, I appreciate that. I appreciate you 
actually being there. That was a significant commemoration of a 
significant date that changed America. I appreciate you doing 
that.
    I realize that a lot of people in your position have been 
appointed there for political reasons, or to pay off some 
special interest group. I think you are a different Secretary 
of the Interior; you know what you are talking about, and that 
is extremely positive. You have been in--confirmed for 35 days. 
In those 35 days, we have been in session only 18 of those, and 
this Committee has been doing business for 9 of those 18. So, I 
appreciate you having spent as much time as you have up here in 
the House.
    I realize you have already talked to the House 
appropriators, for which you have our deepest sympathy, and you 
will be going to the Senate soon, for which you have a whole 
lot of empathy going over there. But thank you for being here 
with us.
    I also realize that you have been spending your time 
talking to individual Members. I think that is a wise approach 
to do this. That is very unprecedented. That is very cool. I 
also realize that you have been talking to more Democrats than 
Republicans, so I am going to castigate you now and say I want 
equal time and equal treatment. Although, if you look at this 
Committee, there are only two of our Committee members that are 
new to it. They need a lot more help, so I appreciate that. But 
be with us.
    I think, as we started this session, and we passed the 
backlog--the S.B. 47, whatever we called that thing, it showed 
that we can actually be productive in a bipartisan and 
bicameral manner. And I think, as we go forward, there are lots 
of things in which we want to engage with you and the 
Department to continue that process. There is a backlog issue 
that needs to be done in a bipartisan and bicameral way.
    There is a forest fire issue that needs to be done in a 
bicameral and bipartisan way. And even though you don't have 
charge of the Forest Service, many of the things that we are 
talking about here that the Forest Service wants can apply to 
BLM to mitigate the wildfires in that particular area, as well.
    I appreciate the amount of information that you have sent 
up here. I want Mr. Grijalva to note that, even though he 
doesn't believe this, I have a great deal of empathy for the 
situation he is in and some of the frustrations. In the 4 years 
I was working with Doc Hastings when he was Chairman, and my 
first 2 years as Chairman, we had an administration, an 
Interior Department, that was of a different political party. 
That was a frustrating situation. I realized I asked for a lot 
of materials, and we didn't get that.
    What I am telling you right now is I think you have been 
unprecedented in the amount of information that you have been 
sharing and giving. And I want Mr. Grijalva to know that I 
understand what it was like in his position with this 
situation. I do have empathy for that. But I have appreciated 
the open approach that you have taken in that. And let me just 
say that what we were getting from a prior administration was 
not nearly as comprehensive as what you have been sharing with 
this Committee. But I also understand the situation Mr. 
Grijalva is in. I can appreciate it, because I felt the same 
way at different times. I just think I was more justified in 
it.
    With that, I am happy to have you here. This is tentatively 
to talk about budget issues, even though the Democrats say they 
are not going to have a budget. But other than that, I am sure 
there is going to be a wide variety of questions that are going 
to be given to you. Thank you for your willingness in this very 
short period time since your confirmation to be up here and to 
be with us. And I appreciate your efforts so far.
    And once again, I am very grateful for what you did at 
Golden Spike.
    With that, Mr. Chairman, let me yield back and we can get 
on with this.

    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of the Hon. Rob Bishop, Ranking Member, Committee on 
                           Natural Resources
    Mr. Secretary, thank you for being here. I am very happy to have 
you here as the 53rd Secretary of the Interior Department. Thank you 
also for being in Utah for the Golden Spike anniversary, 150th 
anniversary there. Your words were most profound, I appreciate that. I 
appreciate you actually being there. That was a significant 
commemoration of a significant date that changed America. So, I 
appreciate you doing that.
    I realize that a lot of people in your position have been appointed 
there for political reasons, or to pay off some special interest group. 
I think you are a different Secretary of the Interior; you know what 
you are talking about, and that is extremely positive. You have been 
in--confirmed for 35 days. In those 35 days, we have been in session 
only 18 of those, and this Committee has been doing business for 9 of 
those 18. So I appreciate you having spent as much time as you have up 
here in the House.
    I realize you have already talked to the House appropriators, for 
which you have our deepest sympathy, and you will be going to the 
Senate soon, for which you have a whole lot of empathy going over 
there. But thank you for being here with us.
    I also realize that you have been spending your time talking to 
individual Members. I think that is a wise approach to do this. That is 
very unprecedented. That is very cool. I also realize that you have 
been talking to more Democrats than Republicans, so I am going to 
castigate you now and say I want equal time and equal treatment. 
Although, if you look at this Committee, there is only two of our 
Committee members that are new to it. They need a lot more help. So I 
appreciate that. But be with us.
    I think, as we started this session, and we passed the backlog--the 
S.B. 47, whatever we called that thing, it showed that we can actually 
be productive in a bipartisan and bicameral manner. And I think, as we 
go forward, there are lots of things in which we want to engage with 
you and the Department to continue that process. There is a backlog 
issue that needs to be done in a bipartisan and bicameral way.
    There is a forest fire issue that needs to be done in a bicameral 
and bipartisan way. And even though you don't have charge of the Forest 
Service, many of the things that we are talking about here that the 
Forest Service wants can apply to BLM to mitigate the wildfires in that 
particular area, as well.
    I appreciate the amount of information that you have sent up here. 
I want Mr. Grijalva to note that, even though he doesn't believe this, 
I have a great deal of empathy for the situation he is in and some of 
the frustrations. In the 4 years I was working with Doc Hastings, when 
he was Chairman, and my first 2 years as Chairman, we had an 
administration--an Interior Department that was of a different 
political party. That was a frustrating situation. I realized I asked 
for a lot of materials, and we didn't get that.
    What I am telling you right now is I think you have been 
unprecedented in the amount of information that you have been sharing 
and giving. And I want Mr. Grijalva to know that I understand what it 
was like in his position with this situation. I do have empathy for 
that. But I have appreciated the open approach that you have taken in 
that.
    And let me just say that what we were getting from a prior 
administration was not nearly as comprehensive as what you have been 
sharing with this Committee. But I also understand the situation Mr. 
Grijalva is in. I can appreciate it, because I felt the same way at 
different times. I just think I was more justified in it.
    With that, I am happy to have you here. We are going to be talking 
about a lot of--this is tentatively to talk about budget issues, even 
though the Democrats say they are not going to have a budget. But other 
than that, I am sure there is going to be a wide variety of questions 
that are going to be given to you. Thank you for your willingness in 
this very short period time since your confirmation to be up here and 
to be with us. And I appreciate your efforts so far.
    And once again, I am very grateful for what you did at Golden 
Spike.

                                 ______
                                 

    The Chairman. Thank you. Thank you very much, Mr. Bishop. 
And we are gushing with a lot of empathy today. That is good.
    [Laughter.]
    Mr. Bishop. It won't last long. Take it while you get it.
    The Chairman. Our witness today is the Secretary of the 
Department of the Interior, Mr. David Bernhardt.
    I want to thank you very much for taking the time to be 
here and, as I stated earlier, for taking the time to meet with 
individual Members, as well. That is appreciated.
    Under our Committee Rules, our statements are limited to 5 
minutes. Your entire statement will appear in the hearing 
record.
    The lights in front will turn yellow when there is 1 minute 
left, and red when time is expired.
    After Mr. Bernhardt testifies, Members will be given the 
opportunity to ask questions.
    And with that, Secretary Bernhardt, you are recognized for 
your testimony. Thank you.

STATEMENT OF DAVID L. BERNHARDT, SECRETARY, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Secretary Bernhardt. Chairman Grijalva, Ranking Member 
Bishop, and members of the Committee, good morning.
    I do request that my written statement be inserted in the 
record at the appropriate place.
    This is my first time appearing before the Full Committee. 
I am appearing at the Chairman's request to discuss the 
Department's budget and policy priorities for Fiscal Year 2020.
    I began my career 26 years ago in probably the lowest seat 
on this side of the bench, I believe. Maybe it was the other 
side of the bench, but it was basically over here. And when I 
came in here, there was a big picture of Wayne Aspinall--the 
person who had been Chairman between, I think, 1959 and 1973. 
And I thought this was a magnificent room, and it is an honor 
to be here today.
    The President's Fiscal Year 2020 budget was transmitted to 
Congress on March 11. On March 27, the Principal Deputy for 
Policy, Management, and Budget, Scott Cameron, appeared before 
the Committee and provided the Department's perspective on the 
budget. In addition, a number of the Department's bureaus have 
testified before their respective subcommittees on both the 
budget and policy.
    On April 3, Dan Smith, the Deputy Director of the National 
Park Service, testified on the National Parks, Forests, and 
Public Lands Subcommittee on the Park Service's budget request.
    And on April 10, Brian Steed, the Deputy Director of the 
Bureau of Land Management, testified before that Subcommittee 
on BLM's request.
    Other subcommittee hearings on bureau budgets are scheduled 
in the near future. I think Mr. Huffman has a hearing with 
Reclamation, maybe tomorrow, even.
    Several of our bureaus have also appeared before the Energy 
and Mineral Resources Subcommittee in early March to discuss 
departmental policies and priorities under their programs, 
including, on March 6, Walter Cruickshank, our Acting Director 
of the Bureau of Ocean Energy Management, and Doug Morris, the 
Chief of Offshore Regulatory Programs for the Bureau of Safety 
and Environmental Enforcement.
    And then Mike Nedd, our Deputy Director of BLM Management, 
testified on March 12.
    In these hearings, the Committee has heard and discussed 
the specific details of the Department's Fiscal Year 2020 
submission, and the Department's bureau policy priorities. As 
part of my written statement, I have included their testimonies 
so that it can refresh your recollection.
    The President has been clear in his direction to and 
priorities for the Department. With the over-reaching goal of 
continued economic growth and prosperity, he has expressed his 
vision to the Department through a series of Executive Orders, 
which are detailed in my written statement. Those documents 
have served as a foundation for the Department's policy 
objectives.
    As Secretary, I will work hard to meet the President's 
vision and to strike a right balance of protection and 
sustainable use of resources in a way that will provide 
conservation stewardship, enhance the safety of our 
communities, increase energy security, and allow America to 
prosper. At the same time I will strive to meet the 
Administration's broader economic objective of managing Federal 
spending with restraint.
    In terms of my specific areas of focus, we intend to 
proceed with the Department's reorganization, including efforts 
to relocate some operations out West, closer to where the 
assets and the acres are located, particularly for the Bureau 
of Land Management.
    We are working hard to address workplace harassment across 
the Department. We have established the clear anti-harassment 
policy, which was unprecedented in the Department. We directed 
each bureau to develop an action plan to address its 
harassment-related issues, and I am tracking the progress in 
their implementing those plans.
    We launched an internal workplace culture transformation 
advisory council to look at common issues raised in the Federal 
Employee Viewpoint Survey, ways to improve employee engagement. 
And we are trying to build career paths that cross bureau 
silos.
    We have taken significant action to combat workplace 
misconduct, but there is more to be done, and more that must be 
done.
    The Department has also grappled for many years to address 
deteriorating infrastructure across our bureaus, and the 
maintenance backlog in our national parks, national wildlife 
refuges, the Bureau of Indian Education schools, and even some 
of our water facilities.
    Mr. Chairman, as we discussed when we met, I am committed 
to working with Congress to develop a legislative solution to 
address these important infrastructure needs. We have put a 
proposal in our budget, and I am sure there are other ways to 
address it. But I think that is an area we can find some common 
ground.
    It is also my hope that we can find some common ground to 
address range and hazardous fuels management to allow us to 
minimize the likelihood of catastrophic fire on the lands that 
we manage. We have proposed some ideas. I know that 
Representative Huffman has proposed a bill to address some 
ideas. I don't think these ideas are completely mutually 
exclusive. I would like to find some common ground. We have 
proposed six specific provisions in our budget, and I would 
like to use them as a point to talk forward, and go forward on.
    With that, I will conclude my testimony and prepare for 
your questions.

    [The prepared statement of Secretary Bernhardt follows:]
Prepared Statement of David L. Bernhardt, Secretary, U.S. Department of 
                              the Interior
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee, I am here today in my role as the Secretary of the Interior 
to discuss the Department's budget and policy priorities for FY 2020.
    The President's Fiscal Year 2020 Budget was transmitted to Congress 
on March 11, 2019. On March 27, 2019, the Department's Principal Deputy 
for Policy, Management and Budget, Scott Cameron appeared before the 
Committee and provided the Departmental perspective on the budget.
    Since the President's budget was proposed, a number of the 
Department's bureaus have testified before their respective 
subcommittees of jurisdiction on both budget and policy. On April 3, 
2019, Dan Smith, Deputy Director of the National Park Service, 
testified before the National Parks, Forests, and Public Lands 
subcommittee on the NPS' FY 2020 budget request and on April 10, 2019, 
Brian Steed, Deputy Director of the Bureau of Land Management, 
testified before that subcommittee on the BLM's FY 2020 budget request. 
Other subcommittee hearings on the FY 2020 request are scheduled for 
the near future.
    Several of our bureaus have also appeared before the Energy and 
Minerals subcommittee in early March to discuss Departmental policies 
and priorities under their programs. For example, on March 6, 2019, 
Walter Cruickshank, Acting Director of the Bureau of Ocean Energy 
Management and Doug Morris, Chief of Offshore Regulatory Programs, 
Bureau of Safety and Environmental Enforcement. And on March 12, 2019, 
Mike Nedd, Deputy Director of the Bureau of Land Management testified 
on behalf of the BLM.
    In those hearings, the Committee and its subcommittees heard and 
discussed the specific details of the Department's FY 2020 budget 
submission and Departmental and bureau priorities. As part of my 
written statement, I am including copies of the testimonies submitted 
by the Department's representatives at those hearings.

    The President has been clear in his direction to and priorities for 
the Department. With the overarching goal to support continued economic 
growth and prosperity, he has expressed his vision to the Department 
through a series of Executive Orders and Presidential Memoranda, 
including:

    <bullet> E.O. 13781 Comprehensive Plan for Reorganizing the 
            Executive Branch;

    <bullet> E.O. 13783 Promoting Energy Independence and Economic 
            Growth;

    <bullet> E.O. 13792 Review of Designations Under the Antiquities 
            Act;

    <bullet> E.O. 13795 Implementing an America-First Offshore Energy 
            Strategy;

    <bullet> E.O. 13807 Establishing Discipline and Accountability in 
            the Environmental Review and Permitting Process for 
            Infrastructure Projects;

    <bullet> E.O. 13817 A Federal Strategy to Ensure Secure and 
            Reliable Supplies of Critical Minerals;

    <bullet> E.O. 13840 Ocean Policy to Advance the Economic, Security, 
            and Environmental Interests of the United States;

    <bullet> E.O. 13855 Promoting Active Management of America's 
            Forests, Rangelands, and other Federal Lands to Improve 
            Conditions and Reduce Wildfire Risk; and

    These documents are the foundation of the Department's policy 
objectives since the early days of this Administration.

    As Secretary, I will work hard to effectuate the President's vision 
and to strike the right balance of protection and sustainable use of 
resources in a way that will provide conservation stewardship, enhance 
the safety of our communities, increase energy security, and allow 
America to prosper. At the same time, I will strive to meet the 
Administration's broader economic objective to manage Federal spending 
with restraint.
    We will proceed with the Department's reorganization, including 
efforts to relocate some operations out West, closer to where assets, 
acres, and customers are located.
    Transformation of the Department's ethics program will remain a key 
priority for me as Secretary. Since the beginning of this 
Administration, we have hired a total of 42 career, professional ethics 
advisors, and by the end of FY 2019 we will have doubled the number of 
career ethics officials that the previous administration hired in 8 
years. I have also directed the Department's Designated Agency Ethics 
Official to begin the process of consolidating the disparate ethics 
programs within the Department into one comprehensive Departmental 
program to create a better functioning and more robust program.
    We are working hard to address workplace harassment at the 
Department of the Interior. We have established a clear anti-harassment 
policy. We directed each bureau to develop an action plan to address 
its harassment-related issues, and are tracking their progress in 
implementing these plans. We launched an internal Workplace Culture 
Transformation Advisory Council to look at common issues raised in the 
Federal Employee Viewpoint Survey; ways to improve employee engagement; 
and building career paths that cross bureau silos. We have taken 
significant action to combat workplace misconduct, but there is more to 
be done.
    The Department has grappled for many years to address deteriorating 
infrastructure across our bureaus and maintenance backlogs at our 
national parks, national wildlife refuges, and Bureau of Indian 
Education schools, and even at our major dams. I am committed to 
working with Congress to develop a legislative solution to address 
these important infrastructure needs.
    Mr. Chairman, Ranking Member Bishop, this concludes my Statement. I 
will respond to any questions that you may have.

                                 *****

                              ATTACHMENTS

 STATEMENT OF SCOTT CAMERON, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR 
   POLICY, MANAGEMENT, AND BUDGET FOR THE DEPARTMENT OF THE INTERIOR 
 BEFORE THE HOUSE NATURAL RESOURCES COMMITTEE ON THE PRESIDENT'S 2020 
                             BUDGET REQUEST

                             MARCH 27, 2019

    Chairman Grijalva, Ranking Member Bishop, and Members of the 
Committee, I am pleased to appear before you today to discuss the 
President's 2020 Budget Request for the Department of the Interior. 
Interior's 2020 budget totals $12.6 billion. The 2020 request reflects 
the Administration's strong support for Interior's important missions 
and is $926.2 million above the President's 2019 request for Interior. 
In fiscal year 2020 Interior will have access to additional funding in 
the event of a severe wildland fire season, through disaster cap 
authority.
                         2020 budget priorities
    Interior's 2020 budget reflects the Administration's commitment to 
strike the right balance of protection and sustainable use of resources 
in a way that provides proper conservation stewardship of our land and 
resources, enhances the safety of our communities, increases energy 
security, and allows America to prosper. Our budget invests to grow 
jobs and prosperity, promote safe and secure communities, strengthen 
America's energy security, meet Interior's Trust responsibilities, and 
continue to reorganize the Department of the Interior.
    At the same time, this budget meets the Administration's broader 
economic objective to manage Federal spending with restraint. The 
request prioritizes delivery of Interior's core operating missions--the 
things the American public relies on us to do. We've focused our 
resources to take care of the assets we have, expand public access to 
our lands, and invest where Interior can make a significant 
contribution to national objectives.
    Complementing our funding request, the President's 2020 budget 
request features two significant legislative proposals to address 
wildfire risk through forest management reforms, and to rebuild 
America's public lands infrastructure.
                   promoting jobs and economic growth
    The Trump Administration is committed to economic growth and 
prosperity. Our 2020 budget supports working lands, good-paying 
American jobs, common sense regulatory reform, expanded opportunities 
for the outdoor recreation economy, and increased revenue to States, 
Tribes, and local communities. Interior balances access for Americans 
to enjoy their public lands, managing these special places and natural 
resources for generations to come and the development needed to serve 
the public and fuel local economies.
    Of Interior's $12.6 billion 2020 budget request, $4.9 billion 
supports the land management activities of the Bureau of Land 
Management (BLM), the National Park Service (NPS), and the Fish and 
Wildlife Service (FWS). These operating funds support the primary 
activities to meet the unique resource mission of each bureau. This 
funding supports resource development, day-to-day operations, and 
conservation stewardship activities for Interior's great places; and 
fulfills the Department's Federal wildlife responsibilities.
    America's Federal lands and waters contain tremendous job-creating 
assets, supporting more than 1.8 million jobs in energy, recreation, 
grazing, conservation, and hospitality. Dedicated stewardship of these 
resources and partnerships with communities bordering the public lands 
drive job opportunities and economic growth.
    Interior's resource management programs directly support important 
jobs across America. The budget invests $92.0 million in the BLM 
Rangeland Management program, which supports western ranching families, 
by managing nearly 18,000 livestock grazing permits and leases on the 
public lands. The BLM public domain forestry and Oregon and California 
grant lands programs support jobs and local economies through timber 
and timber product sales. The 2020 budget includes $107.2 million for 
these programs to support timber sales and forest management projects. 
Consistent with the targets established under Executive Order 13855, 
the request supports an estimated 280 million board feet in timber 
sales in 2021, continuing annual increases from the 2018 production 
level of226 million board feet.
    The 2020 budget includes $12.3 million for BLM's Other Mineral 
Resources Management program which manages development of leasable 
minerals. Funding in 2020 will be used to streamline program 
activities, expedite processing of applications, and facilitate more 
timely inspection and enforcement actions.
    The U.S. Geological Survey's (USGS) mineral resources program works 
to understand the fundamental science and identify supplies of mineral 
resources to support land use decisions across the United States. This 
program directly supports the Administration's efforts to strengthen 
America's energy and critical minerals security as outlined in 
Executive Order 13817. The program is working to identify domestic 
supplies of 35 critical minerals needed for manufacturing and 
technology innovation. The 2020 budget for the USGS includes $30.3 
million for critical minerals work. This investment will provide the 
advanced topographic, geologic, and geophysical data needed to locate 
U.S. critical mineral resources to inform management of private-sector 
domestic development, reduce dependence on foreign sources, and support 
job creation and technological innovation.
    To increase U.S. economic strength, the Administration has 
challenged Federal agencies to reduce the regulatory burden on 
Americans. We are working to ensure our regulations reflect advances in 
science and technology and foster innovation and economic growth. We 
have also established standard parameters to reduce page length and 
review times, internal processes, and applied project management 
practices to improve Interior's National Environmental Policy Act 
review and clearance activities. As part of this effort, we are also 
working to revise outdated processes and leverage technology to deliver 
better service. The 2020 budget invests in improvements to make it 
easier to do business with Interior, including more timely processing 
of coal, oil and gas, grazing management, communications 
infrastructure, and surface mining reclamation plan reviews.
    Our efforts to improve Interior's review and permitting activities 
directly contribute to a stronger infrastructure in the United States. 
Interior reviews and approves permits for Federal and private sector 
uses of Interior lands, including energy and minerals development, 
pipelines, and transmission infrastructure. The 2020 budget requests 
$107.5 million for planning and consultation, which includes support 
for the FWS to perform reviews required under Section 7 of the 
Endangered Species Act and thereby avoid unnecessary delays in Federal 
infrastructure projects.
    Investment in Interior's infrastructure also benefits local 
economies. Interior's infrastructure crisscrosses the country in 
roughly 2,400 locations. In many communities our operations are a major 
economic driver. Interior owns approximately 43,000 buildings, 106,000 
miles of road, and 77,000 structures--including dams, schools, 
laboratories, employee housing, and irrigation and power 
infrastructure. Many of these assets are deteriorating. In 2018, 
Interior's deferred maintenance backlog was over $18 billion, of which 
nearly $12 billion is associated with NPS assets. The 2020 budget 
invests $1.5 billion across Interior for infrastructure maintenance and 
construction to care for our assets. This includes $639.8 million for 
NPS construction and maintenance. Complementing the request is proposed 
legislation to establish a Public Lands Infrastructure Fund, setting 
aside up to $1.3 billion a year, $6.5 billion over 5 years, from 50 
percent of energy development revenue that would otherwise be credited 
or deposited as miscellaneous receipts to the Treasury. Within 
Interior, the Fund would be available for infrastructure needs in NPS, 
FWS, the Bureau of Indian Education (BIE), and BLM.
    According to the U.S. Commerce Department, in 2016, America's 
outdoor economy accounted for $412 billion of the U.S. GDP. Interior 
plays a major role in supporting America's outdoor economy through 
access to our public lands. Every year, hundreds of millions of visits 
are made to our national parks, national wildlife refuges, and BLM 
public lands to do everything from rock climb, kayak and camp to 
snorkel, hunt, and fish. Recreation visits to BLM and NPS lands alone 
support more than 350,000 jobs.
    Increasing recreational opportunities for more Americans through 
our public lands and waters also brings more economic opportunity for 
our neighboring gateway communities. Increased public access to 
America's lands is among our highest priorities. The budget for our 
primary land management bureaus includes roughly $970.9 million for 
recreation and public access programs to increase the public's 
enjoyment of Interior's unique resources. In FWS, this request supports 
safe and reliable access to outdoor recreation for over 55 million 
visitors to the national wildlife refuges. The refuge system has more 
than 377 units that offer high-quality hunting opportunities and 312 
units that are open to fishing. These activities, along with special 
events and outdoor education programs, annually generate $2.4 billion 
in economic activity and support more than 35,000 jobs. The 2020 budget 
includes $9.1 million for FWS to improve trails, open new areas to 
hunting, fishing and other recreation, increase awareness through 
updated websites and recreation maps, and deliver engaging 
environmental education programs at the refuges.
    In 2018, the 418 units of the national park system hosted over 318 
million visitors. The 2020 request for NPS includes $237.1 million for 
Visitor Services to support informative programming, concession 
management, and other activities to enhance the visitor experience. The 
budget invests $10.0 million to expand outdoor recreation opportunities 
including fishing programs for youth and other novice anglers, improve 
recreational related infrastructure and resources, and coordinate with 
State, local, business, and nonprofit stakeholders to increase access 
to outdoor recreation.
    Responsible stewardship also means being a good neighbor. The 2020 
budget maintains the Administration's continuing support for the 
Payments in Lieu of Taxes program, recognizing the inability of local 
communities to collect property taxes on certain Federal lands in their 
jurisdiction. In 2018, Interior made payments to over 1,900 local 
governments across the United States. Communities traditionally use 
these payments to help deliver vital services such as firefighting and 
police protection, construction of public schools and roads, and 
search-and-rescue operations. The 2020 budget includes $465.0 million 
in direct appropriations to support these payments.
 collaborative conservation of wildlife, habitat and cultural resources
    Conservation stewardship is a key component of Interior's overall 
mission and is shared across all bureaus. Whether implementing resource 
conservation projects, providing grants, scientific expertise, or 
educational programs to support land, water, and wildlife conservation, 
Interior is a leader in protecting and managing America's resources for 
current and future generations to enjoy. The Department's conservation 
efforts would not be possible without our partners across America.
    Our partners include the sportsmen and sportswomen who live 
America's conservation ethic. They volunteer and frequently provide 
private and partnership resources to care for wildlife habitat, species 
management, and collaborative conservation. Through the Pittman-
Robertson and Dingell-Johnson Act programs, sportsmen and sportswomen 
contribute over a billion dollars each year to wildlife and habitat 
conservation and outdoor recreation projects. Every time a firearm, 
fishing rod, hook, bullet, motor boat or boat fuel is sold, part of 
that cost goes to fund conservation.
    Increased access to hunting and fishing on public lands not only 
supports the outdoor economy but it actively supports conservation of 
these lands. Sportsmen and sportswomen also help to leverage roughly 
two to one the Federal contribution for Interior's North American 
Wetlands Conservation Act Grants. The 2020 budget includes $40 million 
for these grants, which support projects to improve the health of 
wetlands, support migratory birds, and enhance nearby water quality. 
The 2020 budget also includes $31.3 million for State and Tribal 
Wildlife Grants supporting State and Tribal projects to benefit local 
wildlife and their habitats through planning and restoration.
    The 2020 budget prioritizes partnerships, species recovery, and 
proactive wildlife and habitat conservation to avoid species from 
becoming endangered. The budget includes $95.0 million to recover 
listed species, and $26.4 million for a range of proactive species and 
habitat specific conservation and restoration programs to avoid the 
need to list species. The $67.8 million request for FWS Habitat 
Conservation features $54.4 million for the Partners for Fish and 
Wildlife Program, which leverages the Federal investment for 
conservation projects with local non-Federal partners all across the 
country.
    BLM's multiple use mission enables work, such as grazing, to 
continue on the public lands, but also ensures conservation of many 
species and their habitats--safeguarding the Nation's public lands as 
well as peoples' livelihoods. BLM manages more wildlife habitat acreage 
than any other Federal agency--supporting conservation efforts for 
3,000 species and preserving and restoring essential habitat for 430 
threatened or endangered species. The 2020 BLM budget includes $118.4 
million for Wildlife and Habitat Management. Management activities 
benefit native prairie, wildlife, and livestock, and help stabilize 
soils, maintain and improve water quality, reduce surface runoff and 
control flooding, improve ecological site conditions, and enhance 
overall environmental well-being.
    Habitat corridors are a feature of many of the vast tracts of land 
managed by BLM and are crucial for migrating wildlife. The Department 
is working with States to research and protect the migration corridors 
of some of North America's most iconic big-game species by protecting 
the range of moose, mule deer, elk, pronghorn antelope, bighorn sheep, 
and other species who share the ecosystem benefit. The 2020 budget 
invests $18.4 million across Interior to continue to support and expand 
migration corridor partnerships and conservation opportunities.
    America relies on the NPS to protect and maintain the natural 
beauty of the parks' iconic landscapes as well as the artifacts and 
structures which help tell America's history. The $2.4 billion request 
for national park operations includes $321.6 million for natural and 
cultural resource stewardship across the parks. The FWS mission focuses 
on the conservation, protection, and enhancement of wildlife and their 
habitats. The 2020 FWS budget includes $234.4 million for Wildlife and 
Habitat Management in the national refuge system.
    USGS provides science, consistent monitoring, observation and 
mapping to support the Department's conservation mission. USGS research 
provides insight into changes in the natural world--our water, lands, 
geology, wildlife--and how they may affect our communities. The 2020 
budget includes $141.0 million for scientific work related to 
ecosystems, supporting investigations related to specific ecosystems, 
such as Florida's Everglades; or biological threats to species, 
including White Nose Syndrome in bats.
    Water is vitally important to the health and well-being of 
Americans and our lands and wildlife. The USGS works with partners to 
manage water monitoring networks across the country which are relied 
upon by land managers, industry, and communities concerned about the 
availability of water or risk of flooding. USGS also addresses water 
quality issues, such as the prevalence of harmful algal blooms, which 
pose risks to natural resources reliant on water but also people. The 
2020 budget includes $179.9 million for USGS Water Resources programs 
to monitor, understand, and inform water challenges for the benefit of 
land and wildlife conservation, and communities across the country.
                 active management for healthy forests
    Dense undergrowth has amassed on Federal lands, providing fuel for 
catastrophic wildfires and worsening insect infestation, and spread of 
invasive species and disease. These conditions are banning the Nation's 
forests, rangelands, and watersheds, and placing people, their homes, 
and their communities at risk. These conditions also make it more 
dangerous for wildland firefighters to fight the fires. Active fuels 
management is a necessary and important tool to combat these threats, 
save lives, and protect property.
    In tandem with the budget, the Administration proposes a package of 
forest management legislative reforms to help address this serious 
risk. By providing the Department with the tools necessary to expedite 
timber salvage operations in response to wildfires, insect and disease 
infestations, and other disturbances, the Department can more 
effectively reduce the risk of wildfire, utilize forest materials 
damaged as a result of those events, and better allocate resources to 
support restoration activities. Interior's 2020 budget includes $194.0 
million in Wildland Fire Management to support aggressive fuels 
reduction work and pre-suppression activities to help mitigate the 
incidence of catastrophic wildfires. The budget also includes $161.8 
million for timber management programs in the BLM and the Bureau of 
Indian Affairs (BIA), to prioritize planning and preparation activities 
affecting timber sales volumes and forest health. In addition, the BLM 
budget includes $92.0 million to support healthy rangelands through 
weed reduction, vegetation treatments, and permitted grazing 
operations. The NPS budget includes $4.0 million specifically to 
improve active forest and vegetation management in the national parks.
    Complementing this initiative, Interior continues to work closely 
with partners to improve the sage-steppe working landscapes of the West 
which are vitally impacted by wildland fires. The 2020 budget includes 
$55.5 million to implement sage-grouse management plans and continue 
cooperation with Western States on greater sage-grouse conservation. 
This funding will be used to remove conifers, create fire breaks, 
remove fire-prone invasive plants, and protect and restore habitat for 
all sagebrush dependent wildlife. At the end of 2018, nearly 1.5 
million acres had been treated. The 2020 budget also includes $75.7 
million to continue management of Wild Horses and Burros on America's 
rangelands.
    More active forest management like expedited timber salvage can 
reduce the risk to firefighters and revegetation crews, speeding the 
recovery of lands. The expedited recovery of wood products also 
provides an economic benefit. In turn, the fire risk to people, 
communities, recreation facilities, and infrastructure is reduced.
                      safe and secure communities
    The Department of the Interior is the proud home of 4,000 federal 
law enforcement officers with duties as varied as the bureaus' 
missions. Interior has highly specialized units in three major cities, 
drug enforcement teams in Indian Country, urban search-and-rescue units 
that provide hurricane response, and backcountry units that operate in 
the wilderness for days at a time. The 2020 budget includes a total of 
$930.3 million for law enforcement programs, continues successful 
border enforcement and drug enforcement programs, and supports a new 
initiative to address the epidemic of violence and missing persons in 
Indian Country.
    Interior's law enforcement officers help to secure Interior lands 
on the southern border. Over 12.5 million acres under Interior 
jurisdiction are within 50 miles of the United States-Mexico border. 
More than 655 miles of land along the border are managed by Interior's 
bureaus. Interior works closely with the Department of Homeland 
Security to increase security on the southwest border, including 75 
border miles on Tribal lands, primarily managed by the Tohono O'odham 
Nation in Arizona. Currently, about 300 miles, or less than half, of 
Interior's border lands have a vehicle barrier, pedestrian fence, or 
wall.
    Fulfilling the President's commitment to end the opioid crisis in 
America is another top priority of the Department. This budget includes 
$10.0 million including an increase of $2.5 million, to continue 
support for the fight against opioids in Indian Country. BIA drug 
enforcement agents are part of the Federal Opioid Reduction Task Force 
addressing the increase in drug-related activities through interdiction 
programs to reduce drug use, distribution, and drug-related crime to 
help communities in Indian Country battle the opioid crisis. In the 
first year of operation, the Task Force conducted 8 undercover 
operations leading to more than 180 arrests and seizure of more than 
1,000 pounds of narcotics worth more than $9.0 million that were 
intended for sale in Indian Country.
    Interior's wildland fire suppression operations are part of a 
vitally important partnership across all levels of government to fight 
wildfires on public lands and minimize risk to nearby communities. In 
fiscal year 2018, Interior spent more than $528 million on wildfire 
suppression efforts alone. The 2020 budget includes $383.7 million for 
wildfire suppression, pursuant to the requirements under the 
Consolidated Appropriations Act, 2018. Consistent with the Act, 2020 is 
the first year resources are also available through a wildfire budget 
cap adjustment to meet U.S. Forest Service and Department of the 
Interior fire suppression needs. The 2020 budget assumes a preliminary 
split of $300 million of the authorized cap adjustment resources for 
Interior requirements, with the remainder allocated to the U.S. Forest 
Service. The Administration will reallocate resources between agencies 
as necessary to meet actual wildfire suppression needs.
    Employees from across Interior also serve as part of Federal 
emergency response efforts. In the event of a natural disaster, our 
employees work to protect and rebuild Interior's assets, but are also 
part of the community working to help recovery. USGS scientists play an 
important role preparing for and addressing the aftermath of natural 
hazard events. USGS provides important scientific and monitoring 
information to emergency responders, policy makers, and the public to 
reduce the risk of losses from a wide range of natural hazards, 
including earthquakes, floods, hurricanes, landslides, tsunamis, 
volcanic eruptions, wildfires, geomagnetic storms, and drought. The 
2020 budget includes $145.0 million for the USGS Natural Hazards 
programs. This funding maintains important nationwide monitoring 
networks that are vitally important to emergency managers.
                      an era of energy prosperity
    By advancing policies that embrace domestic energy development, the 
Trump Administration is putting America on a path toward greater energy 
security and prosperity. Under the Trump Administration, crude oil and 
natural gas production has hit all-time highs, U.S. net energy imports 
have fallen to their lowest levels since 1982, with the U.S. becoming a 
net exporter of natural gas in 2017 and expected to become a net 
exporter of energy overall, including petroleum and other liquids, by 
2020.
    Interior manages a good portion of the natural resources on 
America's public lands and waters, including oil, gas, coal, 
hydropower, minerals and renewable energy sources. The Department plays 
a critical role in the Nation's future energy security and our overall 
economic well-being. Altogether, Interior's energy and mineral 
portfolio contributed an economic output of over $150 billion and 
supported an estimated 740,000 jobs nationwide. The same year, Interior 
shattered prior records in onshore oil and gas and offshore wind energy 
lease sales, and disbursed $8.9 billion in revenues to States, Tribes, 
local communities, and the U.S. Treasury, an increase of $1.8 billion 
from 2017.
    The 2020 budget requests $777.0 million in discretionary resources 
for energy-related programs across the Department. Together with permit 
fees and other mandatory funding, Interior's 2020 energy programs total 
$830.1 million. A large portion of these energy development activities 
occur on the Outer Continental Shelf. The 2020 request includes a total 
of $393.9 million to support responsible exploration and development of 
America's offshore energy resources, which remains a pillar of the 
Administration's energy strategy. Within this request is $193.4 million 
for the Bureau of Ocean Energy Management's (BOEM) oil, gas, and 
renewable energy leasing and exploration activities. The 2020 budget 
continues to support preparation of the Nation's next 5-year Outer 
Continental Shelf Oil and Gas Leasing program. Interior is analyzing 
more than 2 million submitted public comments in response to the 2019-
2024 National OCS Oil and Gas Leasing Draft Proposed Program and will 
use this information to prepare a Proposed Leasing Program.
    The continued efforts of the Bureau of Safety and Environmental 
Enforcement (BSEE) are integral to a strong offshore energy program. 
The budget includes $200.5 million for BSEE's work to ensure safe and 
environmentally sustainable energy exploration and production. BSEE is 
committed to the continual advancement of the effectiveness of its 
inspection program, enhancing its permitting processes around greater 
quality assurance and consistency, reforming overly burdensome 
regulations, ensuring high levels of preparedness in the event of oil 
spills, and expanding the renewables program.
    The 2020 budget includes $190.4 million in current and permanent 
funding for BLM's onshore oil and gas activities, of which $137.3 
million is requested in direct appropriations. Funding will expand 
areas available for leasing, expedite permitting, and improve program 
management. The 2020 budget advances activities in Alaska and New 
Mexico, and continues work to streamline leasing processes and speed 
the review of Applications for Permits to Drill. Interior has already 
reduced wait times for these permits by 57 days (from 120 days to 63 
days). The budget will also help to expedite the processing of rights-
of-way permits needed to move energy to consumers.
    The 2020 BLM budget includes $29.1 million for renewable energy 
activities. This funding will support the review and siting of 
geothermal resources, wind and solar energy projects on public lands, 
and rights-of-way applications to connect these projects to 
transmission lines. The 2020 budget includes $19.8 million for the BLM 
coal management program focused on reducing permit processing times, 
simplifying the lease application process, and improving the timeliness 
to complete lease sale fair market value determinations. BLM's Federal 
coal leasing program supplies more than 40 percent of the coal produced 
in the United States.
    The 2020 budget for BIA includes $25.5 million for energy and 
mineral development programs in Tribal communities. Income from energy 
and mineral production is the largest source of revenue from natural 
resources on trust lands. In 2018, more than $1 billion in revenue from 
oil, gas and mineral activities was disbursed to Tribes and individual 
Indian mineral rights owners. Tribes use this revenue to develop 
infrastructure, provide healthcare and education, and support other 
critical community development programs.
    An important component of Interior's natural resource programs is 
the collection and disbursement of billions of dollars in receipts from 
development. The 2020 budget includes $147.3 million for the Office of 
Natural Resources Revenue (ONRR) to ensure Americans receive an 
accurate return for their public resources. In 2020, ONRR will continue 
to implement a critical new Minerals Revenue Management Support System 
to update and improve management and accountability of Interior's 
significant revenue collections.
           fulfilling our trust and insular responsibilities
    The Department of the Interior is responsible for fostering the 
government-to-government relationship with Indian Tribes and Alaska 
Native Villages and overseeing relations with U.S. territories and 
insular areas.
    The United States has an important relationship with the affiliated 
insular areas including the territories of American Samoa, Guam, the 
U.S. Virgin Islands, and the Commonwealth of the Northern Mariana 
Islands. With China's escalating influence in the Pacific region, 
Interior's insular responsibilities and obligations contribute 
meaningfully to broader Administration policy objectives in the region. 
In 2020, the Office of Insular Affairs will implement activities to 
bolster healthcare capacity, strengthen island economies, and fulfill 
U.S. Compact obligations. The Office will also participate in foreign 
policy and defense matters concerning the U.S. territories and the 
freely associated states. The 2020 budget includes a total of $610.7 
million in current and permanent authority, with $84.1 million in 
current appropriations.
    Interior provides services directly, or through contracts, grants, 
or compacts, to 573 federally recognized Tribes with a combined service 
population of nearly 2 million American Indians and Alaska Natives. The 
Department is committed to Tribal prosperity and working together with 
Tribes to address challenges in economic development, education, and 
law enforcement. Interior supports Indian self-determination to ensure 
Tribes have a strong voice in shaping Federal policies directly 
impacting their ability to govern and provide for the safety, 
education, and economic security of their citizens. Interior's Tribal 
programs deliver community services, restore Tribal homelands, fulfill 
commitments related to water and other resource rights, execute 
fiduciary trust responsibilities, support the stewardship of energy and 
other natural resources, create economic opportunity, and provide 
access to education.
    The 2020 budget for Indian Affairs prioritizes programs that serve 
the broadest service population and addresses Federal responsibilities 
and Tribal needs related to education, social services, infrastructure, 
law enforcement, and stewardship of land, water, and other natural 
resources. The 2020 budget includes $1.9 billion for BIA, and $936.3 
million for BIE. Within this is $367.4 million to fully fund the 
estimated Contract and Tribal Grant Support Costs Tribes incur from 
managing Federal Indian programs.
    The 2020 budget takes action to improve the quality and efficiency 
of the BIE schools. In 2020, for the first time, we request funding for 
BIA and BIE separately, as part of an effort to improve overall 
transparency, accountability, and autonomy for the effective delivery 
of BIE school services. This step is consistent with direction from 
Congress and GAO recommendations, urging the Department to consolidate 
all responsibilities related to Indian education under BIE. The changes 
in the 2020 budget respond to your direction and other longstanding 
criticism that the lines of authority for BIE services were not clear, 
it was too difficult to determine who had final accountability for 
delivering services, and BIE did not have sufficient independence to 
ensure school needs were met.
    The 2020 budget is the result of a detailed review within Indian 
Affairs, looking at the services provided to the BIE schools and the 
different roles of BIA, the Office of the Assistant Secretary for 
Indian Affairs, and BIE. The review considered where it made sense to 
decouple overlapping functions and where it made sense to continue 
cross-servicing to BIE with clearer agreements in place. The 2020 
request reflects this review and strengthens BIE's ability to deliver 
materials and services, carry out needed health and safety inspections, 
and ensure repairs are made. The BIE budget includes $867.4 million to 
continue core Indian education elementary, secondary and post-secondary 
programs. It also includes $68.9 million to support facility 
construction, repairs, deferred maintenance, and capital improvements.
    The 2020 BIA budget requests $1.5 billion for Operation of Indian 
Programs. This includes $409.2 million for the Public Safety and 
Justice programs providing law enforcement, corrections, and court 
services to Indian communities. The 2020 budget also includes $326.0 
million for Tribal Government programs with $178.9 million for Self 
Governance Compacts.
    The 2020 BIA budget includes $184.1 million for Natural Resources 
Management supporting resource conservation, economic use, recreation, 
and protection of Tribal resource rights. Within this amount is $54.8 
million for Tribal forestry programs which complement of the 
Administration's forest management legislative reforms. The budget also 
includes $11.2 million for the Tribal Management/Development Program 
which supports Tribal management of fish and game programs on Indian 
reservations. These programs ensure the protection of millions of acres 
of habitat necessary for the conservation of fish, wildlife, and plant 
resources and significantly contribute to the economic development of 
Tribal communities and the growing national demand for outdoor 
recreation and tourism.
    The budget maintains a strong commitment to meet Tribal settlement 
agreements and includes $45.6 million for BIA Water Rights Settlements. 
At this funding level, BIA remains on track to meet current water 
settlement commitments within the legislated timeframes. Across 
Interior, the budget includes $178.6 million for Indian Settlement 
commitments.
                           government reform
    President Trump challenged Federal agencies to modernize and reform 
the executive branch and Interior is leading the way to better serve 
the American people. The absolute first step is fostering a culture of 
ethics and respect amongst colleagues. There is zero tolerance for any 
type of workplace harassment at Interior. The Department is instilling 
a culture change through clear management accountability, swift 
personnel actions, reporting procedures for harassment conduct, 
improved training, and substantive action plans. In the area of anti-
harassment efforts, each bureau and office has made significant headway 
to put a diverse set of measures in place to prevent and address 
unacceptable conduct.
    We have also launched an internal Workplace Culture Transformation 
Advisory Council across the Department to keep a focus on Interior's 
workplace environment. The Council will look at common issues raised in 
the Federal Employee Viewpoint Survey, ways to improve employee 
engagement, and building career paths that cross bureau silos; all with 
the goal to transform Interior's workplace culture for future 
generations.
    Another management priority is creating a strong ethical culture to 
ensure Interior employees honor the public's trust to manage funds 
responsibly and avoid conflicts of interest. The expectations for 
appropriate employee conduct have been made clear, and the Department 
has set goals and expectations for qualified ethics officials 
sufficient to ensure our operations are conducted ethically.
    Over many decades, the Department of the Interior experienced new 
bureaus becoming established on an ad hoc basis with their own unique 
regional organizations. This ultimately resulted in a complicated 
series of 49 regional boundaries among 8 bureaus. This complexity led 
to the situation where bureau regional leadership was focused on 
different geographic areas, did not have adequate and shared 
understanding of the needs and perspectives of regional stakeholders, 
and opportunities to share administrative capacity across bureaus were 
difficult to recognize and implement. Members of the public were often 
frustrated by problems in inter-bureau decision making where 
uncoordinated timelines and processes could lead to unnecessarily long 
delays in reaching a decision. In 2018, Interior began a reorganization 
effort focused on making improvements across each of these areas.
    Interior's reorganization is driven by the need to improve our 
delivery of service to the public. The Department developed a 
reorganization strategy that relies on unified regions across Interior, 
moves some staff west to be closer to the resources and customers they 
support, improves coordination and collaboration among Interior's 
bureaus, and reviews standard administrative processes across Interior 
to find smarter ways to conduct business operations.
    Last year, Interior took the first step in the reorganization. 
After working closely with stakeholders across the country on options 
to consolidate Interior's 49 different regions into common regions, 
Interior adopted 12 unified regions for a subset of the bureaus. As a 
result of Tribal consultation, BIA, BIE, and the Office of the Special 
Trustee for American Indians will not realign their regional field 
structure.
    The unified regions will simplify how Interior is organized. 
Establishing unified regional boundaries across bureaus is the 
cornerstone of reforms to improve Interior's service delivery to the 
public. Within each shared region, bureaus will focus work on the same 
resources and constituents and improve coordination across the 
Department. For the public, fewer regions will make it easier to do 
business with Interior, particularly when the public interacts with 
several bureaus or jurisdictions. For Interior's business, the move 
will strengthen inter-bureau coordination and understanding, joint 
problem-solving, and mutual assistance.
    Bureaus and offices have begun to work across organizational lines 
to identify ways to maximize the benefits of the new regions. In 2019, 
we are analyzing options to relocate more operations out West, where 
the preponderance of bureau assets and acres are located, to better 
serve our customers. As part of the planning, we are considering 
relative cost, accessibility, and the specific functions where it makes 
sense to be closer to field assets. We are also reexamining some of the 
Department's common business operations to leverage consistent best 
practices across Interior. In 2020, the budget requests $27.6 million 
to continue implementing the reorganization with three areas of focus: 
Implementation of the Unified Regions ($12.1 million), Relocation and 
Regional Stand Up ($10.5 million), and Modernizing Interior's Business 
($5.0 million).
                         legislative proposals
    Forest Health--The Administration proposes a comprehensive package 
of legislative reforms to proactively reduce the risk of wildfires 
through better management of Federal forests and rangelands. The 
proposed legislation would provide categorical exclusions on Interior 
lands for active forest management, including the ability to harvest 
dead, dying, or damaged trees and proactive fuels management including 
the use of fuel breaks. These changes are much needed to help reduce 
fire risk, improve forest health, minimize after fire impacts, prevent 
re-burn of fire impacted areas, and improve safety for wildland 
firefighters.

    Public Lands Infrastructure Fund--The budget proposes $6.5 billion 
over 5 years for a Public Lands Infrastructure Fund to address deferred 
maintenance needs in the Departments of Interior and Agriculture. 
Within Interior, the Fund will support infrastructure improvements 
through an allocation of 70 percent for national parks, 10 percent for 
national forests, 10 percent for wildlife refuges, 5 percent for BIE 
schools, and 5 percent for lands managed by the BLM. The Fund will be 
supported by the deposit of 50 percent of all Federal energy 
development revenue that would otherwise be credited or deposited as 
miscellaneous receipts to the Treasury over the 2020-2024 period, 
subject to an annual limit of $1.3 billion. Interior and Agriculture 
would prioritize projects, monitor implementation, and measure results.

    Recreation Fee Program--The budget proposes to reauthorize the 
Federal Lands Recreation Enhancement Act, which expires in September 
2020. As a precaution, the budget also proposes appropriations language 
to provide a 2-year extension of FLREA through September 2022.

    Cancel Southern Nevada Public Land Management Act Account 
Balances--The budget proposes to cancel $230.0 million in unobligated 
balances from the Southern Nevada Public Land Management Act (SNPLMA) 
program over a 3-year period.

    EPAct Geothermal Payments to Counties--The budget proposes to 
restore the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
U.S. Treasury by repealing Section 224(b) of the Energy Policy Act of 
2005. That section changed the distribution to direct 50 percent to 
States, 25 percent to counties, and 25 percent to the Federal 
government.
                               conclusion
    Thank you for the opportunity to testify on the President's 2020 
Budget Request for the Department of the Interior.
    In closing, this is a responsible budget that prioritizes core 
functions important to the American people. This budget invests in 
American jobs and prosperity by supporting working lands, implementing 
regulatory reform, expanding access to grow the outdoor economy, and 
rebuilding infrastructure. Complementing this funding request is 
legislation to provide up to $6.5 billion over 5 years to address the 
deferred maintenance backlog on our public lands.
    This budget advances collaborative conservation with investments in 
the America's natural and cultural resources, support for conservation 
stewardship partnerships, a focus on species recovery and proactive 
conservation activities to avoid the need for listing, and reforms to 
improve the health of our forest and rangelands and reduce risk from 
severe wildfires.
    The 2020 budget supports safe and secure communities by helping to 
reduce wildfire risk, fight illegal drugs, and secure the southern 
border. The budget sustains America's era of energy prosperity, 
maintaining a diverse portfolio of energy sources, ensuring safe 
development, and keeping the U.S. on course to become a net exporter of 
energy in 2020.
    This budget meets the Nation's trust responsibilities to insular 
areas and Indian Country and takes action to address a longstanding 
need to improve the quality of service to students attending BIE 
schools.
    Lastly, this budget invests in Interior's longevity and the 
continued success of our mission by implementing reorganization 
reforms.
    I look forward to working with you to support the President's 2020 
budget request. I am happy to take your questions at this time.

                                 *****

STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR EXERCISING THE AUTHORITY 
  OF THE DIRECTOR, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
 BEFORE THE SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS, 
  OF THE HOUSE COMMITTEE ON NATURAL RESOURCES, EXAMINING THE SPENDING 
          PRIORITIES AND MISSION OF THE NATIONAL PARK SERVICE

                             April 3, 2019

    Chairwoman Haaland, Ranking Member Young, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
at this hearing on spending priorities and mission of the National Park 
Service (NPS) as reflected in the Fiscal Year (FY) 2020 President's 
budget request.
                fy 2020 introduction and budget summary
    The FY 2020 President's budget request proposes total discretionary 
appropriations of $2.7 billion for the NPS. The request continues 
delivery of mission critical activities and advances Administration 
priorities. These priorities include ensuring the American public 
continues to have an enriching national park experience, improving 
public access for outdoor recreation, and investing in park 
infrastructure. The request also includes an estimated $733.4 million 
in mandatory appropriations. In total, the request includes budget 
authority of $3.5 billion.
    The FY 2020 budget supports continued stewardship of resources of 
national significance and provision of enriching experiences and 
enjoyment for visitors. The President's budget ensures that national 
parks continue to serve visitors who come every year to relax and 
recreate in America's great outdoors and learn about the people and 
places that make up America's story.
    The budget includes $321.6 million for natural and cultural 
resource stewardship. National parks are critical venues for the 
conservation of natural resources and play a unique role as places to 
apply adaptive management strategies. The budget supports the 
conservation of natural resources by funding projects and programs that 
promote or control native and invasive species, combat disease to 
preserve species and ecosystems, mitigate impacts to resources through 
conservation restoration and research, restore native lands, and 
control wildfire fuels through vegetation management.
    The budget also emphasizes the importance of and commitment to 
addressing the deferred maintenance backlog faced by nearly every park 
across the country. The FY 2020 budget includes $796.8 million for 
facility operations and maintenance, including $132.0 million for 
Repair and Rehabilitation projects and $134.1 million for Cyclic 
Maintenance projects. The 2020 budget also includes a proposal to 
establish a multi-agency Public Lands Infrastructure Fund to address 
the backlog of deferred maintenance on public lands, including NPS 
lands.
    In 2018, for the fourth consecutive year visitation to America's 
national parks exceeded 300 million, totaling 318 million visitors. The 
2020 budget supports ongoing efforts to offer a rewarding national park 
experience and provide affordable and accessible recreational 
opportunities. Communities surrounding national parks benefit from 
sustained high visitation by way of increased economic activity 
generated by visitor and employee spending, both directly (e.g. hotels, 
restaurants, gas stations, etc.) and indirectly (e.g. hotel and 
restaurant suppliers, etc.). In 2017, the most recent data available, 
visitors spent an estimated $18.0 billion in local gateway regions, 
supporting more than 306,000 jobs, with $35.8 billion in economic 
output to the national economy.
    National parks provide recreational opportunities for hunters and 
anglers as well as campers and hikers. To assist in these efforts, the 
2020 budget includes $10.0 million to support and enhance recreational 
opportunities at parks, including $1.5 million to support veteran 
employment programs through Veteran Fire Corps conducting active forest 
management work; $1.0 million for a traditional trades apprenticeship 
program for veterans teaching historic preservation; $2.0 million to 
invest in a Service and Conservation Corps to improve recreation-
related infrastructure; $1.2 million to increase accessible hunting and 
fishing opportunities through a series of fishing events that would 
engage volunteers, including veterans, to teach junior anglers how to 
fish; $1.0 million to build and/or retrofit accessible hunting blinds 
and fishing piers; and $300,000 to support Alaska Native subsistence 
programs. The recreational access proposal also includes $3.0 million 
to promote lesser known park sites within the tourism industry and 
build partnerships to market the recreation opportunities available at 
all national park units.
    The request includes $6.3 million to support parks with rising 
visitation enhance the visitor experience and ensure visitor safety. 
Funding will expand capacity in the areas of interpretation and 
education, park protection, and facility operations and maintenance, 
where demands on capacity within parks in terms of staffing and 
facility upkeep are most pressing. Parks experiencing the most 
significant increase in visitation include Great Smoky Mountains, Grand 
Canyon, Glacier, and Acadia National Parks.
    The 2020 budget also requests $4.0 million for on-the-ground active 
forest management necessary to reduce the wildfire risk to NPS 
infrastructure and resources and increase safety for firefighters and 
the public. Parks with the highest priority needs include Great Smoky 
Mountains, Crater Lake, Sequoia and Kings Canyon, and Yellowstone 
National Parks.
    Addressing deferred maintenance in our national parks is critical 
to the NPS core mission and is a top priority of the Administration. 
The NPS 2018 deferred maintenance asset inventory summary report 
estimates there is $11.9 billion in deferred maintenance needs in the 
parks including buildings, roads, trails, and other assets under NPS 
care. The 2020 budget continues to prioritize maintenance fund sources 
for infrastructure projects that address deferred maintenance, health 
and safety concerns, and resource preservation that are financially 
sustainable.
    The FY 2020 budget includes $4.0 million for new parks including 
Camp Nelson National Monument; Ste. Genevieve National Historical Park; 
and the Birmingham Civil Rights, Freedom Riders, and Reconstruction Era 
National Monuments. Funding would also support increased security at 
Independence National Historical Park and Cesar E. Chavez National 
Monument, and provide for a newly implemented locality pay adjustment 
in three areas of the country.
                 operation of the national park system
    The Operation of the National Park System (ONPS) appropriation 
funds the operations of our 419 parks and related programs. The 2020 
budget proposes ONPS funding at $2.4 billion. The request for 
operations includes several notable proposals. These include the $10.0 
million for recreational access opportunities, $6.3 million to support 
parks with rising visitation, $4.0 million for active forest 
management, and $4.0 million for new park responsibilities, as 
described above. In addition to these, the budget requests $5.7 million 
for the reorganization of the Department of the Interior to implement 
the 12 unified regions and modernize Interior's administrative 
services. The budget also requests $5.0 million to be provided for the 
National Park Foundation to promote public-private partnerships for the 
benefit of the national park system. The budget proposes $2.3 million 
in law enforcement and health and safety increases to support the U.S. 
Public Health Service commissioned officers to ensure the safety of 
food, water, and wastewater systems provided in our national parks; to 
increase tactical support for fire suppression through the use of 
drones; and allow for additional law enforcement rangers to attend 
basic training--a step toward reducing the backlog of 200 rangers 
waiting to enter the training program. The budget also requests $1.2 
million in recurring funding for the timely replacement of the U.S. 
Park Police helicopter fleet. The budget also includes $5.5 million for 
the increase to the D.C. water and sewer bill and $5.9 million in net 
increases to External Administrative Costs including space rental, 
unemployment compensation, telecommunications and postage, and other 
departmental program changes.
                          centennial challenge
    The National Park Service Centennial Act (P.L. 114-289), enacted in 
2016, established a permanent National Park Centennial Challenge Fund. 
Amounts exceeding $10.0 million from the sale of age-discounted Federal 
Recreational Lands Passes, commonly known as Senior Passes, are 
deposited into this Fund as offsetting collections to be used as the 
Federal match for projects or programs that enhance the visitor 
experience. The budget estimates deposits into this Fund will be $1.4 
million in FY 2020. As all Federal funds must be matched on at least a 
50:50 basis, private donations will leverage the Federal funds for a 
total of at least $2.8 million.
                  national recreation and preservation
    The National Recreation and Preservation appropriation funds 
programs that support local and community efforts to preserve natural 
and cultural resources. The FY 2020 budget includes $32.3 million.
    The budget provides $11.2 million for Natural Programs, including 
$9.1 million for Rivers, Trails, and Conservations Assistance (RTCA) 
programs. RTCA will continue to enhance outdoor recreation access and 
provide technical assistance for projects in more than 800 communities. 
Other programs within this appropriation will provide support for 
managers of National Natural Landmarks, ensure recreation and 
conservation enhancements where possible in developing new hydropower, 
and assist in the transfer of unneeded/surplus Federal property to 
States and communities for public parks and recreation. National 
Register Programs are funded at $15.7 million and will conduct 
approximately 1,300 new National Register actions and other activities 
such as digitizing National Register records. Funding for the National 
Center for Preservation Technology and Training, proposed at $1.7 
million, will provide technical information, research, best-practices, 
and technology training to preservation professionals nationwide.
                       historic preservation fund
    The Historic Preservation Fund appropriation supports Historic 
Preservation Offices in States, territories, and tribal lands for the 
preservation of historically and culturally significant sites and to 
carry out other responsibilities under the National Historic 
Preservation Act. The FY 2020 budget requests $32.7 million.
                              construction
    The budget proposes $246.3 million for Construction. Line Item 
Construction is funded at $160.7 million, which includes $4.0 million 
for demolition and disposal projects, $4.0 million to mitigate dangers 
in and around abandoned mineral lands sites, and $152.7 million for 
line item projects that help tackle the NPS's $11.9 billion deferred 
maintenance backlog and address important safety, visitor experience, 
and resource preservation issues at parks. Some project examples 
include rehabilitating the breakwater at Fort Sumter and Fort Moultrie 
National Historical Park, and rebuilding the Nauset Light Beach 
Bathhouse at Cape Cod National Seashore.
    The request funds Construction Program Management and Operations at 
$41.9 million. Construction Planning is funded at $17.9 million to 
ensure future projects are ready for execution and reduce uncertainties 
often uncovered during initial planning of construction work that can 
necessitate changes in materials, time, compliance, or other factors 
that could increase the cost of a project.
    Funding for Special Programs is proposed at $15.7 million. These 
programs work with parks to decrease the potential of and increase 
preparedness for dam accidents, upgrade the condition of employee 
housing, and provide for emergency projects.
    The budget proposes to fund Management Planning activities of the 
Park Service at $10.2 million. The program will continue special 
resource studies and reconnaissance surveys currently underway or in 
the transmittal process.
                 land acquisition and state assistance
    Within the Federal Land Acquisition appropriation, American 
Battlefield Protection Program (ABPP) Acquisition Grants and 
Recreational Access Grants are funded at $5.0 million and $1.0 million, 
respectively. ABPP grant funding will allow for 12-15 grants per year 
and will continue protection of significant historic battlefield lands 
associated with wars on American soil. Recreational Access grants will 
allow NPS to continue to work with landowners adjacent to NPS 
properties to purchase properties that would enhance recreational 
opportunities.
                          mandatory proposals
    Due to sustained increases in visitation, as well as increases in 
fee pricing implemented in June 2018, revenues collected by NPS under 
the authority established in the Federal Lands Recreation Enhancement 
Act (FLREA) have increased 65% from FY 2014 to FY 2018. These revenues 
are used primarily at the park where they were collected, with a 
portion used at non-collecting parks, to implement projects and 
programs that enhance the visitor experience and improve visitor 
facilities. The FY 2020 budget estimates $312.5 million in FLREA 
revenues and plans to obligate $192.8 million on deferred maintenance, 
capital improvement, and routine maintenance.
    The budget also supports the Visitor Experience Improvements Fund 
(VEIF), as authorized through the Visitor Experience Improvement 
Authority (VEIA) under the National Park Service Centennial Act (P.L. 
114-289). The budget estimates $21.2 million in the revolving account 
to enhance the visitor experience through management, improvement, 
enhancement, operation, construction, and maintenance of commercial 
visitor services facilities.
                    public lands infrastructure fund
    The Departments of the Interior and Agriculture manage an 
infrastructure asset portfolio with over $18 billion in deferred 
maintenance, which includes structures, trails, roads, utility systems, 
and Bureau of Indian Education (BIE) schools. To address these needs, 
the budget includes $6.5 billion over 5 years for a Public Lands 
Infrastructure Fund. The Fund will support infrastructure improvements 
through an allocation of 70 percent for national parks, 10 percent for 
national forests, 10 percent for wildlife refuges, 5 percent for BIE 
schools, and 5 percent for lands managed by the Bureau of Land 
Management. The Fund will be supported by the deposit of 50 percent of 
all Federal energy development revenue that would otherwise be credited 
or deposited as miscellaneous receipts to the Treasury over the 2020-
2024 period, subject to an annual limit of $1.3 billion. Interior and 
Agriculture would prioritize projects, monitor implementation, and 
measure results. This investment will significantly improve many of 
America's most visible, visited, and treasured places.
    Thank you for your continued support of the NPS and consideration 
of our FY 2020 Budget Request.

                                 *****

STATEMENT OF BRIAN STEED, DEPUTY DIRECTOR FOR POLICY & PROGRAMS, BUREAU 
OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, HOUSE COMMITTEE ON 
NATURAL RESOURCES, SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC 
         LANDS, HEARING ON THE 2020 PRESIDENT'S BUDGET REQUEST

                             April 10, 2019

    Madam Chair and Members of the Subcommittee, I am pleased to be 
here today to discuss the Bureau of Land Management (BLM) Fiscal Year 
(FY) 2020 Budget Request. Given the Subcommittee's jurisdiction, this 
testimony focuses on the BLM's land, recreation, and natural resource 
management programs.
                              introduction
    The BLM manages approximately 245 million acres of surface land and 
over 700 million acres of subsurface mineral estate on behalf of the 
American people.
    The Federal Land Policy and Management Act of 1976 (FLPMA) sets 
forth the BLM's multiple-use and sustained yield mission, directing 
that public lands be managed for a variety of uses, ranging from 
conventional and renewable energy development, livestock grazing, 
conservation, mining, watershed protection, hunting, fishing, and other 
forms of recreation. The BLM manages lands with some of the most 
advanced energy development in the world and some of North America's 
most wild, historic, and scenic landscapes. Because of this, Federal 
lands support the production of goods and services that create jobs and 
promote economic development in communities across the Nation. Revenues 
generated from the public lands make the BLM one of the top revenue 
generating Federal agencies. States and counties use these important 
funds to support the building and maintenance of roads, schools, and 
other community needs. The BLM's multiple use mission advances the 
President's priorities of energy security, shared conservation 
stewardship, safe borders, and putting Americans back to work, while 
also emphasizing the interconnection between people, the public lands, 
and the economy.
    Collaboration and cooperation are hallmarks of the BLM's multiple 
use management approach. The Bureau engages a wide range of 
stakeholders and communities to inform its land management decisions. 
These efforts are essential in order for the Federal government to be a 
good neighbor to and steward for local communities.
                        fy 2020 budget overview
    The Bureau's 2020 budget requests $1.2 billion, including $1.08 
billion for the Management of Lands and Resources (MLR) appropriation 
and $107.0 million for the Oregon and California Grant Lands (O&C) 
appropriation--the BLM's two main operating accounts.
    The FY 2020 budget supports opportunities for outdoor recreation, 
sustainable timber harvesting, grazing, and promotes responsible energy 
and mineral development. In tandem with the budget, the Administration 
proposes a package of forest management legislative reforms to provide 
the Department with tools to reduce the threat of catastrophic 
wildfires.

    The BLM FY 2020 budget request reflects and strengthens the 
Administration's commitment in the following areas:

    <bullet> Restoring Trust and Being a Good Neighbor

    <bullet> Conserving Our Land and Water Resources

    <bullet> Expanding Outdoor Recreation

    <bullet> Sustainable Energy Development and Natural Resource 
            Protection

           active forest management and being a good neighbor
    The budget request reflects the Administration's priority of 
restoring regulatory balance, expanding access to public lands, and 
enhancing public trust and being a good neighbor in the communities 
that are home to BLM lands. On the heels of one of the Nation's most 
devastating wildland fire seasons, the Budget supports the important 
objectives laid out in President Trump's Executive Order (E.O.) 13855, 
Promoting Active Management of America's Forests, Rangeland, and Other 
Federal Lands to Improve Conditions and Reduce Wildfire Risk. The BLM 
budget prioritizes active forest management as necessary to achieve the 
targets set forth in the E.O. and invests $10.2 million in 2020 for 
forest management on public domain lands. The 2020 BLM budget also 
requests $107.0 million in the Oregon and California Grant Lands 
appropriation, much of which will lay the groundwork to increase the 
amount of timber offered for sale there to 280 million board feet 
(MMBF) in 2021, reflecting the BLM's commitment to advance timber 
production and forest health. Approximately 226 MMBF were sold in 2018.
    In tandem with the Budget, the Administration is proposing a 
package of forest management legislative reforms, which includes 
categorical exclusions for fuels management work. These authorities 
will promote shared stewardship across ownership boundaries and improve 
the ability to treat additional acres more efficiently and effectively, 
thereby reducing fire risk and making meaningful progress toward 
resilient landscapes and fire-adapted communities. This will provide 
the Bureau with the necessary tools to help protect firefighters and 
communities from wildfire by emphasizing forest management strategies 
that significantly increase resilience to wildfire, insects, disease, 
and drought, as well as support timber harvests and biomass 
utilization.
                conserving our land and water resources
    The BLM continues to focus on high priority work across the Land 
Resources, Wildlife and Aquatics, Recreation Management, and Resource 
Protection and Maintenance activities. These activities support many of 
the Department's high priority goals, including energy independence, 
expanded recreation, and shared conservation.
    Balancing habitat conservation and responsible development of 
public land resources ensures the best outcome for the people and 
wildlife that rely on these lands. The BLM's 2020 budget request builds 
on the results of ongoing efforts including implementing ``outcome 
based grazing'' and sage-grouse management plan amendments, which 
better align Federal habitat conservation efforts with State wildlife 
management plans.
    The BLM will invest $7.0 million in habitat identification and 
habitat restoration efforts across multiple programs, which will help 
implement Secretarial Order 3362, Improving Habitat in Western Big-Game 
and Migration Corridors. This funding will be used in coordination with 
States to support big game as well as evaluation and implementation of 
habitat restoration.
    In addition, the 2020 budget request provides $92.0 million for the 
Rangeland Management program. To better leverage resources and focus 
funding on more complex gazing permit processing requirements, the BLM 
will continue to use the authority provided under section 402(c) of the 
FLPMA. The BLM administers about 18,000 grazing permits and leases 
within almost 22,000 grazing allotments on approximately 155 million 
acres of public land. Grazing permits are generally issued for 10 
years, which means that renewing grazing permits is a cyclical process 
and not a one-time event. The BLM will continue efforts to improve and 
streamline grazing permit processing to achieve greater efficiencies 
and service to permittees while striving to meet land condition 
objectives. The BLM plans to continue or expand recent demonstration 
projects using Outcome Based Grazing Authorizations.
    Finally, the budget seeks $75.7 million for the BLM's Wild Horse 
and Burro program, which in 2020 will continue to identify innovative 
ways to address the burden that growing wild horse and burro 
populations put on fragile rangeland resources and taxpayer resources. 
The program will seek to increase public/private partnerships to place 
more animals into private care while also working with organizations to 
create public/private partnerships on pasture lands. The program will 
also work with academia and Federal partners to enhance existing 
sterilization methods and fertility control vaccines, develop new 
population controls through research projects, and continue to pursue 
adoptions and sales, including incentivizing adoptions.
                      expanding outdoor recreation
    The BLM is committed to the Administration's priority of expanding 
access for the American public to the vast recreation resources on BLM-
managed public lands, including enhancing opportunities for hunting, 
fishing, and many other uses.
    In 2018, DOI records indicate that visitor recreation exceeded 67 
million visitors on public lands, and it is estimated that the BLM will 
exceed over 70 million visitors in 2020. Visitors to these lands enjoy 
countless types of outdoor adventure--participating in activities as 
widely varied as camping, hunting, fishing, hiking, horseback riding, 
boating, whitewater rafting, hang-gliding, off-highway vehicle driving, 
mountain biking, wildlife viewing, photography, climbing, many types of 
winter sports, and visiting remarkable natural and cultural sites.
    Currently, the BLM manages over 3,600 developed recreation sites 
and areas; administers over 4,500 permits for commercial, competitive, 
and organized group activities; and provides the public with thousands 
of miles of motorized and non-motorized trails. Recreational 
experiences are especially important in the growing West and contribute 
to local economies.
    The FY 2020 budget request promotes a holistic approach to managing 
our recreational lands and cultural resources, which will be 
implemented through more streamlined recreational and cultural 
resources management. The budget proposes $54.8 million for Recreation 
Resources Management to meet growing public demand and will focus on 
areas in need of visitor services at the highest visitation sites.
    The budget also includes $37.1 million for the National Monuments 
and National Conservation Areas program to manage designated historic 
landmarks, historic and prehistoric structures, and other objects of 
historic or scientific interest on the public lands, and to support 
outstanding recreational opportunities and public access.
    The Cultural Resources Management program, which supports the 
inventory, protection, and stabilization of BLM cultural sites, will 
receive $15.6 million in FY 2020. The program will continue to provide 
support and guidance on consultation with Tribes and to other BLM 
programs.
                          modernizing the blm
    In 2018, the Department announced the designation of Interior's 12 
new unified regional boundaries. Establishing unified regional 
boundaries across Interior bureaus will improve Interior's service 
delivery to the public across Interior bureaus. Within each shared 
region, bureaus will focus work on the same resources and constituents 
and improve coordination across the Department. For the public, fewer 
regions make it easier to do business with Interior, particularly when 
it involves several bureaus or jurisdictions. The FY 2020 budget 
request includes an increase of $7.7 million to support implementation 
of the Department's reorganization.
 implementing public law 116-9, the john d. dingell, jr. conservation, 
                     management, and recreation act
    On March 28, 2019, Acting Secretary Bernhardt signed Secretarial 
Order 3374 to facilitate and prioritize implementation of Public Law 
116-9, which is sweeping public lands legislation with provisions 
affecting all 50 States. This Act establishes many conservation and 
recreation special management designations, provides for a number of 
significant land sales, transfers, and exchanges, and resolves many 
long-standing and complicated land tenure issues on lands managed by 
the Department. Secretarial Order 3374 will also ensure consistency 
among all offices and bureaus within the Department. While all of the 
Department's bureaus are affected by the new law, over 30 of the 
individual sections apply to public lands managed by the BLM. As 
directed by Secretarial Order 3374, the BLM is working expeditiously to 
implement the sections of the new law.
                               conclusion
    The President's FY 2020 budget request for the BLM provides 
sustainable benefits across the West and for the Nation. The BLM takes 
pride in its collaborative efforts to manage the public lands in a way 
that helps to create and sustain jobs, increase access and enhance 
outdoor recreation opportunities nationwide, and to maintain productive 
working landscapes for grazing and timber. I look forward to working 
with the Subcommittee to provide the BLM with the tools and resources 
necessary to achieve these important Administration objectives. Thank 
you for the opportunity to present this testimony.

                                 *****

   STATEMENT OF WALTER CRUICKSHANK, ACTING DIRECTOR, BUREAU OF OCEAN 
 ENERGY MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, BEFORE THE HOUSE 
  COMMITTEE ON NATURAL RESOURCES, SUBCOMMITTEE ON ENERGY AND MINERAL 
                               RESOURCES

                             March 6, 2019

    Chairman Lowenthal, Ranking Member Gosar and members of the 
Subcommittee, thank you for inviting me to appear before you today to 
discuss the mission of the Bureau of Ocean Energy Management (BOEM). I 
am pleased to appear here today with my counterpart from the Bureau of 
Safety and Environmental Enforcement (BSEE). BOEM coordinates and 
collaborates with BSEE in a variety of ways on a daily basis to ensure 
effective management of offshore energy activities. Through the sharing 
of data and collaboration on cross-cutting topics, BOEM and BSEE work 
efficiently to ensure that offshore energy and mineral resources 
belonging to the American public are managed in a safe and responsible 
manner that brings maximum benefit to the United States taxpayer.
    The Administration's America First Offshore Energy Strategy calls 
for boosting domestic energy production to stimulate the Nation's 
economy and to ensure national security, while providing for 
responsible stewardship of the environment. Implementation of these 
goals aligns with BOEM's statutory mission. BOEM is responsible for 
managing the development of our Nation's offshore energy and mineral 
resources in an economically and environmentally responsible manner. 
BOEM accomplishes this mission through oil and gas leasing, renewable 
energy development, and marine mineral leasing, all of which are guided 
by rigorous, science-based environmental review and analysis. BOEM 
helps support the Administration's goal to increase domestic energy 
production by providing access to Outer Continental Shelf (OCS) 
resources through programs that enable exploration and production of 
offshore oil and gas resources and facilitate renewable energy 
development. As a result, BOEM plays an important role in advancing the 
Administration's comprehensive approach to expanding responsible 
domestic energy resource development as part of a broader effort to 
secure the Nation's energy future, benefit the economy, and create 
jobs.
    BOEM manages access to, and, as required by statute, ensures fair 
market value or fair return for, OCS energy and mineral resources to 
help meet the Nation's energy demands and mineral needs, while also 
balancing such access with the protection of human, marine, and coastal 
environments. As the Nation's offshore energy and mineral resource 
manager, BOEM administers comprehensive analyses to inform decisions 
about where, when, and whether offshore energy and mineral development 
can or should occur.
                          oil and natural gas
    As of February 2019, BOEM administers more than 2,600 active oil 
and gas leases on nearly 14 million OCS acres. In 2018, OCS leases 
generated more than $5.2 billion in revenue for the Federal Treasury, 
Land and Water Conservation Fund, Historic Preservation Fund, and state 
governments. The overall level of activity on the OCS--including 
current production, drilling, and the development of new projects--is 
estimated to support approximately 300,000 direct, indirect, and 
induced jobs. In FY 2017, OCS leases provided more than 621 million 
barrels of oil and 1.11 trillion cubic feet of natural gas to energy 
markets, accounting for approximately 18 percent of domestic oil 
production and 4 percent of domestic natural gas production, almost all 
of which was produced in the Gulf of Mexico.
    In FY 2017, BOEM initiated efforts to develop a new National OCS 
Oil and Gas Leasing Program (National OCS Program), pursuant to 
Executive Order 13795, Implementing an America-First Offshore Energy 
Strategy, and Secretarial Order 3350, America-First Offshore Energy 
Strategy. Due to the extensive coordination and public outreach 
required, the entire program development process typically takes two to 
three years. BOEM initiated the public process on July 3, 2017, with a 
Request for Information, on which it received more than 800,000 
comments. BOEM gave these comments careful consideration when 
developing its Draft Proposed Program. On January 4, 2018, the 
Department announced the 2019-2024 National OCS Oil and Gas Leasing 
Draft Proposed Program (DPP), which proposes 47 potential lease sales 
for consideration in 25 of the 26 OCS planning areas--the largest 
number of lease sales ever proposed for the National OCS Program's 
five-year lease schedule. This DPP would make more than 98 percent of 
undiscovered technically recoverable OCS oil and gas resources 
available for oil and gas leasing consideration. It is also the first 
time in 35 years that virtually the entire OCS has been analyzed under 
the provisions of the OCS Lands Act and the National Environmental 
Policy Act at this stage in the program development process, providing 
the Secretary the most comprehensive and up-to-date information on 
which to base decisions. The publication of the DPP initiated a 60-day 
public comment period during which BOEM received more than 2 million 
comments. BOEM has again taken these comments into careful 
consideration and will release the Proposed Program in the coming 
weeks.
    BOEM will continue implementation of the current 2017-2022 National 
OCS Program until the new National OCS Program takes effect. BOEM has 
conducted three Gulf of Mexico-wide lease sales under the current 
program, resulting in the issuance of 361 leases totaling more than 
$402 million in bonus revenue. The next Gulf-wide lease sale is 
scheduled for March 20, 2019.
    BOEM is continuing efforts to facilitate the acquisition, and 
evaluation, of updated resource information in the Atlantic, including 
updated geological and geophysical (G&G) data. The last seismic data 
for the Mid- and South Atlantic OCS were gathered more than 35 years 
ago. During FY 2014, BOEM developed a framework for the acquisition and 
management of G&G data within the Mid- and South Atlantic Planning 
Areas using current technologies. Data acquired from the permit 
applicants can be used to help advance fundamental scientific knowledge 
and identify potential offshore oil and gas resources, as well as 
determine the fair market value of such resources. This data can also 
assist BOEM in identifying sand to be used for restoration of our 
Nation's beaches and barrier islands following severe weather events 
and to protect coasts and wetlands from erosion.
    In 2014, BOEM issued a Record of Decision for the Programmatic 
Environmental Impact Statement for Atlantic G&G activities that 
established stringent mitigation measures while allowing for potential 
G&G survey activities off the Mid-Atlantic and South Atlantic coast. 
There are currently nine permit applications pending for G&G activities 
related to oil and gas in the Atlantic, ranging from aerial magnetic 
and gravity surveys to deep penetration seismic surveys. NOAA Fisheries 
issued Incidental Harassment Authorizations (IHAs) to five permit 
applicants pursuant to the Marine Mammal Protection Act on November 30, 
2018. BOEM currently is completing its review of four permit 
applications. Any decision to approve G&G activities does not authorize 
leasing for oil and gas in any area of the Atlantic. Leasing decisions 
will be addressed through the National OCS Program and the decision to 
lease a particular area would be done at the lease sale stage, which 
comes after approval of the National OCS Program.
    Executive Order 13795 called for a reconsideration of BOEM's Notice 
to Lessees No. 2016-N01, which addressed financial assurance, to reduce 
unnecessary regulatory burdens while ensuring operator compliance with 
lease terms. One of BOEM's priorities with respect to regulatory reform 
is to better align requirements with the realities of aging offshore 
infrastructure. BOEM's goals are to ensure that lease obligations (such 
as decommissioning) are borne by the lessees and not by the taxpayers. 
BOEM is proactively implementing a comprehensive Risk Management and 
Financial Assurance Program to modernize its regulatory regime. BOEM's 
Risk Management Program will develop risk governance structures, 
including revised bonding and financial assurance regulations, as well 
as general and project-specific risk management strategies and 
procedures. Finally, the program will monitor and track the financial 
strength of offshore lessees to ensure that BOEM is requiring the 
proper level of bonding or other acceptable financial risk mitigation 
measures to protect taxpayers.
                      renewable energy development
    In recognition of the role renewable energy can play in securing 
U.S. energy independence and supporting national economic growth, BOEM 
will continue to examine the development of renewable energy. BOEM 
identifies potential wind energy areas using a coordinated approach 
that includes extensive environmental analysis, public review, and 
large-scale planning. BOEM has issued 15 active commercial offshore 
wind energy leases, including three recently awarded following a 
competitive auction offshore Massachusetts that garnered $405 million 
in winning bids. To date, competitive wind energy lease sales have 
generated more than $473 million in bonus bids for nearly 2 million 
acres in the OCS. If fully developed, these leases could generate 
enough energy to power over 5.5 million homes. BOEM is currently 
engaged in renewable energy planning efforts for areas offshore 
California, Hawaii, New York/New Jersey, and North/South Carolina. BOEM 
is also making progress on siting demonstration and technology testing 
projects for wind and marine hydrokinetic energy offshore on both the 
Atlantic and Pacific coasts.
    Two construction and operations plans--for the Vineyard Wind 
Project and South Fork Wind Farm--were submitted to BOEM in FY 2018, 
and BOEM has initiated development of environmental impact statements 
for both projects. Current lessees have told BOEM to anticipate 
receiving up to five more construction and operations plans through 
2019. Reviews of all these projects will be conducted consistent with 
statutory and regulatory authorities, as well as with EO 13807 
(Establishing Discipline and Accountability in Environmental Review and 
Permitting Process for Infrastructure Projects) and SO 3355 
(Streamlining National Environmental Policy Act Reviews and 
Implementation of Executive Order 13807).
    Offshore wind has the potential to play an integral role in our 
future energy portfolio. BOEM will continue to work closely with other 
Federal agencies, states, and other key stakeholders to ensure the 
responsible development of this technology.
                            marine minerals
    In carrying out its mission to manage the responsible development 
of offshore resources, BOEM considers resources other than conventional 
or renewable energy. Pursuant to the OCS Lands Act, BOEM is the steward 
of OCS sand, gravel, and shell resources. Through its Marine Minerals 
Program, BOEM manages the responsible use of these resources, which are 
critical for the long-term success and cost-effectiveness of many shore 
protection, beach nourishment, and wetlands restoration projects along 
the Atlantic and Gulf of Mexico coasts. Since 1995, BOEM (and its 
predecessors) has leased almost 150 million cubic yards of sediment 
resources for 55 projects in eight states and helped to restore more 
than 300 miles of coastline along the Atlantic and Gulf coasts.
    BOEM continues to see an increasing trend in the number of requests 
for OCS sediment, as well as a commensurate increase in the volume of 
OCS of sediment allocated per year. These trends are driven by 
diminishing resources in state waters and a high frequency of recent 
storms along the Atlantic and Gulf of Mexico coasts.
    Critical minerals are a new focal area for BOEM's Marine Minerals 
Program. Pursuant to Executive Order 13817--A Federal Strategy To 
Ensure Secure and Reliable Supplies of Critical Minerals--and 
Secretarial Order 3359--Critical Mineral Independence and Security--
BOEM is collaborating with the USGS to determine which critical 
minerals are located on the OCS.
                         environmental programs
    BOEM is responsible for assessing the impacts of, and providing 
effective environmental safeguards for, OCS energy and mineral 
resources exploration and development. BOEM develops, funds, and 
manages scientific research to inform these assessments and provide the 
foundation for sound, science-based policy decisions that help BOEM 
manage the Nation's offshore energy and mineral resources in an 
environmentally and economically responsible manner.
    BOEM's environmental programs, including its Environmental Studies 
Program, provide information about the potential environmental impacts 
of OCS energy and mineral resource development and offer measures to 
prevent, mitigate, and monitor these impacts. This information supports 
and guides decision-making not just within BOEM, but also by BSEE and 
other governmental authorities.
    Because of the quality, scale, and duration of studies performed 
under its auspices, BOEM's Environmental Studies Program is a leading 
contributor to the growing body of scientific knowledge about the 
Nation's marine and coastal environment. Through its applied research 
program, BOEM has leveraged partnerships with academic institutions and 
other Federal agencies to produce top-tier scientific work.
    BOEM's management of the Nation's OCS oil and gas, marine minerals, 
and renewable energy resources will continue to be informed through the 
environmental assessments, studies and partnerships conducted under its 
Environmental Programs. These efforts are vital to ensuring that the 
impacts of OCS activities on the environment are understood and 
effective protective measures are put in place.
                               conclusion
    Moving forward, BOEM's oil and gas, renewable energy, marine 
mineral, and environmental programs will continue to meet the high 
standards set by the Administration, Congress, and the public through 
appropriate planning, development, and protection of the Nation's 
offshore resources in response to the Nation's energy and coastal 
resilience needs.
    Thank you once again for the opportunity to testify here today. I 
would be happy to answer any questions you may have.

                                 *****

   STATEMENT OF DOUGLAS MORRIS, CHIEF, OFFICE OF OFFSHORE REGULATORY 
PROGRAMS, BUREAU OF SAFETY AND ENVIRONMENTAL ENFORCEMENT, UNITED STATES 
DEPARTMENT OF THE INTERIOR, BEFORE THE COMMITTEE ON NATURAL RESOURCES, 
      SUBCOMMITEE ON ENERGY AND MINERAL RESOURCES, U.S. HOUSE OF 
                            REPRESENTATIVES

  Hearing on ``Examining the Policies and Priorities of the Bureau of 
    Ocean Energy Management, the Bureau of Safety and Environmental 
             Enforcement, and the U.S. Geological Survey''

                             March 6, 2019

    Chairman Lowenthal, Ranking Member Gosar, and Members of the 
Subcommittee, I am pleased to join you today to discuss the policies 
and priorities of the Bureau of Safety and Environmental Enforcement 
(BSEE), a bureau of the Department of the Interior. We welcome the 
Subcommittee's interest in our efforts to promote offshore safety and 
environmental protection. It is our firm belief that our Nation's 
demand for the energy resources it needs today should be met by a 
supply that is developed safely, sustainably, and domestically.
    The Outer Continental Shelf (OCS) is a vital component of our 
nation's energy economy. In 2018, oil production from the Federal OCS 
exceeded 644 million barrels and natural gas production topped 986 
billion cubic feet.\1\ It accounts for approximately 18% of domestic 
oil production, 4% of domestic natural gas production, billions of 
dollars in annual revenue for the Treasury, states, and conservation 
programs, and supports an estimated 300,000 jobs. As the agency charged 
with the mission of ensuring that the offshore oil and gas industry 
extracts these resources in a safe and environmentally sustainable 
manner, I believe that we have made significant progress toward 
reducing the risks of offshore oil and gas exploration and production 
so that we may continue to realize these important national benefits.
---------------------------------------------------------------------------
    \1\ https://www.data.bsee.gov/Production/OCSProduction/
Default.aspx.
---------------------------------------------------------------------------
                               background
    BSEE has jurisdiction over offshore energy development on the OCS, 
with operations permitted in three regions--the Gulf of Mexico, 
Pacific, and the Alaskan OCS. The Bureau was established to protect 
life, property, and the environment by ensuring the safe and 
responsible exploration, development, and production of offshore energy 
resources. Currently, areas within our jurisdiction are home to 
approximately 40 active drilling rigs and almost 2,000 offshore 
facilities steadily pumping hundreds of millions of barrels of oil 
through more than 25,000 miles of pipelines, predominantly in the Gulf 
of Mexico.
    BSEE actively works to promote the efficient and responsible 
production of offshore energy resources through a comprehensive program 
of permitting, regulations, compliance monitoring and enforcement, 
technical assessments, inspections, preparedness activities, and 
incident investigations. As a steward of our nation's natural 
resources, resource conservation is also central to BSEE's mission: the 
Bureau protects federal royalty interests by ensuring that offshore oil 
and gas are conserved and leaseholders maximize recovery from OCS 
reservoirs. To carry out its diverse array of policies and programs, 
the Bureau employs highly skilled engineers, geoscientists, geologists, 
environmental specialists, inspectors, and preparedness analysts. Our 
people have the breadth of expertise and experience needed to oversee 
offshore energy projects from the planning of exploratory drilling 
operations through the decommissioning of offshore production 
platforms.
    The Administration's work to improve our oversight of oil and 
natural gas development on the OCS reflects a careful balance among 
resource development, production goals, worker safety, and 
environmental protection. In overseeing an industry with such complex 
and expansive operations, BSEE is continually looking for opportunities 
to strengthen environmental safeguards and to take a smarter, more 
strategic approach to safety.
               offshore safety innovation and improvement
    In recent years America has seen ever increasing levels of 
production offshore, with production levels reaching 10-year highs in 
2018.\2\ Over that same year, BSEE inspected every platform, drilling 
rig, and non-rig unit on the OCS, which, in 2018, represented a six 
percent increase in inspections from 2016. In doing so, BSEE satisfied 
its statutory inspection obligation and played a critical role in 
ensuring that the record-level of offshore production in 2018 was 
carried out safely. While production levels have increased over the 
past two years, the number of injuries and incidents, such as fires, 
have shown steady decreases when normalized to levels of activity.
---------------------------------------------------------------------------
    \2\ https://www.data.bsee.gov/Production/OCSProduction/
Default.aspx.
---------------------------------------------------------------------------
    Beginning in 2017, the Bureau engaged in an effort to determine how 
it might carry out its mission in a more efficient and more effective 
manner. Subsequently, BSEE developed initiatives focused on creating an 
organization that has strong, smart programs and processes moving 
forward. These initiatives are aimed toward improving and streamlining 
processes; ensuring the efficient use of bureau resources; developing 
an accountable, competent, and engaged work force; and integrating 
effective stakeholder engagement. Among these initiatives are efforts 
to implement risk-based inspections as a part of our overall inspection 
strategy; use offshore near-miss data to identify incident precursors; 
and increase physical inspection time on offshore facilities by using 
technology to increase inspection efficiency.
Risk-Based Inspections
    BSEE has launched a risk-based inspection program to focus more 
oversight and resources on higher-risk offshore facilities. The Bureau 
is now using findings from the analysis of offshore safety data to 
focus inspections on operations and facilities whose characteristics 
and records of safety indicate a greater risk of a safety or 
environmental incident. Through this effort, we are able to stay ahead 
of potential issues. This program supplements our statutory 
responsibility to inspect every drilling rig, non-rig unit, and 
production facility on the OCS that is subject to any environmental or 
safety regulation promulgated pursuant to the Outer Continental Shelf 
Lands Act at least once per year.\3\ These more intense, targeted 
inspections focus on the highest-risk operations and equipment such as 
crane safety and operations involving fired vessels.
---------------------------------------------------------------------------
    \3\ 43 U.S.C. Sec. 1348(c).
---------------------------------------------------------------------------
Offshore Near-Miss Reporting Program
    Our bureau's mission of protecting offshore workers and the 
environment is strengthened by collaboration with industry to build 
data sets that can be used to identify the greatest risks to safety and 
the environment offshore and to draw insights from that data that can 
help minimize those risks. The collection and analysis of near-miss 
data are helping identify problems before they manifest into serious 
incidents. BSEE, in collaboration with the Bureau of Transportation 
Statistics, has developed an internet-based near-miss reporting 
system--called SafeOCS--through which offshore operators can report 
data that can be used to identify and address the causes of offshore 
incidents. This program places BSEE in a position to identify problems 
before they manifest as serious incidents. The program consists of two 
parts: mandatory and voluntary reporting. The mandatory reporting 
requirement for safety critical equipment went into effect in 2016, and 
reports are available to the public on the website at www.safeocs.gov. 
The broader voluntary program has been the focus since 2016. Initially, 
participants in the program represented only three percent of OCS 
production. Under this Administration, participation has dramatically 
increased, with current operator participation representing more than 
80 percent of OCS production.
Making Inspection Operations More Efficient

    BSEE has also undertaken a comprehensive review of our inspection 
program operations in an effort to improve efficiency and more 
efficiently deploy our limited resources. One way that the Bureau has 
sought to improve efficiency is by limiting the amount of time spent 
reviewing records on offshore facilities. By using technology to 
conduct records review remotely, our inspection staff is able to 
dedicate more of the time they spend offshore on physical inspections 
of equipment and facilities. Since implementing this initiative, the 
Bureau has increased physical inspection time by approximately 10 
percent. BSEE inspectors now complete more inspections in fewer trips 
offshore. In 2016, 4,660 offshore inspection trips were required to 
conduct 8,508 inspections, for an average of 1.83 inspections per 
offshore trip. In 2018, 4,216 offshore inspection trips were required 
to conduct 10,282 inspections, for an average of 2.44 inspections per 
offshore trip. Reduction in flight time also decreases our inspector 
transportation costs and, more importantly, reduces the risk to our 
personnel who fly offshore.
Other Safety Initiatives
    BSEE has launched a program to perform an annual, comprehensive 
review of regulations and standards related to safety critical 
equipment to ensure that the requirements contained in these documents 
reflect best practices and that these requirements are being used 
across all offshore operations. In addition, we have implemented an 
initiative to assess risks inherent in offshore development on an 
annual basis. This program will identify risks, especially those 
related to new technology needed to develop deepwater and High 
Pressure/High Temperature (HP/HT) resources. The goal of this effort is 
to address any gaps in regulations, standards, or data needed to 
mitigate those risks, and to verify that offshore operations are using 
appropriate mitigation measures. We believe that both of these 
initiatives will assist BSEE's oversight program in keeping pace with 
the rapidly evolving offshore energy industry, will contribute to 
reducing risk, and will foster continuous improvement in safety on the 
OCS.
     secretary's orders 3349 and 3350 and major regulatory actions
    In addition to the implementation of advanced safety initiatives 
and efforts to increase operational efficiency, BSEE has also 
undertaken a series of regulatory reforms to maintain safety and 
environmental protection offshore while decreasing regulatory 
compliance burdens. Secretary's Order 3349, issued in May 2017, directs 
Interior agencies to conduct a thorough review of their regulations in 
accordance with Executive Order 13783, entitled ``Promoting Energy 
Independence and Economic Growth.'' \4\ As part of this process, the 
Department requested public input on how each of the Department's 
bureaus can improve implementation of regulatory reform initiatives and 
policies and identify regulations for repeal, replacement, or 
modification.
---------------------------------------------------------------------------
    \4\ E.O. 13783 of Mar. 28, 2017. 82 Fed. Reg. 16093 et seq. (Mar. 
31, 2017). https://www.federalregister.gov/documents/2017/03/31/2017-
06576/promoting-energy-independence-and-economic-growth.
---------------------------------------------------------------------------
    BSEE has also undertaken the process of instituting the reforms 
called for in Secretary's Order 3350, which implements Executive Order 
13795 entitled ``Implementing an America-First Offshore Energy 
Strategy.'' \5\ With respect to BSEE, the Secretary issued Order 3350 
to increase regulatory certainty for OCS activities; enhance 
conservation stewardship; and promote job creation, energy security, 
and revenue generation for the American people. As required by this 
order, BSEE reviewed and proposed revisions to the Blowout Preventer 
Systems and Well Control rule (the ``Well Control rule''). In 
collaboration with the Bureau of Ocean Energy Management (BOEM), BSEE 
has begun the process of review of the Arctic Exploratory Drilling Rule 
(the ``Arctic rule''). Additionally, BSEE finalized its revision of the 
Production Safety Systems rule, which clarifies and updates the 
regulations previously issued under Subpart H of BSEE's regulations.\6\
---------------------------------------------------------------------------
    \5\ E.O. 13795 of Apr. 28, 2017. 82 Fed. Reg. 120815 et seq. (May 
3, 2017). https://www.federalregister.gov/documents/2017/05/03/2017-
09087/implementing-an-america-first-offshore-energy-strategy.
    \6\ 30 C.F.R. Sec. 250.800 et seq. (2018).
---------------------------------------------------------------------------
    BSEE has made substantial efforts to engage stakeholders and 
solicit public input during consideration of each of its regulatory 
reforms. Based on feedback from stakeholders and the general public, 
BSEE has identified potential modifications to the regulations 
identified in the Executive and Secretary's Orders. Internal review of 
regulations for which BSEE has not yet issued a final rule are ongoing.
         preparing for a new role in offshore renewable energy
    The Department is moving forward on all energy fronts--conventional 
and renewable--and that includes offshore wind. The high level of 
interest in offshore wind development evidenced by the record-breaking 
dollar amount of bids submitted during the BOEM offshore wind lease 
sale in December has prompted BSEE to consider its potential role in 
overseeing offshore wind farm safety and environmental compliance. We 
are currently contributing our experience and expertise in offshore 
safety and environmental protection by reviewing industry submissions. 
In 2018, BSEE reviewed 43 submissions, an increase of 187 percent from 
2016. In anticipation of our larger role in the oversight of the 
development and operation of offshore wind facilities, BSEE has also 
initiated talks with the Occupational Safety and Health Administration 
to delineate responsibilities for offshore wind workplace safety.
                               conclusion
    America's offshore provides hydrocarbons that not only fuel our 
cars, trucks, and homes, but also enhance our ability to provide 
healthcare, national defense, and the general standard of living to 
which we have become accustomed today. American offshore energy 
resources also create hundreds of thousands of jobs and generate 
significant revenue that accrues to both the U.S. Treasury and the 
states. As important as these resources are to America's economy, 
federal and state governments, and our way of life, this Administration 
recognizes that it is equally important that the offshore oil and gas 
industry extract these resources in a safe and environmentally 
responsible manner.
    Accordingly, BSEE is committed to driving performance, for both 
industry and the Bureau, in safety and environmental sustainability, 
and is committed to maximizing the benefits of our offshore energy 
resources for the nation through responsible development. Under this 
Administration, BSEE has maintained a safe and environmentally 
responsible operation of America's offshore oil and natural gas 
development across all metrics while production levels have reached 
record highs. BSEE is taking steps to ensure that this trend continues 
by focusing its resources on reducing the greatest risks to human life 
and the environment and finding new ways to strengthen the culture of 
safety industrywide through collaboration and innovation.
    I thank the Chairman and Ranking Member for inviting me here today 
and would be happy to answer the Subcommittee's questions.

                                 *****

STATEMENT OF MICHAEL NEDD, DEPUTY DIRECTOR, OPERATIONS, BUREAU OF LAND 
MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, HOUSE COMMITTEE ON NATURAL 
 RESOURCES, SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES, OVERSIGHT ON 
     ``EXAMINING THE POLICIES AND PRIORITIES OF THE BUREAU OF LAND 
     MANAGEMENT, THE U.S. FOREST SERVICE, AND THE POWER MARKETING 
                           ADMINISTRATIONS''

                             March 12, 2019

    Chairman Lowenthal, Ranking Member Gosar, and Members of the 
Subcommittee, I am pleased to join you today to discuss the Bureau of 
Land Management (BLM)'s policies, priorities, and accomplishments 
related to our onshore energy and minerals program. We are proud to 
share the work we have accomplished to increase responsible access to 
public lands, streamline administrative processes, and provide savings 
to the American taxpayers without sacrificing environmental 
protections. Through these efforts we have advanced an ``all of the 
above'' domestic energy strategy to promote America's energy 
prosperity. Production of domestic energy keeps energy prices low for 
American families and businesses, reduces our dependence on foreign 
oil, creates American jobs, and generates billions of dollars in 
revenue to states and the Federal Treasury.
                       blm's multiple use mission
    The BLM manages approximately 245 million surface acres, located 
primarily in 12 western states, as well as 30 percent of the Nation's 
minerals across 700 million subsurface acres. Managing this vast 
portfolio is a tremendous honor for the employees of the BLM, and our 
work depends on close cooperative relationships with partners and local 
communities.
    The Federal Land Policy and Management Act (FLPMA) sets forth the 
BLM's multiple-use and sustained yield mission, directing that public 
lands be managed for a variety of uses, ranging from conventional and 
renewable energy development, livestock grazing, conservation, mining, 
watershed protection, hunting, fishing, and other forms of recreation. 
Because of this, Federal lands support the production of goods and 
services that create jobs and promote economic development in 
communities across the Nation. This multiple use mission advances the 
President's priorities for energy security, shared conservation 
stewardship, safe borders, and putting Americans back to work. For the 
purposes of this hearing, I will focus on the Administration's 
priorities as they relate to an ``all of the above'' energy approach.
    Under this Administration, the BLM has made it a priority to 
restore full collaboration and coordination with local communities, 
working with partners to promote multiple use on public lands, and 
making the Department a better neighbor. The BLM's partnerships are 
truly crosscutting, occurring at all levels of the agency and in key 
program areas. The BLM's great array of partners provides invaluable 
support, helping the agency deliver opportunities to engage the public 
in conserving, enjoying, and appropriately using the unique resources 
and services provided by BLM-managed lands. These partnerships have 
been particularly effective in efforts to restore ecosystems and 
landscapes, control the spread of invasive species, reduce wildfire 
risk, and enhance conservation and recreational opportunities. The BLM 
has also made it a top priority to review and streamline our business 
processes and information technology systems to serve our customers, as 
well as the public, better and faster.
                        america's energy agenda
    The Administration has made environmentally responsible development 
of all domestic energy sources and minerals a priority. Executive Order 
(E.O.) 13783 (Promoting Energy Independence and Economic Growth) calls 
upon the Department, and other Federal agencies, to increase access to 
and reduce burdens on energy development on public lands. E.O. 13807 
(Establishing Discipline and Accountability in the Environmental Review 
and Permitting Process for Infrastructure Projects) prompted an 
Administration-wide assessment to determine how best to address 
inefficiencies in current infrastructure project decisions that delay 
investments, decrease job creation, and are costly to the American 
taxpayer.
    In response to these Executive Orders, the Department and the BLM 
have improved environmental reviews and permitting authorizations for 
energy and infrastructure projects. One such example is Secretary's 
Order (S.O.) 3355 (Streamlining National Environmental Policy Act 
Reviews and Implementation of Executive Order 13807), which provides a 
number of internal Departmental directives to increase efficiency of 
environmental reviews, including setting page and time limit goals on 
all National Environmental Policy Act (NEPA) analysis. In years past, 
BLM Environmental Impact Statements (EISs) had an average preparation 
time of approximately five years. The BLM has implemented S.O. 3355 by 
establishing a new 12-month approval process for EISs and their 
associated Federal Register notices. The BLM also coordinated with 
elected officials, engaged with Tribes, other Federal agencies, and the 
public, to identify additional opportunities to streamline planning and 
NEPA processes at the BLM. These efforts resulted in more than 100 
specific streamlining recommendations, many of which have been or are 
currently being implemented.
    The Department also issued four Secretarial Orders to reduce 
unnecessary and burdensome regulations while maintaining environmental 
protections. The most overarching order is S.O. 3349 (American Energy 
Independence), which directed bureaus to examine specific actions 
impacting oil and gas development, and any other actions affecting 
other energy development. S.O. 3354 (Supporting and Improving the 
Federal Onshore Oil and Gas Leasing Program and Federal Solid Mineral 
Leasing Program) directed the BLM to hold quarterly oil and gas lease 
sales, and to identify ways to promote the exploration and development 
of Federal onshore oil and gas and solid mineral resources.
    In addition, on May 31, 2017, the Department issued S.O. 3352 
(National Petroleum Reserve--Alaska) to jump-start energy production in 
the National Petroleum Reserve--Alaska (NPR-A) and update resource 
assessments for areas of the North Slope. As a result, on December 22, 
2017, the Secretary released an updated resources assessment for the 
NPR-A, which estimates technically recoverable oil and gas resources to 
be 8.7 billion barrels of oil and 25 trillion cubic feet of natural 
gas. Since this report's release, the BLM has generated approximately 
$2.6 million in revenue. The BLM also continues planning efforts to 
lease tracts in the 1002 area of the Coastal Plain as authorized by the 
Tax Cuts and Jobs Act of 2017, Public Law 115-97. On December 20, 2018, 
the BLM published the Draft EIS. The BLM has since held several public 
meetings and the public comment period for the Draft EIS remains open 
until March 13, 2019.
    In response to the Secretary's Orders, the BLM reviewed all 
regulations related to domestic oil and natural gas development on 
public lands, resulting in several rulemaking and policy changes. In 
December 2017, the BLM published a final rule to rescind the 2015 final 
rule on hydraulic fracturing after finding that all 32 states with 
Federal oil and gas leases had existing regulations that address 
hydraulic fracturing. Further, in January 2018, the BLM issued revised 
leasing reform policy that aims to streamline the leasing process and 
ensure quarterly oil and gas lease sales are held when lands are 
available for lease. Finally, after receiving significant public input, 
in September 2018, the BLM announced a final rule that revised the 2016 
Waste Prevention Rule (commonly known as the Venting and Flaring Rule).
  public lands' contribution to energy security & economic prosperity
    We are proud of the priorities established over the past two years, 
and the many policies we have implemented to promote sustainable and 
responsible energy and mineral development from the Nation's public 
lands. Highlighted below are specific examples of such efforts.
Oil & Natural Gas
    The BLM's approach to oil and natural gas production on public 
lands has focused on being both better business partners and 
environmental stewards. Onshore oil and gas production on BLM-managed 
public lands is an essential contribution to the Nation's energy supply 
and plays a significant role in supporting hundreds of thousands of 
jobs for hard-working Americans. The BLM has approximately 26 million 
surface acres currently under lease for oil and gas development, 
including over 96,000 active wells on about 24,000 producing leases. 
The BLM oversees onshore oil and gas development on Federal lands and 
lands held in trust for the benefit of various tribes and for many 
individual allottees. Collectively, these lands contain world-class 
deposits of energy and mineral resources, which power millions of homes 
and businesses and support the broader economy. The U.S. Department of 
the Interior Economic Report FY 2017 estimates the Federal onshore oil 
and natural gas program alone provides approximately $59.6 billion in 
economic output and supported an estimated 284,000 jobs nationwide for 
Fiscal Year (FY) 2017.
    The BLM is a key revenue producer for Federal and state governments 
by providing a significant non-tax source of funding to state and 
Federal treasuries, and is an important economic driver for local 
communities across the country. In 2018, production from Federal lands 
generated in excess of $3 billion in Federal royalties, rental payments 
and bonus bids. Nearly half of this revenue was shared with the state 
where the oil and gas activity is occurring, while the rest went to the 
U.S. Treasury. States and counties utilize these important funds to 
support the building and maintaining of roads, schools, and other 
community needs.
    Under the Department's commitment to responsible energy 
development, the BLM now consistently conducts quarterly lease sales, 
as required by the Mineral Leasing Act. In calendar year 2018, BLM 
state offices generated over $1.1 billion from oil and gas lease sales, 
an amount nearly equal to the BLM's budget for FY 2018. It also 
represented the highest-grossing year on record, nearly tripling what 
had been the agency's highest year ever in 2008. The 28 oil and gas 
lease sales held in calendar year 2018 resulted in 1,412 parcels 
leased, covering almost 1.5 million acres.
    The BLM is also working diligently to improve its permitting 
process and our efforts are generating real results. In FY 2018, the 
BLM approved 3,991 Applications for Permit to Drill (APDs) on Federal 
and Indian lands. By prioritizing permitting, modernizing its 
databases, and shifting resources across the BLM offices, the average 
API) processing time for an administratively complete application 
continues to drop--now averaging 63 days spent with the BLM and 176 
days overall. As recently as 2016, the average APD processing time was 
257 days, of which 139 days were spent with the BLM. Additionally, the 
BLM has reduced APDs pending over three years by approximately 60 
percent, from 556 APDs in March 2018 to 214 APDs in January 2019. The 
BLM maintains the goal of processing 90 percent of administratively 
complete APDs on BLM-managed surface within 90 days of receipt and 
processing 90 percent of administratively completed APDs on lands 
managed by other surface management agencies within 180 days of 
receipt.
Coal
    The BLM is responsible for leasing the Federal coal mineral estate 
on approximately 570 million acres under the authority of the Mineral 
Leasing Act. In an effort to better serve the public and eliminate 
unnecessary burdens on energy production, the Department issued S.O. 
3348, Concerning the Federal Coal Moratorium, which overturned the 2016 
moratorium on Federal coal leases. As a result, Federal coal resources 
continue to be an important component of the Nation's energy mix. In FY 
2018, coal was used to generate approximately 28 percent of the 
Nation's electricity and coal production on Federal lands provided 
nearly 40 percent of our Nation's coal.
    The BLM has a responsibility to all Americans to ensure the coal 
resources it manages are administered in a responsible way to help meet 
our Nation's energy needs while ensuring taxpayers receive a fair 
return from the sale of their public resources. In FY 2018, coal lease 
sales and production from Federal lands resulted in the collection of 
approximately $570 million in Federal royalties, rental payments, and 
bonus bids. The U.S. Department of the Interior Economic Report FY 2017 
estimates that coal contributed $11.8 billion in economic output and 
supported an estimated 39,000 jobs in FY 2017.
Renewable Energy
    The BLM supports the America First Energy Plan, an ``all of the 
above'' plan which includes renewable energy. The BLM oversees 
development on public lands of three primary renewable energy sources: 
solar energy, wind energy, and geothermal energy. To date, the BLM has 
approved a total of 127 renewable energy projects with the potential to 
provide nearly 18,000 megawatts (MW) of generation capacity. Laws 
enacted in most western states require energy companies to supply a 
portion of their energy from renewable resources. As a result, the BLM 
anticipates a continued interest in public lands for renewable energy 
development.
    The BLM manages more than 20 million acres of public lands with 
high solar potential in six states (California, Nevada, Arizona, New 
Mexico, Colorado, and Utah). The BLM has approved 37 solar projects 
totaling approximately 10,000 MW of installed capacity. In the last two 
years, the BLM has approved two solar projects--Sweetwater Solar (80 
MW) in Wyoming and Palen Solar (500 MW) in California--on public lands. 
In FY 2019, the BLM anticipates approving an additional four projects 
generating approximately 1,400 MW of solar energy in California and 
Nevada.
    The BLM also manages 20.6 million acres of public lands with wind 
potential in 11 western states. The BLM has approved 40 wind energy 
projects on public lands with 5,600 MW of total approved capacity, 
enough to power one million homes. One active project in Wyoming, the 
Chokecherry Sierra Madre Wind Energy Project, would include up to 1,000 
wind turbines capable of generating up to 3,000 MW, When fully 
operational, the project will be the largest onshore wind energy 
facility in North America. In FY 2019, the BLM anticipates approving an 
additional 100 MW of wind energy in New Mexico.
    The BLM has the delegated authority to manage geothermal leasing on 
more than 240 million acres of public lands with geothermal potential 
in 11 western states and Alaska. The BLM currently manages more than 
800 geothermal leases, with 72 leases in producing status generating 
over 2,000 MW of installed geothermal energy. This amounts to over 40 
percent of the total U.S. geothermal energy capacity. Over the past two 
years, the BLM has approved one geothermal project--McGinness Hills 
Project (48 MW) in Nevada. In FY 2019, the BLM anticipates approving 96 
MW of geothermal capacity.
Energy Transmission & Rights-of-Way
    Facilitating energy transmission is a critical component of the 
BLM's mission to achieve energy independence. As the largest Federal 
land manager in the West, the BLM plays a leadership role in planning 
for critical energy corridors, as well as siting transmission 
facilities. In compliance with the Energy Policy Act of 2005, the BLM 
designated approximately 5,000 miles of Westwide energy corridors on 
public lands in the 11 contiguous western states through a 2009 Record 
of Decision that amended 92 land use plans. The corridors, referred to 
as ``West-wide'' or ``Section 368'' energy corridors, are intended for 
expedited permitting of electric transmission and distribution lines 
for oil, gas, and hydrogen pipelines. The BLM is currently leading a 
comprehensive, inter-agency review of this western Federal energy 
corridor network, which includes collaboration with state, tribal and 
local governments, the energy industry, non-governmental organizations, 
and local communities. This inter-agency effort will result in relevant 
corridor network updates and inter-agency process improvements. The BLM 
is on track to complete the inter-agency review of the energy corridor 
network by the end of 2019. The BLM continues work to improve the 
designation of existing and future energy corridors in land use plans 
and increase the efficiency of rights-of-way (ROW) administration.
    The BLM manages a total of 118,000 ROW grants issued for a variety 
of uses, including electrical power generation, transmission and 
distribution systems, systems for the transmission and reception of 
electronic signals, broadband, highways, railroads, pipelines (other 
than oil and gas pipelines), and other facilities or systems which are 
in the public interest. For example, in 2019, the Department, under the 
direction of E.0. 13821, Streamlining and Expediting Requests to Locate 
Broadband Facilities in Rural America, and the ``Presidential 
Memorandum on Supporting Broadband Tower Facilities in Rural America on 
Federal Properties Managed by the Department of the Interior,'' 
launched a new effort designed to increase broadband internet access on 
federally managed lands. The Department's broadband report and 
accompanying BLM website provide information on communications uses and 
existing assets that can be leveraged to expand services for rural and 
underserved communities throughout the United States. The BLM plans to 
prioritize ROW actions and cadastral services that support and advance 
the Administration's energy strategy, promote broadband access, 
economic development, provide for recovery of undiscovered or lost 
revenues, assist in national security, and promote public health and 
safety.
    The BLM also seeks to modernize ROW administration by processing 
national ROW applications more efficiently. To this end, the BLM has 
implemented new guidance that streamlines certain vegetation management 
activities on and adjacent to powerline ROWs on public lands. This 
effort, which complies with Public Law 115-141, enhances reliability of 
the electrical grid and reduces the threat of catastrophic wildfires. 
The BLM is continuing to work closely with utility companies to offer 
predictability and efficiency in order to best serve communities, 
ensure grid reliability, and reduce wildfire risk.
Other Mineral Development
    Non-energy mineral development on Federal lands is essential to the 
American economy. The BLM manages three major categories of non-energy 
minerals on Federal lands: locatable, saleable, and leasable. Locatable 
minerals are subject to the Mining Law of 1872 and typically include 
gold, silver, copper and other hardrock minerals. Saleable minerals, 
such as sand and gravel are subject to the Materials Act of 1947. 
Lastly, non-energy leasable minerals are typically subject to the 
Mineral Leasing Act and include minerals such as phosphate, sodium, 
potassium, and sulphur. In FY 2017, non-energy minerals produced from 
Federal land generated $13.4 billion to the economy and supported an 
estimated 48,000 jobs.
    The Administration has also focused on reversing the trend of 
increasing American dependence on foreign imports of critical minerals 
that are essential to American prosperity and national security by 
issuing E.O. 13817, A Federal Strategy to Ensure Secure and Reliable 
Supplies of Critical Minerals. The Department issued S.O. 3359, 
Critical Mineral Independence and Security, which implements the 
President's Order. As part of S.O. 3359, the Department issued a final 
list of minerals deemed critical to the United States, on May 18, 2018. 
The final list includes: aluminum (bauxite), antimony, arsenic, barite, 
beryllium, bismuth, cesium, chromium, cobalt, fluorspar, gallium, 
germanium, graphite (natural), hafnium, helium, indium, lithium, 
magnesium, manganese, niobium, platinum group metals, potash, the rare 
earth elements group, rhenium, rubidium, scandium, strontium, tantalum, 
tellurium, tin, titanium, tungsten, uranium, vanadium, and zirconium. 
These minerals qualify as ``critical minerals'' because each has been 
identified as essential to the economic and national security of the 
United States, has a supply chain vulnerable to disruption, and serves 
an essential function in the manufacturing of a product, the absence of 
which would have significant consequences for the economy or national 
security. Notably, many of these critical minerals are found on BLM-
managed lands.
                               conclusion
    The Department remains committed to promoting responsible energy 
production that helps create and sustain jobs, promotes a robust 
economy, and contributes to America's energy independence. Thank you 
for the opportunity to present this testimony. I will be glad to answer 
any questions.

                                 ______
                                 

 Questions Submitted for the Record to Secretary David Bernhardt, U.S. 
                       Department of the Interior

Mr. Bernhardt did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                Questions Submitted by Chairman Grijalva
    Question 1. Mr. Bernhardt, you have refused to cooperate with a 
request for interviews from Chairman Cummings and me with four people 
at Interior with knowledge of your calendars.

    1a. Are the four people refusing to come in for the interviews or 
are they being instructed not to come?

    1b. Have you expressed to anyone at all that you do not want them 
to come in for the interview? Who?

    Question 2. CQ Roll Call reported that ``on some days, staff would 
print out [Secretary Bernhardt's] public calendar along with any 
relevant meeting request forms.''

    Faith Vander Voort, an Interior department spokesperson, said that 
``Meeting requests are a huge part of the puzzle that makes up 
[Secretary Bernhardt's] calendar. It shares what they want to meet 
about, who asked for the meeting. It's a puzzle piece that fits 
together, and when you have the public calendar and the daily card and 
the meeting request, if you put those things together, you could have a 
very good picture of what his day looks like.''

    2a. Given the importance of these meeting request forms to 
deciphering the ``puzzle'' that is your calendar, why have you not made 
those meeting requests public in response to FOIA requests?

    Question 3. The New York Times reported in February that you 
received verbal approval from ethics officials before you rolled back 
protections for the Delta Smelt, an action that has long been sought by 
one of your biggest former clients, Westlands Water District.

    3a. Given the obvious potential for conflicts of interest here, why 
would you get that guidance verbally rather than in writing?

    3b. Who gave you that verbal guidance?

    3c. Have you ever encouraged political appointees to get verbal 
ethics advice rather than written guidance?

    Question 4. Invoices show you continued working with Westlands as 
late as April 2017--the same month President Trump nominated you to 
become Deputy Secretary, and 6 months after you filed paperwork saying 
you would stop working as a lobbyist. An invoice from March 2017 
specifically billed Westlands for ``Federal Lobbying.'' However, you 
now say that was a mistake because you did not engage in ``regulated 
lobbying on behalf of Westlands'' during that time.

    4a. What services were you billing them for between November 2016 
and April 2017, if not regulated lobbying?

    Question 5. I'm concerned the Awareness Review is delaying the 
release of documents under FOIA and is at least one of the reasons for 
such a large backlog.

    On December 12, 2018, there was a memo from the National Park 
Service's Washington FOIA Office to the Park Service's Deputy Assistant 
Director in the Office of the Chief Information Officer. It said, 
``Delays resulting from the Awareness Review process, which prevent the 
NPS from responding to requests within the legally required 20-workday 
time frame are preventing the NPS from meeting its legal obligations 
under the FOIA.''

    5a. Is the Awareness Review slowing down FOIA productions?

    Question 6. The Department has recently made several changes to how 
it handles FOIA requests, including proposing new regulations and 
putting a political appointee in charge of FOIA productions. The 
documents supporting these changes suggest they are justified because 
you are overwhelmed by the number and complexity of FOIA requests.

    However, your own annual report suggests other problems, which are 
entirely controllable by decision makers at Interior. It cites a loss 
of staff because of your hiring freeze and budgeting, an increase in 
litigation that is a logical result of having a backlog, and FOIA 
officers not spending enough time on FOIA requests compared to their 
other duties.

    6a. Is Interior proposing an increase in staff dedicated to 
processing FOIA requests? If so, how many?

    6b. Has Interior lifted the hiring freeze on people working on FOIA 
requests that has been in place since the beginning of the Trump 
administration?

    6c. This Committee has made a document request, co-signed by 
Chairman Cummings, regarding some of these questions. When will 
Interior be providing a substantive production for that request?

    Question 7. The Secretary that proceeded you was riddled with major 
ethics challenges that continue past his tenure. You have a long list 
of clients you used to serve and whom you now regulate. You already 
have Inspector General investigations underway related to your conduct. 
If you are to earn the trust of the American people, your employees, 
and Congress, you need to take extraordinary steps. Will you commit to:

    7a. Not taking any more meetings with former clients?

    7b. Not working for any of the industries you currently regulate or 
have decision-making authority over when you are no longer Secretary?

    Question 8. We have heard from multiple employees that work at 
Interior's Headquarters, where you also work, about a toxic work 
environment. They say morale is extremely low and that the stress is 
driving the most effective and efficient employees away from Interior.

    8a. Under your leadership, what will the Department do to change 
that?

    Question 9. Last year, two top scientists from the U.S. Geological 
Survey (USGS) resigned--Dr. Murray Hitzman, head of the Energy and 
Minerals Division at USGS, and Dr. Larry Meinert, his Deputy. In his 
resignation letter, Dr. Hitzman said it was due to the USGS providing 
the final results of the energy assessment for the National Petroleum 
Reserve to former Secretary Zinke several days in advance of the 
information's public release.

    9a. Did former Secretary Zinke request to see the final results of 
that assessment before its public release? Did you also request to see 
those results before they were released?

    USGS scientific integrity policy states that these assessments are 
not disclosed to anyone prior to release because they can move 
financial markets, resulting in unfair advantages or the perception of 
an unfair advantage.

    9b. Do you believe that the Secretary is not covered by this 
scientific integrity policy?

    9c. That change never happened. So clearly the USGS knew that they 
had to change their policy to allow for a briefing. So, who initiated 
this potential change and then who stopped it?

    Question 10. The United Nations recently released a staggering 
report concluding that, without action, one million species of plants 
and animals will soon face extinction--and humanity itself hangs in the 
balance.

    In responding to the U.N. report, the U.S. Fish and Wildlife 
Service touted itself as ``a global leader in the effort to combat 
extinction.'' Yet, in the past 2 years, the U.S. Fish and Wildlife 
Service and NOAA Fisheries have listed a mere 17 species as threatened 
or endangered under the Endangered Species Act. This is a shockingly 
low number compared to any previous administrations (the George H.W. 
Bush and Reagan administrations oversaw an average of 58 and 32 
listings annually), and especially considering the severity of the 
extinction crisis.

    10a. Can you please explain how your agency can possibly be ``a 
global leader in the effort to combat extinction,'' while slow-rolling 
protections for our most imperiled plants and animals?

                   Questions Submitted by Rep. Sablan
    Question 1. I grow increasingly concerned about the waning 
influence of the United States in the Pacific and the rise of Chinese 
interests. America has long been the standard for leadership that 
countries in the Pacific look to for economic, political, and defense 
guidance. However, our allies in the region are increasingly engaging 
with China who has been more than willing to fill the void caused by 
our Nation's increasingly isolationist policies. The Department of the 
Interior has a role in international activities as part of its mission 
to advance U.S. foreign policy objectives.

    1a. How could we bolster U.S. presence and influence in the Pacific 
region, remain actively engaged, and reassert ourselves as the global 
leader for stability and prosperity?

    Question 2. The Northern Marianas and other insular areas all 
benefited from supplemental Medicaid funding included in the Affordable 
Care Act that expires this year. I understand the ``Federal family'' is 
also concerned about the potential harm to our health systems and is 
actively pursuing possible solutions. Congress will surely have a role 
to play in addressing the ``Medicaid cliff'' affecting the insular 
areas. But you can assist us greatly, Mr. Secretary. You know what the 
Federal family can do and what proposals the administration will 
support.

    2a. If you could, please tell us how Congress may be able to help 
address this critical issue.

    Question 3. Public Law 113-235 requires that Interior develop 
energy action plans for each insular area. Requirements of the 2014 
law:

    3a. Interior is supposed to create expert teams to help each 
insular area draw up a plan.

    3b. The plans are supposed to set goals for reducing foreign energy 
and increasing domestic.

    3c. The Secretary is supposed to approve the plan.

    3d. Every year Congress is supposed to get a report from you on 
progress toward meeting specific benchmarks.

    All with an eye on reducing electricity rates--rates that are still 
four times higher in the Marianas than the national average and have 
not changed in the years since the law was enacted. I received a letter 
from Assistant Secretary for Insular and International Affairs, Doug 
Domenech with information about energy strategies each insular area has 
and a record of energy grants that Interior has awarded. However, it 
all seemed a bit unfocused, and despite millions of dollars spent, 
electricity costs have not changed--at least not in the Northern 
Marianas. Also, mere mentions in the Department's annual budget 
justifications do not suffice as annual reports required by law. Please 
tell me what the Department is doing to start actually implementing 
energy action plans for the insular areas and complying with 
requirements of Public Law 113-235.

                  Questions Submitted by Rep. Huffman
    Question 1. Mr. Secretary, during the hearing you committed to 
getting back to me with an answer on a question regarding the re-
initiation of consultation for CVP operations, and I wanted to follow 
up on this issue.

    1a. Have you directed the re-initiation of consultation for CVP 
operations to include Old and Middle River storm flexibility provisions 
like those in the WIIN Act? Have you given any direction in that 
regard? Can you please share with the Committee what directives you 
have provided on the re-initiation of consultation for CVP operations?

    Question 2. Mr. Secretary, in September 2017, Interior's Inspector 
General found that the Federal Government improperly subsidized the 
planning process for the Bay Delta Conservation Plan--which benefited 
the Westlands Water District--and failed to disclose this to Congress 
and the public. On October 24, 2017, Chair Grijalva and I requested a 
GAO legal opinion on this accounting scheme. On April 10, 2019, Chair 
Grijalva and I wrote to you because we were told you were not providing 
information the GAO requested.

    2a. At the hearing, you committed to checking with Ethics on this. 
Can you commit to directing Interior staff to cooperate with the GAO on 
this matter that would appear to benefit your former client?

    Question 3. Mr. Secretary, in response to my question about the 
shutdown you responded that ``We directed folks to report for renewable 
projects, certainly for one particular solar project I'm aware of we 
put people back to work right away.'' I have seen no evidence to 
support this claim.

    You also expressed surprise that BOEM did not decide to bring back 
employees to work on offshore wind permit reviews and alluded to the 
reason being the cost of doing so.

    To clarify your responses during the hearing, please respond in 
writing to the following questions:

    3a. How many employees were brought back during the shutdown to 
work on wind (both onshore and offshore), solar, and geothermal 
projects? How many hours of work did these employees provide? Please 
provide this data separately for each energy resource.

    3b. How many employees were brought back to work during the 
shutdown for onshore and offshore oil and gas activities? How many 
hours did these employees work?

    3c. How much money did it cost to bring back these employees 
working on oil and gas activities?

    3d. Who made the decision not to bring back employees to work on 
offshore wind projects and why? What was the estimated cost of bringing 
back employees to work on offshore wind?

                  Question Submitted by Rep. Lowenthal
    Question 1. Will you commit to prioritizing and increasing funding 
for implementation of the John D. Dingell Conservation, Management, and 
Recreation Act in Utah? In particular, for law enforcement, wilderness 
management, and implementation of the Emery County Title of that 
legislation?

                    Questions Submitted by Rep. Cox
    Question 1. Thank you for your Department's work on increasing the 
CVP allocations last month to 65 percent. It's great that we're having 
a wet water year and it's important to bank for the future, however I 
hope that Reclamation will revise that number up. In fact, in the days 
following your hearing between 8 and 15 inches of snow fell in the 
Sierra Nevada and the Central Valley received some welcome rainfall. 
Historically, in wet years like this, there has been a higher--even 100 
percent--allocation for south of the Delta water users.

    1a. What were the factors prohibiting the Bureau of Reclamation 
from setting a higher allocation and what steps is the Department 
taking to ensure future years like this result in the highest possible 
allocations?

    Question 2. The final biological opinions for the CVP and 
California State Water Project are due out next month. What additional 
resources has your department made available to ensure the biops are 
adequately completed in time? Is there a process in place between the 
agencies to resolve conflicting requirements that may come out of the 
draft biological opinions?

                   Question Submitted by Rep. Neguse
    Question 1. The Department of the Interior's proposed 
reorganization would move Glen Canyon Dam, Lake Powell, and Lee Ferry 
from the current Upper Colorado Region to the new Lower Colorado Basin 
Region. This change would ignore the Colorado River Compact of 1922 
which divided the Upper Basin from the Lower Basin at Lee Ferry. The 
four Upper Colorado River Basin states have expressed concern over this 
change given the crucial nature of Glen Canyon Dam and Lee Ferry--
including the Paria River--to the administration of the Colorado River 
(September 19, 2018 letter from the Upper Colorado River 
Commissioners). The states have asked Interior to revise the proposed 
regional boundary, citing institutional knowledge within Upper Colorado 
region among other concerns.

    1a. Does the Department of the Interior intend to revise the 
regional boundary so that Lee Ferry, Glen Canyon Dam, and Lake Powell 
will remain a part of the Upper Colorado region?

                  Questions Submitted by Rep. Van Drew
    Question 1. Secretary Bernhardt, the Department of the Interior 
overturned decades of consistent interpretation of the Migratory Bird 
Treaty Act covering incidental take, and the effects of that decision 
are starting to come to light.

    1a. Is the U.S. Fish and Wildlife Service able to still bring 
enforcement actions against companies that incidentally kill birds?

    1b. What if another Deepwater Horizon-type disaster occurs, and 
thousands of birds are killed, would the company that caused the 
disaster be held liable under the MBTA?

    Question 2. We hear that regulations are being developed to 
implement the new legal opinion. Will they provide an avenue for 
holding companies liable?

    Question 3. Do you think that there is a pathway to a solution that 
both benefits bird conservation and provides industry with regulatory 
certainty without undermining the intent of the MBTA and our 
commitments under treaties with other countries to protect migratory 
birds?

                  Questions Submitted by Rep. DeGette
    Question 1. Will you stop offering oil and gas leases in wildlife 
corridors and priority areas?

    Question 2. What additional steps are you taking to ensure that the 
BLM's oil and gas leasing program aligns with your stated commitment to 
big game?

    Question 3. Massive numbers of leases for energy development are 
being let under your administration. With the thousands of leases, 
already let, yet to be developed, what is the purpose in these sales? 
Does this not cheat the American tax payer of revenue?

    Question 4. Gas and oil are a glut on the market. Should lease 
sales, at minimal prices, be your priority?

    Question 5. Many of the leases being let are in priority habitats 
for conservation purposes. Is your purpose to establish valid existing 
rights on these lands, in order to complicate conservation under a 
future administration?

    Question 6. You have systematically eliminated all of the factors 
that led to the ``Not Warranted'' finding on Greater sage-grouse. Is 
your purpose to challenge the Endangered Species Act, as you did in 
private practice with the American eel? What peer-reviewed scientific 
analysis did the Department rely on when deciding that it was necessary 
to reopen the 2015 conservation plans? What assurances can you give 
that these changes won't make an ESA listing more likely?

    Question 7. Without the certainty of these reliable, effective 
actions, there will no longer be a basis for the ``not warranted'' 
decision, leading to action by FWS and/or courts to protect the species 
and its habitat.

    Question 8. Can you explain how recent decisions of the department, 
including allowing widespread oil and gas leasing in sage-grouse 
habitat, creating broad loopholes that allow increased drilling, and 
eliminating compensatory mitigation requirements on Federal lands, will 
help ensure that sage-grouse remain as not listed under the ESA?

    Question 9. There is, underway, a systematic failure to evaluate 
performance on grazing leases as they reach term. Biologists, Range 
Cons etc. are not being engaged in those evaluations. Instead, these 
leases are being reissued through Categorical Exclusion. What is your 
purpose in avoiding these much needed evaluations?

    Question 10. You have arbitrarily removed BLM from its 
responsibility for mitigation of damages to the lands that they manage 
and passed that responsibility to the states. What statutory 
underpinning is there that allows states to enforce mitigation on 
Federal Lands?

    Question 11. Your mandate is ``multiple use management with 
sustainable yield. Does this allow the devaluation of all other 
resources, in order to prioritize fossil fuels?

    Question 12. Why are damages done to Federal Lands, through 
development, not a cost of doing business for the proponent?

    Question 13. You maintain an expert staff for the management of 
wildlife and their habitats. Why are you combining the budgets for 
``wildlife'' and ``T&E Species'' into one ``Habitat'' budget?

    Question 14. Why is BLM shirking it's duty, under FLPMA, to 
prioritize ACECs in current ongoing planning processes? For example, in 
the Bering Sea Western Interior plan, one of only two draft RMPs BLM 
has released in the last 2 years BLM proposed in its preferred 
alternative to not only eliminate 1.8 million acres of existing ACECs, 
but proposes the creation of zero acres across the 13.5 million acre 
planning area despite tribal communities nominating 7 million acres for 
ACEC protection.

    Question 15. Through continuous efforts, you have shown a 
determination to allow less public input on the management of their 
public lands. Why would you deny the landowners their role in those 
lands?

    Question 16. With your expert staff on leave during the shutdown, 
how were you able to process such a vast array of APD, authorizing 
drilling on public lands without those expert opinions?

                    Question Submitted by Rep. Case
    Question 1. As isolated islands in the middle of the Pacific Ocean, 
Hawai'i has one of the highest numbers and rates of endemic species in 
the world. The introduction of exotic species over the last few 
centuries, diseases, overdevelopment and now the real effects of 
climate change have taken a devastating toll on native flora and fauna. 
More than 70 percent of bird species have gone extinct and more than 30 
various species are endangered or threatened.

    Successful protection and recovery of our remaining species depends 
greatly on full implementation of the Endangered Species Act by the 
Department of Interior and state, local and private partners, using the 
best available science and maximizing and aligning resources to the 
greatest needs.

    A primary source of federal assistance under the ESA is the 
Traditional Conservation Grant Funds Program. However, in reviewing the 
distribution of such funds nationally, it is clear that Hawai'i 
receives an allocation which is disproportionately small compared to 
the great number of endangered species in Hawai'i as against other 
states.

    Can you please address this disconnect, to include:

    1a. Please explain the laws, regulations and other factors the 
Department takes into account when allocating the Traditional 
Conservation Grant Funds Program.

    1b. Please explain why Hawai'i receives a disproportionately 
smaller allocation than other states.

    1c. Is the Department considering a more proportional distribution 
of funding that recognizes the number of endangered and endemic species 
in Hawai'i?

                   Questions Submitted by Rep. Bishop
    Question 1. It is evident that due to a combination of factors, 
wildfires have increased in frequency, and in intensity. The past 
successive wildfire seasons across the country continue to grow in size 
and cost, year after year. Last year alone Federal spending topped $3.1 
billion, the largest amount ever. The Administration, in concert with 
Congress, acted last year to positively address the issue of the 
escalating wildfire funding problem by enacting the bipartisan Wildfire 
and Disaster Funding Adjustment provision. This fix gave the U.S. 
Department of Agriculture (USDA) and the U.S. Department of the 
Interior (DOI) the flexibly to ensure that land management agencies can 
fight wildfires--even during extraordinary seasons--without depleting 
much-needed funding from other parts of their budgets.

    I note that the Administration's overall FY 2020 budget request for 
wildfire management is down from FY 2019 enacted levels, especially 
after Congress gave the agency the aforementioned flexibility. This 
overall reduction seems counter intuitive to implementing aggressive 
fuels reduction work and pre-suppression activities to help mitigate 
the incidence of catastrophic wildfires.

    Could you tell the Committee how much money the Agency is proposing 
to allocate toward proactive measures, such as data on wildfire 
potential and watershed conditions to reduce the frequency and severity 
of wildfire events to high-risk, geographic regions?

    Question 2. In addition, more citizens are moving to ``natural'' 
areas. As a result, development has occurred to accommodate the influx 
which has resulted in fire departments combating fires along the 
wildland urban interface (WUI). WUI are defined as areas where homes 
are built near or among lands prone to wildfires. For clarification, 
WUI is not an actual place, but a set of conditions that can exist in 
nearly every community in the country. Under this backdrop, will the 
Agency dedicate resources to develop fire mitigation plans that require 
that the construction of new homes within the WUI must include 
requirements to install the proper water infrastructure to support 
firefighting resources commensurate with the risk?

               Questions Submitted by Rep. Gonzalez-Colon
    Question 1. The U.S. Department of the Interior has an important 
presence in Puerto Rico. The National Park Service administers the San 
Juan National Historic Site, a world heritage site that includes 
important 16th century fortifications from the Spanish colonial era, 
including Forts San Cristobal, San Felipe del Morro, and San Juan de la 
Cruz, in addition to three-quarters of the city walls surrounding Old 
San Juan.

    San Juan National Historic Site is vital to Puerto Rico's economy. 
In 2016 alone, more than 1.4 million people visited the park, spurring 
more than $85 million in revenue. As Puerto Rico's sole representative 
in Congress, I am committed to ensuring the Department and the National 
Park Service have the necessary resources to protect and conserve this 
cultural treasure.

    An important part of this effort must be addressing the park's 
deferred maintenance backlog, which in FY 2018 totaled over $40.1 
million. This figure represents an increase of over $12.2 million from 
FY 2017.

    1a. What actions has the Department taken to date to address the 
deferred maintenance backlog in the San Juan National Historic Site? 
How does the FY 2020 budget request seek to alleviate or solve this 
issue across this and other National Park Service units?

    Question 2. During the Natural Resources Full Committee hearing, 
you mentioned that you would be signing an order to allow the use of 
recreational fees to address certain employees, including the masons at 
the San Juan National Historic Site.

    2a. Could you elaborate on this proposal? How would it specifically 
impact the masonry program at the San Juan National Historic Site?

    Question 3. The Department of the Interior's presence in Puerto 
Rico is also seen through the U.S. Fish and Wildlife Service, which 
administers five National Wildlife Refuges on the Island: the Desecheo, 
Laguna Cartagena, Cabo Rojo, Culebra, and Vieques National Wildlife 
Refuges.

    3a. Could your office provide this Committee a detailed breakdown 
of the total cost of deferred maintenance projects across the five 
National Wildlife Refuges in Puerto Rico and how the Department intends 
to address the backlog in each of them?

    Question 4. Addressing the National Wildlife Refuge System's 
deferred maintenance backlog is particularly important to the island 
municipalities of Vieques and Culebra, where two of Puerto Rico's 
National Wildlife Refuges are located.

    The Vieques National Wildlife Refuge is a former U.S. Navy Weapons 
Training Base that was actively used for more than 60 years. When the 
U.S. Navy left the island of Vieques in the early 2000s, thousands of 
unexploded ordinance (UXO), munition related debris, and several dump 
sites were left behind. The Navy has been conducting environmental 
cleanup efforts ever since. Although much progress has been made, a 
major portion of the eastern refuge is still closed due to the danger 
of unexploded ordnance and the cleanup process occurring in that area.

    In a December 2018 report to Congress, the U.S. Department of the 
Navy stated that land and water cleanup efforts in Vieques would be 
completed between 2031 and 2032, respectively.

    4a. What actions does the Department of the Interior intend to take 
to help the Department of Defense and local authorities expedite the 
cleanup process in Vieques and Culebra, where applicable? What efforts 
are currently being pursued to ensure the National Wildlife Refuges 
contribute to the island's local economies?

    Question 5. In 2009, Congress authorized the Department of the 
Interior to conduct a special resource study to determine whether Fort 
San Geronimo, which is on the eastern side of Old San Juan, should be 
added to the San Juan National Historic Site.

    5a. Could you provide an update on the status of this study and 
when the Department, and specifically the National Park Service, 
expects to finalize and publish its findings? I note that it has been 
10 years since Congress authorized this study and it is urgent that we 
explore every avenue to protect this fortification.

    Question 6. Many of the Department of the Interior's facilities in 
Puerto Rico were severely impacted by Hurricanes Irma and Maria in 
2017. What is the status of the rebuilding process across the 
Department's units on the Island? What efforts have been pursued, to 
date, to address the damage? What challenges, if any, has the 
Department encountered throughout the process and how can Congress 
assist in addressing them?

                                 ______
                                 

    The Chairman. Thank you, Mr. Secretary. Let me recognize 
myself for an initial question.
    Mr. Secretary, I think it is important to start by 
addressing one of the big elephants in the room. And that is--
President Trump told the Washington Post last month that he 
opposes the current and former White House aides and personnel 
testifying to Congress. He said, ``There is no reason to go any 
further, and especially in a Congress where it is very 
partisan.''
    The lack of transparency and accountability concerns this 
Committee a great deal. Since the beginning of the year we have 
sent 17 documented requests to the Interior Department and only 
got substantive partial responses to two of them.
    I want to be clear that answering congressional inquiries 
is not a matter of the President's--or, for that matter, a 
Secretary's--personal discretion. We have legal justification 
for that kind of request, and no legal justification for not 
responding to those requests.
    It is also, I think, important to note that the 
Administration's lack of accountability has gone well beyond 
the Mueller Report. The White House has gone so far as to 
ignore legally unambiguous access to the President's tax 
returns. President Trump has made it clear he is not interested 
in cooperating with legitimate congressional inquiries of any 
kind, for that matter. His attitude seems to be, Mr. Secretary, 
that Democrats are just out to get him, and so his 
administration is not going to respond to our questions or our 
concerns.
    I am concerned that this stonewalling will escalate to a 
constitutional collision, from crisis to collision. It seems to 
be an inevitability, if the attitude continues. If the 
President continues to ignore legitimate questions, whether it 
suits him--whenever it suits him, and tells his appointees to 
do the same, Congress will have the duty to defend and enforce 
their constitutional rights.
    Since Secretary Zinke's abrupt departure, your transition 
from Acting Secretary to confirmed head of the Department, we 
have been doing our due diligence on this Committee to fulfill 
our oversight responsibility. And in doing so we have made 
inquiries, from Subcommittees to Full Committee. And I might 
add, we have been very judicious about compelling the agency to 
respond to these questions.
    But we need to know. I think the Committee needs to know, 
and I pose this question: We need to know what kind of 
relationship we are going to have with you, as an equal branch 
of government, from now on. I would like to hear from you 
whether you feel the same way the President does, in terms of 
his attitude toward Committee oversight, inquiry, legitimate 
questions, and legal initiatives to try to acquire and have 
that information. And can we expect a healthier relationship 
with the Interior Department?
    That is the question, because I really believe that, as I 
said earlier, as we try to deal with the rationale and the 
motivation behind a given Interior Department decision, a 
policy change, a regulatory move, essential to us being able to 
perform our job and be responsive to the American people is 
information, information that will deal with those two 
questions about rationale and motivation.
    So, with that, the question is a general question, Mr. 
Secretary. But I think it is one that the cloud that is being 
created right now by the Trump administration, in terms of non-
responsiveness to the Majority in this House, I think is 
escalating.
    And my question is what is the relationship between this 
Committee, its Majority, and your office, and the Department of 
the Interior?
    Secretary Bernhardt. I respect the role of Congress to 
conduct oversight, and I believe that the Department needs to 
be responsive.
    At the same time, that interest is tempered by an interest 
that I have to also ensure that I am appropriately protective 
of the legitimate issue interests of the Department and the 
executive branch.
    My experience over the last 26 years has been that almost 
every item that Congress has an interest in, the two branches 
of government in good faith can find a way to come up with a 
reasonable accommodation that satisfies both protecting the 
Department's interests and protecting yours. And I asked for a 
comparison of the requests that had come in from you all and 
our responsiveness to them to the last time there was a 
different administration. And when I run the numbers, we have 
already provided over 66,000 pages of documentation and 10,000 
documents.
    And one of the things I was thinking as I came up here is, 
to the extent that there is frustration, maybe one of the ways 
to do it is to sit down and have a discussion about developing 
a production schedule that you find mutually agreeable.
    There is some documentation--when you ask for things that 
are in deliberative process, there are some long-standing 
interests there that we want to maintain, but there may be ways 
to work with--I am sorry to go over time----
    The Chairman. No, no, I think that is the crux of the 
point. And I think that there is quantitative response to the 
request and then there is qualitative response to the request. 
And a qualitative response to the request is our point, that 
while we have reams of paper, we don't have content that leads 
us to look at rationale and motivation.
    But with that, let me turn to the Ranking Member for his 
time.
    Mr. Bishop.
    Mr. Bishop. Thank you. I realize, Secretary, that you have 
had 17 requests for documents, and so far you have responded to 
16 of them with something. I walked into our office back there 
with what has--actually, you have consumed our office right now 
with what you have sent up here, not only in substantive, but 
also qualitative.
    I will ask you later on about the relationship you actually 
have with the White House, simply because in past 
administrations the Interior Department was oftentimes over-
ruled or told what to do by the White House. I will give you a 
chance to think about that while I ask some other kinds of 
situations, though.
    There have been some vague and sometimes repeated 
accusations that your Department is censoring science in favor 
of certain industries. If you recall under the Obama 
administration, there were several scandals that undermined the 
scientific integrity of the Department, including a long-
standing problem with the USGS that went unaddressed by that 
administration.
    What is the current situation with science in the 
Department? Are studies being tossed into the shredder as soon 
as they are printed out, as some people have implied?
    Secretary Bernhardt. No.
    Mr. Bishop. All right. Your answer has to be at least as 
long as the question that I gave you.
    [Laughter.]
    Secretary Bernhardt. Let me say something about that. First 
off, the answer is no. I actually think that claims of 
scientific integrity misconduct are actually down over the last 
2 years, compared to the prior years. That is according to our 
scientific integrity team.
    Second, one of the first things I did as Acting was I asked 
Bill Werkheiser, who is a career scientist who was the head of 
scientific integrity in the Department, to come into my office 
and serve as my science advisor. I did that for a couple of 
reasons: I want to ensure that the information and advice I get 
is good, but it was also to ensure that we have a 
representative from my office that is liaisoning with all of 
the other bureaus' science shops to ensure that they have a 
degree of comfort that issues are being addressed.
    My view is we take the science as we find it. Generally, 
the science or fact is one of a couple of elements that go into 
a decision. Generally, a decision, at least from my 
perspective, typically is one that there is a legal framework 
for. There is a factual basis that you need to have. And in 
certain decisions--not all, but in certain decisions there is 
also an element of policy. Some decisions are pure science. 
Some decisions are pure law. But in general, there is some 
intersection of all three of those. Generally, on more 
significant decisions----
    Mr. Bishop. OK, I appreciate you doing that. Let me tell 
you three areas I would like to talk about. Obviously, we won't 
get to it in the minute and 50 seconds I have remaining.
    But there is a cumulative effect of the regulatory reform 
that has been going on. What would that actually mean to the 
American people?
    You have done, in your Department, some creative things 
with fees, and what you want to do with fees in the future, as 
well as you talked about reorganization.
    There are still some areas we need to explore about why 
that reorganization takes place.
    And I would like to know about the relationship that you 
have with the White House and the Interior Department. Do you 
have really a free hand with the White House telling you what 
to do with Interior? That did not happen in the last 
administration.
    Which one of those do you want to hit first? You can 
probably get one or two----
    Secretary Bernhardt. Let me take the White House one, as 
somebody who spent about 10 years in the Department, in the 
Interior. And one thing I did not appreciate until I was made 
Acting is the role a cabinet Secretary plays in interacting 
with the President. I guess I had not given that a lot of 
thought. But I can tell you that the role is very direct, and I 
think that that is a great thing for the Department.
    The reality is the President is responsive when you call 
him, and he wants you to be responsive when he calls you. And 
it is really a positive thing that I was a little taken aback 
by. My first meeting with the President as Acting, he asked me 
for my card. And I said, ``Why would you need my card?'' And he 
said, ``Because I might need to call you.'' And we talked about 
it, and he has. He has called me regularly. And I think he is 
very hands-on, he is very decisive when you give him pros and 
cons. He has been very good to work with, and I feel very 
comfortable that I can go into his office.
    Mr. Bishop. OK, we are out of time, but thank you. Sorry. 
Hopefully we will get to some of those other issues later.
    Secretary Bernhardt. I will get to them.
    Mr. Bishop. OK.
    The Chairman. Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. Mr. 
Secretary, welcome and thank you very much for taking the time 
to visit the congressional office.
    In looking at your testimony and all the attachments, a 
paragraph was dedicated to the insular areas and the other 
compact nations, and I read that in 2020, the Office of Insular 
Affairs will implement activities to bolster healthcare 
quality.
    Mr. Secretary, the Northern Marianas and other insular 
areas all benefited from the supplemental Medicaid funding 
included in the ACA/BPA that expires on September 30 of this 
year. We expect to hold a hearing soon in this Committee on the 
impending Medicaid funding crisis, and I understand the Federal 
family is also concerned about the potential harm to our health 
systems.
    Congress will surely have a role to play in addressing the 
Medicaid cliff affecting dangerous areas. But you, sir, can 
assist us greatly, Mr. Secretary. You know what the Federal 
family can do, and what proposals the Administration will 
support. If you could, please tell us how Congress may be able 
to really help address this truly critical health issue.
    Secretary Bernhardt. So, Assistant Secretary Domenech I 
know is on top of that issue, and we would be happy to sit down 
with you and discuss a pathway forward.
    Medicare is sort of something that is not in my sweet spot 
of expertise. I don't have a----
    Mr. Sablan. I understand, but the Federal family may be----
    Secretary Bernhardt. We are happy to be--we are a pretty 
good voice, internally, for the insular areas. And I can tell 
you that if we get ourselves pointed in the right direction, we 
can help.
    Mr. Sablan. Thank you, because this is really an issue of 
life and death.
    Secretary Bernhardt. I appreciate that.
    Mr. Sablan. Thank you. So, Mr. Secretary, you mentioned 
that you would probably get Assistant Secretary Domenech to 
talk to us on this Medicaid crisis and see where we could help 
each other address this issue for our mutual constituents in 
the insular areas.
    I am wondering maybe if this would--because we discussed 
this also in your visit. I want to ask you whether you have 
talked to Assistant Secretary Domenech about the energy action 
plans required by Federal law for each insular area. In our 
meeting earlier, we talked about the requirements of the 2014 
law. Your Department is supposed to create expert teams to help 
each insular area draw up a plan. The plan is supposed to set 
goals for reducing foreign energy and increasing domestic 
energy, sir. The Secretary--you, sir--are supposed to approve 
the plan. And every year Congress is supposed to get a report 
from you on the progress toward meeting specific benchmarks.
    So, all with an eye on reducing electricity rates for my 
constituents, rates that are still four times higher in the 
Marianas than the national average, and have not changed in the 
years since the law was enacted, I did get a letter from Mr. 
Domenech with information about energy strategies. Each insular 
area has energy grants that Interior has awarded, and we thank 
you for that. But it all seemed a bit unfocused. And, as I say, 
despite millions of dollars spent, Mr. Secretary, electricity 
cost has not changed, at least not in the Northern Marianas.
    So, were you able to have that talk with Mr. Domenech about 
implementing the law, Public Law 113-235? What can you tell us 
about this, Mr. Secretary?
    Secretary Bernhardt. Secretary Domenech is looking very 
carefully to see if he is complying, and he will be.
    Mr. Sablan. If he is complying with the law?
    Secretary Bernhardt. Absolutely. If we are late on those 
reports, he is going to be working on those----
    Mr. Sablan. Respectfully, Mr. Secretary, has the Department 
of the Interior sent at least one report to----
    Secretary Bernhardt. I told him we are going to be in 
compliance.
    Mr. Sablan. It is 2014, 2015, 2016, 2017, 2018--5 years.
    Secretary Bernhardt. We are going to be in compliance.
    Mr. Sablan. All right. I don't have too much time. I may 
have to submit.
    But, yes, I appreciate, Mr. Secretary, that in that one 
paragraph your Department has brought up the concern about the 
waning influence of the United States in the Pacific, and the 
rise of Chinese interests. I appreciate that the United States 
has provided leadership that countries in the Pacific look to 
for economic, political, and defense guidance. However, our 
allies in the region are increasingly engaging with China, that 
has been more than willing to fill the void caused by our 
Nation's increasing isolationist policy.
    But I appreciate that your Department is going to look into 
that. I appreciate that the states are going to be visiting 
soon. And thank you very much, Mr. Secretary, for today.
    Secretary Bernhardt. We are spending a significant amount 
of time with other larger agencies, discussing the need for us 
to be very smart in the insular areas across the board. And I 
think that there is tremendous interest in making sure that we 
are represented in the United States.
    Mr. Sablan. Thank you. What is----
    The Chairman. Your time is way up, sir.
    Mr. Sablan.  Let me just ask----
    The Chairman. Mr. Sablan, I think we are done with the 
time, thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And Mr. Bernhardt, I 
am glad that you are here. You are uniquely qualified to be a 
Secretary of the Interior. You have been a chief of staff to 
the Secretary, you have been a Director of Congressional and 
Legislative Affairs in the Department, and you were a Senate-
confirmed Solicitor under President Bush. So, you have 
background in the policy, managerial, intergovernmental, and 
oversight roles that any Secretary needs to master. I think the 
people of the country are well served to have you in this 
position. I appreciate that.
    And you are a native of Colorado, so you understand the 
West, and Colorado in particular, and I appreciate that, also.
    Let me ask you about reorganization of the Department. 
There has been a push from some of the Colorado 
Representatives, and I think others in the West, to bring some 
of the Washington, DC offices west of the Mississippi so they 
are closer to where the policies are actually enacted, and it 
is easier to get around and see firsthand what effect the 
policies have on the land itself.
    I think it makes a lot of sense to reorganize and bring 
some offices to the West. And some of the places that we are 
pushing for and would suggest for your consideration are Grand 
Junction, which is in Scott Tipton's district; Colorado 
Springs, which is in my district; and the Denver Metro Area, 
which has five Representatives, including Joe Neguse and Diana 
DeGette, who are on this Committee.
    So, what can you tell us about an upcoming timeline to 
announce anything that might happen with reorganization?
    Secretary Bernhardt. Secretary Zinke had a very ambitious 
reorganization proposal that really, from my perspective, 
included three parts.
    The first part was a unified regional boundary structure 
for our bureaus, an internal management device. And we worked 
with Congress, and in August of last year structured the 
boundaries to be the same for regional boundaries for all of 
the bureaus, except for the Bureau of Indian Affairs and the 
Bureau of Indian Education. And that means that we came up here 
and asked for a reprogramming, and that is locked in. Those 
boundaries are made, and they just need to be implemented.
    We now have the other two pieces of the Secretary's vision 
to deal with. The second one was moving some of the 
headquarters West, and I am very committed to working to 
achieve that. Certainly, some of the communities you mentioned 
are logical places. Other Members have slightly different 
views, but I would expect that, certainly by this summer, we 
are setting up a reprogramming request regarding a potential 
move of some of the folks in the Bureau of Land Management, and 
potentially the U.S. Geological Survey.
    And that is something that has long--I mean I have seen 
Committee transcripts back to 1936, where they were talking 
about the need for senior management to be farther West. So, 
that is going to happen, I think.
    Mr. Lamborn. Excellent, excellent.
    Secretary Bernhardt. The third piece was a piece that 
Secretary Zinke had, which was to create a kind of a regional 
commander in each of these regions, and create a relatively 
large bureaucracy. And I am not sold on that piece of it, so we 
are tweaking that.
    Mr. Lamborn. OK, thank you.
    Secretary Bernhardt. So, that is where we are.
    Mr. Lamborn. Excellent.
    Secretary Bernhardt. All of those communities you mentioned 
are in the running.
    Mr. Lamborn. OK, excellent. And, changing gears, I want to 
ask about the Department of Ethics Office, and what are you 
doing to transform the ethics program to make it even more 
robust? I know that you have some career Federal ethics 
officials that you consult with regularly, including Vice 
President Joe Biden's senior ethics official, Scott de la Vega. 
So, what are you doing in the Ethics Office there at Interior?
    Secretary Bernhardt. Our ethics program, over a long period 
of time, has been subject to significant criticism. Both the 
Ethics Office and the Department--the Inspector General's 
office at different times in the prior administration requested 
additional money for Ethics, and that money didn't arrive. And 
I think, frankly, the state of that office did not help 
Secretary Zinke when he arrived.
    So, the steps that we have taken so far, we have elevated 
the reporting structure of the designated agency ethics 
official, who is the top person in Ethics. We brought in 
additional people overall at the Department. I think we have 
hired 42 additional ethics counselors. We are going through a 
second phase of modifying the reporting structure to ensure 
that they are all reporting to the career ethics officials.
    I think it is an unprecedented effort to ensure that we 
have a culture of compliance within the Department. So, we have 
done a lot there.
    Mr. Lamborn. Mr. Chairman, I am going to yield back.
    Thank you for your answer.
    I would like to ask for unanimous consent to introduce a 
letter dated March 25 of this year from the Interior to 
Senators Warren and Blumenthal on an ethics issue that I think 
is of concern. I would just like to have it introduced to the 
record by unanimous consent.
    The Chairman. Without objection, so ordered.
    Mr. Huffman.
    Mr. Huffman. Thank you. Mr. Secretary, I hope we agree that 
public service is a public trust, especially with an office 
like yours, which is entrusted with overseeing vast public 
resources for the American people. So, let's start with a basic 
question.
    Do you agree that our ethics rules exist not just to avoid 
actual conflicts of interests, but to avoid the appearance of a 
conflict so that the public can have trust and confidence in 
our government?
    Secretary Bernhardt. Well, I would say that 2635 CFR 502--
--
    Mr. Huffman. It is a yes-or-no question, Mr. Secretary.
    Secretary Bernhardt. Yes, it addresses impartiality.
    Mr. Huffman. Thank you. And I know that same standard is 
reflected in your own recusal letter.
    Mr. Secretary, before you joined the Administration you 
were a lobbyist and a lawyer for the Westlands Water District, 
and your work for that client included lobbying on the WIIN Act 
signed into law in late 2016, correct?
    Secretary Bernhardt. I certainly worked at different times 
on provisions that were included within the WIIN Act, yes.
    Mr. Huffman. Right. Now, Mr. Secretary, the WIIN Act was a 
huge water bill. It had lots of sections, it had WRDA, all of 
these Corps of Engineers provisions, had some money for Flint, 
Michigan water needs, recycling, desalination, some tribal 
water rights settlements. You didn't lobby on any of those 
sections. You were lobbying for Westlands, focused on efforts 
to increase Central Valley Project pumping from the Delta. 
Specifically, sections 4001 and 4003 of subtitle J of the WIIN 
Act, correct?
    Secretary Bernhardt. I think it was more focused on 4002.
    Mr. Huffman. OK, the specific sessions involving Delta 
operations that affected Westlands, correct?
    Secretary Bernhardt. I certainly would say 4002 falls into 
that category. And I am not sure I would say that it affects 
Westlands, necessarily, but it is certainly----
    Mr. Huffman. Well, Mr. Secretary, with all due respect, 
those two specific sections involving Delta operations were a 
giant thumb on the scale against endangered fish in the Delta 
and in favor of the Westlands Water District. It was your thumb 
when you helped write those sections. And, by the way, you had 
been advocating for these things for several years on behalf of 
Westlands. And it is your thumb now, as the person in charge of 
interpreting these laws and implementing them.
    But your lobbying work for Westlands on these things didn't 
count, you would argue, it didn't even count toward your 2-year 
recusal under the Trump ethics pledge, correct?
    Secretary Bernhardt. Before I was even seriously 
considering coming into the Department as Deputy, I told 
Secretary Zinke that----
    Mr. Huffman. Mr. Secretary, I don't have time for a 
narrative. The question is did your lobbying for Westlands on 
these specific sections of the WIIN Act count toward your 2-
year recusal under the Trump ethics pledge?
    Secretary Bernhardt. Those specific activities regarding 
Public Law 114-322, which is the WIIN Act, those activities 
were viewed to not constitute lobbying on a particular matter--
--
    Mr. Huffman. Right, and that is significant----
    Secretary Bernhardt [continuing]. Which is a specific----
    Mr. Huffman. Reclaiming my time, that is a specific term--
this is my time, Mr. Secretary. It is important that you use 
that specific term of art. Because even though there were 
specific sections benefiting your client, if you can say that 
they didn't constitute a particular matter, you have a 5-month 
head start working on those things on behalf of Westlands as 
Secretary of the Interior. You have 5 months in which your 
recusal didn't apply. Correct?
    Secretary Bernhardt. It is not my view. What I did is I 
went to the career ethics officials----
    Mr. Huffman. And you convinced him that didn't constitute a 
particular matter.
    Do you think, Mr. Secretary, by parsing in that way, do you 
think you are upholding the standard of ethics we talked about 
at the beginning of my question?
    Secretary Bernhardt. I absolutely do, because 502, 
impartiality, goes to particular matters involving specific 
parties. And my action is completely consistent with OGE 
guidance, from my ethics officials, and I have followed their 
guidance to a T, and that has been reaffirmed in multiple----
    Mr. Huffman. Mr. Secretary, Westlands was by no means your 
only client. You also represented the Independent Petroleum 
Association of America. I am sure you are aware of how your 
former clients in the oil and gas industry have boasted about 
their special access to you at a 2017 meeting.
    Dan Naatz, the Director of the IPAA, boasted about how well 
he knew you, saying, ``We have direct access to him, 
conversations about issues ranging from Federal land access to 
the ESA.'' This was during your recusal. Was he just confused 
about who he thought he was talking to during this period?
    Secretary Bernhardt. Well, I can say emphatically I haven't 
talked to Dan Naatz since I walked into the Department. 
Probably----
    Mr. Huffman. So, he was just wrong when he told a room full 
of oil and gas executives that he was having these 
conversations?
    Secretary Bernhardt. He certainly didn't have any 
conversations with me when I got to Interior a day after, or 
any day after that.
    Mr. Huffman. OK.
    The Chairman. Thank you, sir.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Secretary. Just a follow-up 
on this, just to be very clear. You have DOI career ethics 
officials, and they have determined that your recusal is not 
required? Am I correct?
    Secretary Bernhardt. That is right. That is exactly right.
    Mr. McClintock. And there is a memo to Scott de la Vega, 
who is the Director of the Ethics Office of the DOI from 
Heather Gottry and Edward McConnoll, a very lengthy document, 
but it concludes that both the draft EISNOI and the 2009 BA are 
matters defined in the memorandum. As such, DOI employees are 
not required to recuse from participation in either the draft 
EISNOI or the 2019 BA.
    Secretary Bernhardt. That is correct.
    Mr. McClintock. Great. In fact, Mr. Chairman, I would like 
to ask unanimous consent to submit that for the record.
    Mr. Chairman? Unanimous consent?
    The Chairman. Yes.
    Mr. McClintock. Mr. Bernhardt, first and foremost--and I 
have mentioned this before, but I want to thank you again for 
your exemplary leadership as Acting Secretary during the 
shutdown this past winter. It was a stark contrast to how the 
Obama administration administered the shutdown in 2013.
    As you know, I have Yosemite Valley and Yosemite National 
Park in my district, as well as Sequoia and Kings Canyon, 
critically important to tourism and to the economies. In 2013, 
during the shutdown, the Obama administration deliberately 
closed and locked the gates. They forced every business 
conducting business to shut down, just because they were on a 
national park property. They went so far as to barricade the 
turnouts on the highway overlooking the valley, so people 
couldn't stop, get out of their cars, and even get a glimpse of 
the valley.
    When you took over as Acting Secretary, we had a shutdown. 
You went to extraordinary lengths to keep the park open. 
Businesses continued to operate, reservations continued to be 
honored, the park gates were open, and you did exemplary 
service in keeping the parks clean, safe, and open for business 
through the shutdown.
    And again, on behalf of all of the visitors of Yosemite 
Valley and the gateway communities, I want to thank you again 
for your service in that regard. And again, the contrast with 
the Obama administration was just stunning.
    Secretary Bernhardt. Thank you.
    Mr. McClintock. You are familiar with the California State 
Water Resource Control Board unimpaired flow rule. We have had 
record rainfall. That unimpaired rule is going to require the 
early draining of our reservoirs. Central Valley farmers are 
only getting a fraction of the water that they are entitled to.
    What can we do to mitigate this ridiculous rule from the 
State Water Resources Control Board?
    Secretary Bernhardt. Well, Brenda Burman is really on point 
as the Commissioner of Reclamation. We have, obviously, 
participated in the Board activities, and probably will end up 
participating in litigation, depending on what they--we 
actually have a very good dialogue right now with the 
Governor's office. I think his head of natural resources was in 
the Department yesterday or the day before.
    So, I am optimistic that we can find a good pathway forward 
that is not irresponsible for everyone.
    Mr. McClintock. The Shasta raise, the 18\1/2\-foot addition 
to the Shasta Dam would add about 600,000 acre-feet of water 
yield to the water available to California. And yet it is not 
included in the appropriations bill for this year. Would you 
consider that a shovel-ready project?
    Secretary Bernhardt. Well, when Representative Calvert 
asked us to look at all of our projects, it was the one that 
Reclamation thought had the shortest window. There are a 
variety of projects in California. People have a variety of 
views on them. But obviously, it is up there.
    Mr. McClintock. Could you give us a quick assessment of the 
risk of catastrophic wildfire on Interior lands, and what needs 
to be done to give you the tools to address that threat?
    Secretary Bernhardt. Well, what we have asked for in our 
budget--well, first off, we are doing a lot. The President 
issued an Executive Order late last winter. Secretary Zinke 
issued a Secretarial Order to follow on that, and we have had a 
little slowdown with the shutdown. But I think we are really on 
top of things pretty well this year.
    That said, we have asked for additional tools as part of 
our budget. We have proposed six different categorical 
exclusions we would like to see. And we would like to work with 
Congress to try to get those codified.
    Mr. McClintock. Great. Well, I would be very interested in 
your elaborating on that in the future. Thank you.
    The Chairman. Thank you.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman.
    Secretary Bernhardt, I appreciate your having taken the 
time to meet with me just a few weeks ago. When you were in my 
office, we discussed a number of letters that Chairman Grijalva 
and I have sent to the Department of the Interior that we have 
not received a response on.
    One of those letters I would like to go into greater detail 
on is the one regarding the renewal of two mining leases right 
next to the Boundary Waters Wilderness in Minnesota. These were 
two leases that the Obama administration had canceled, and it 
just so happens that are owned by a mining company run by Jared 
Kushner and Ivana Trump's landlord here in DC.
    In early February 2017, Interior employees were circulating 
two documents through e-mail. One was a briefing memo on this 
topic, and the other one was a document on withdrawal options.
    On March 12, the Chairman and I sent a very specific 
request for these documents, including their file names, with a 
March 15 response deadline. But as of today I have not seen the 
briefing memo or the withdrawal options document.
    Will your Department fulfill this very specific request by 
the end of this week, these two specific documents?
    Secretary Bernhardt. I am not familiar with exactly the 
contents of those two documents, but I will promise you this. I 
will leave here today, I will go look at them, and if I think 
that there is anything we can share I will do one of two 
things. I will either share them with you, or I will tell you 
that you are welcome to come over and look at them.
    Dr. Lowenthal. Well, let's talk about what you have shared. 
This past Friday--and thank you for that--we received our first 
response to another letter that we sent to you on the topic of 
the mining leases near the Boundary Waters Wilderness, received 
our first response on this topic.
    We sent this letter on March 1 requesting information on 
the mining leases.
    We got thousands of documents, well, thousands of files. 
Let me tell you. These files, as of Friday, which were received 
at 5 p.m.----
    Secretary Bernhardt. Is this still on the Boundary Waters?
    Dr. Lowenthal. Yes, this is on the Boundary Waters. We 
received 3,884 pages of documents. As you can see on this 
slide, 19 percent were duplicates. The vast majority of the 
others were already public documents, which we went through, 59 
percent. There is total redaction of some pages, but--it 
included unredacted phone numbers next to it, but everything 
else was redacted. Several pages of code. Can we see the next 
slide?
    [Slide.]
    Dr. Lowenthal. See this? I call this the gibberish slide. 
We have no idea what this is. But you sent it on.
    [Slide.]
    Dr. Lowenthal. Then, if we look at the next slide, it says 
``Briefing.'' That is what we asked for in the other one. The 
briefing memo, it is not really clear exactly what is in the 
briefing memo. Is this the briefing memo that you were supposed 
to send us? If you look at the slide, is this our briefing 
memo?
    Secretary Bernhardt. I will say this. I have spent years in 
civil litigation, so I have seen a lot of documents that look 
like this. And the reality is that----
    Dr. Lowenthal. I am sure you were as curious as we were 
about what this is.
    Secretary Bernhardt. And it is my experience in dealing 
with that, that if there is a particular document that you are 
worried about being over-redacted, we have a conversation on 
that and try to figure it out.
    Dr. Lowenthal. OK.
    Secretary Bernhardt. I think the----
    Dr. Lowenthal. Let's get back. You said that you would 
review and find out about the briefing memo and the withdrawal 
options of these slides, and you will get back to us.
    [Slide.]
    Dr. Lowenthal. Also, if you look at the next slide--yes. 
You recently sent on to us slides that labeled--the FOIA 
exemption, stating that the FOIA exemption was pre-decisional.
    As you understand, and I am sure you have--that was on this 
slide--Congress is not subject to the FOIA. So, I expect you to 
provide the actual----
    Secretary Bernhardt. I learned that lesson very early in my 
career at Interior. I made the mistake of applying----
    Dr. Lowenthal. OK, I am going to yield back, and I hope 
that we----
    Secretary Bernhardt.  I got in a lot of trouble. I have 
learned that one well.
    Dr. Lowenthal. Thank you.
    The Chairman. Mr. Westerman.
    Mr. Westerman. Thank you, Chairman Grijalva. Secretary 
Bernhardt, thank you for coming today, for your testimony, and 
for the work that you are doing and that the Administration is 
getting done at the Department of the Interior.
    I would say welcome to the home of the big bun. Some people 
may not understand the reference, but from my childhood days in 
the 1980s there was a famous TV commercial about hamburgers, 
and these ladies were at the home of the big bun, and they were 
looking for the beef, and they always ask, ``Where is the 
beef?''
    And as we look at the subject of the hearing today, looking 
at the Administration's budget, I think that is a good 
question, where is the beef? And that is not the question to 
the Administration, but that would be a question to Congress. 
Because, as we know--and we have talked about some 
constitutional issues in here--article 1 says that budgeting is 
the responsibility of the Congress, and the Congress has no 
budget. There is not a budget that has been passed out of the 
Budget Committee. There is not a budget that has been presented 
on the Floor. And by the process that Congress is supposed to 
follow to write appropriation bills, I am not sure how that 
process can ever work, since we don't even have a budget to 
start with.
    So, I commend the Administration for at least putting a 
budget suggestion together. And again, that is all it is, is a 
suggestion, because, again, it is Congress' role to provide a 
budget. And you have prepared the Administration's budget, 
saying this is our suggestion on how we could actually operate 
the Department.
    We talk a lot about things that I am not sure are doing a 
lot of good for the country, and we fail to look at the good 
things that have been done, for the work that you all are 
getting done. And one issue that is very important to me--and I 
think it is important to all members of this Committee, 
regardless of party--is the devastating wildfires that we have 
seen.
    I know that the President signed Executive Order 13855 that 
was to promote active management of our Nation's forest, and to 
reduce wildfire risk, and he got criticized in the press for 
that Executive Order. But I would also like to note that this 
is a bipartisan issue. Governor Newsom in California also had 
an executive order. And I want to read a quote from Governor 
Newsom when he issued the executive order, which was to 
accelerate forest management in California to reduce the risk 
of wildfire. He said, and I quote, ``The increasing wildfire 
risks we face as a state mean we simply can't wait until a fire 
starts in order to start deploying emergency resources. 
California needs sustained focus and immediate action in order 
to better protect our communities.''
    I wholeheartedly agree with that. I believe it is not just 
California, it is many states that need that. It is many states 
that the Department of the Interior operates in.
    So, my first question to you is what is the Interior 
Department doing to implement the President's Executive Order 
on Federal lands to make our communities safer?
    Secretary Bernhardt. The first thing that we did is 
Secretary Zinke issued a Secretarial Order shortly after the 
President issued his. I think the President issued his 
Executive Order on December 21, or thereabouts. I think 
Secretary Zinke issued his Secretarial Order on--well, 
obviously before, January 2. And that order set out some clear 
direction to our bureaus. And then each of the bureaus have 
moved forward in executing on that.
    We think we are going to meet the President's objectives. 
In our budget, we have also asked for some additional 
legislative language to potentially make things easier, in 
terms of categorical exclusions. And we would like to work with 
Congress on finding some clear legislative solutions. But in 
the interim we are moving forward. We have a number of plans 
that we are going to announce in terms of vegetation management 
plans that will also be going through an EIS process.
    So, I think we are on top of things this year. But we hope 
that the fire season is not extraordinary.
    Mr. Westerman. Yes, and then I just want to go back to the 
Minnesota mine issue, just to address that issue.
    I want to ask you would it be more accurate to say that the 
Obama-era withdrawal, which was officially noticed January 19, 
2017, the day before President Trump's inauguration, was that 
the unusual action, particularly considering the bipartisan 
support the leases enjoyed from Minnesota's congressional 
delegation?
    Secretary Bernhardt. Well, I am not going to opine on last-
minute decisions. I will say this, that I think by noon today 
there will be an announcement on Twin Metals, on the two leases 
that the Congressman referenced regarding BLM's action on those 
two leases. I would expect that would come sometime--maybe now, 
maybe in an hour.
    The Chairman. Thank you.
    Mr. Westerman. Thank you.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Mr. Secretary, earlier this year Congress has passed a 
public lands bill by a huge bipartisan margin that permanently 
reauthorized the Land and Water Conservation Fund. That is why 
I was so disturbed by the fact that your Department's budget 
plans to nearly eliminate the fund. Despite your Department's 
lack of interest, Congress is strongly committed to funding 
this popular and effective program. Will you commit to 
dispersing LWCF funding in a timely manner when appropriated by 
Congress?
    Secretary Bernhardt. Yes. If Congress gives us the money, I 
promise that we will appropriate it promptly.
    Mr. Gallego. Great. Mr. Secretary, as I am sure you are 
aware, a week ago today the President tweeted out his 
opposition to H.R. 312, the Mashpee Wampanoag Tribe Reservation 
Reaffirmation Act, as it was about to come to the House Floor. 
He wrote, ``Republicans shouldn't vote for H.R. 312, a special 
interest casino build backed by Elizabeth Pocahontas Warren. It 
is unfair and doesn't treat Native Americans equally.''
    For now, I will ignore the racist slur in his tweet, and, 
in general, the lies. I want to focus on the President's 
bizarre opposition to a small, bipartisan bill that is broadly 
supported by dozens of tribes, tribal organizations, and state 
and local governments.
    Secretary Bernhardt, yes or no, are you familiar with the 
bill in question?
    Secretary Bernhardt. I am not familiar with the specific 
contents of the bill.
    Mr. Gallego. OK, this bill would reaffirm the Mashpee 
Tribe's homeland and help save them from bankruptcy.
    Did the President consult with you about this issue before 
sending out that tweet? Yes or no?
    Secretary Bernhardt. He may have consulted with the 
Department, but he didn't consult with me, specifically.
    Mr. Gallego. To your knowledge, did the President consult 
with the Mashpee Tribe before sending out that tweet?
    Secretary Bernhardt. I have no idea.
    Mr. Gallego. To your knowledge, did the President consult 
with the National Congress of American Indians before sending 
out that tweet?
    Secretary Bernhardt. I have no idea.
    Mr. Gallego. Do you know if the President talked to any 
tribes or tribal organizations about this issue before he 
tweeted?
    Secretary Bernhardt. I have no idea.
    Mr. Gallego. OK. So, the President did not confer with you, 
his highest-ranking official at the Department of the Interior, 
or, to your knowledge, any tribes or organizations before----
    Secretary Bernhardt. The President doesn't need to----
    Mr. Gallego. Say again.
    Secretary Bernhardt. The President doesn't need to consult 
with me on any tweet he wants to send.
    Mr. Gallego. OK, good to go. Good to know. We will 
continue.
    Any tribes, he didn't talk to you, he didn't talk to you 
before making this decision, didn't talk to any of the tribal 
organizations, and clearly doesn't respect your Department.
    Secretary Bernhardt. I think the President----
    Mr. Gallego. If the recommendation for this tweet didn't 
come from you, it makes me wonder where it did come from.
    Secretary Bernhardt. The President----
    Mr. Gallego. I am taking my time. This is my time.
    Mr. Secretary, do you know who Matt Schlapp of Cove 
Strategies is?
    Secretary Bernhardt. Do I know who Matt Schlapp is?
    Mr. Gallego. Of Cove Strategies.
    Secretary Bernhardt. I know who Matt Schlapp is. I am not 
sure what the name of the company is. I didn't hear that, but--
--
    Mr. Gallego. So, for those who don't know--I am glad you do 
know--Matt Schlapp is the lobbyist for Twin River Casino, which 
opposes granting Mashpee its ancestral homeland because they 
are worried about a potential tribal casino will hurt their 
business.
    Matt Schlapp is a Republican donor. He has close ties to 
the White House, CPAC, and the President has called him a 
fantastic friend and supporter. He also happens to be married 
to the President's Director of Strategic Communications.
    Have you or, to the best of your knowledge, anyone at 
Interior ever spoken to Matt Schlapp or Cove Strategies 
regarding the Mashpee bill or this issue in general?
    Secretary Bernhardt. Not to my knowledge.
    Mr. Gallego. Not to your knowledge, OK. Mr. Secretary, are 
you aware of any communication that the President has had with 
Matt Schlapp or Cove Strategies regarding the Mashpee bill?
    Secretary Bernhardt. No.
    Mr. Gallego. I have a lobbying report right here from Cove 
Strategies that says that Matt Schlapp lobbied the executive 
office of the President earlier this year on behalf of Twin 
River Casino. Twin River has paid three separate lobbying firms 
so far this year. The other two have only lobbied the House and 
the Senate.
    Matt Schlapp, with his close ties to the White House, is 
the only one who lobbied the executive office of the President. 
So, the President may not have consulted with you, the Mashpee, 
or any other tribal organizations or anyone within your 
Department before sending out his tweet and influencing the 
outcome of the legislation, but it seems pretty clear to me 
that who he was listening to was a high-powered special 
interest lobbyist with deep pockets and political connections 
allowing lobbyists and special interests to----
    Secretary Bernhardt. I don't think that is necessarily 
true. President----
    Mr. Gallego. Well, it has certainly been proven true so 
far. Allowing lobbyists and special interests to drive this 
Administration's policy toward sovereign tribes is disturbing. 
Despite the President's interference on this bill, which 
recognizes a homeland that the Mashpee have lived on for 
thousands of years before they were greeted by the pilgrims, we 
will be passing H.R. 312 out of the House on the Floor today.
    As the Secretary of the Interior, I think you should let 
the President know that it is our Federal trust responsibility 
to enter into government-to-government consultations with 
tribes for making decisions that impact them, not to launch 
racist, unilateral attacks on a tribe's sovereignty on Twitter.
    I yield back my time.
    The Chairman. Mrs. Radewagen.
    Mrs. Radewagen. Thank you, Chairman Grijalva and Ranking 
Member Bishop, for holding this hearing. And thank you and 
welcome, Secretary Bernhardt, for coming today to discuss DOI's 
policy priorities.
    Mr. Secretary, what is your opinion on former Secretary 
Zinke's monument review, specifically regarding his 
recommendations for the marine monuments?
    And what is DOI's current status on the issue of fishing 
access in and around the Rose Atoll and Pacific Islands 
National Monuments?
    And will you be making your own recommendations to the 
President?
    Secretary Bernhardt. The President directed Secretary Zinke 
to review the monuments and create a report. And Secretary 
Zinke did that, and that report was submitted to the President. 
And the President will decide whether he wants to act on any 
or--he needs to, obviously, act on some of the provisions. He 
may act on other recommendations. And I would expect that he 
might.
    He hasn't asked me for a second report. So, our position is 
they have the report, and it is in the President's hands right 
now, and he will make some decisions, I expect.
    Obviously, in terms of access, public access is a 
centerpiece of our interest at the Department. So, access is 
important to us.
    Mrs. Radewagen. OK. The next question is--and you may have 
partially answered it already, but you could spend all day 
responding to this question, so please instead only take a 
couple of sentences, if possible.
    What is the Department doing to enhance public land access 
and recreational use for the average American?
    Secretary Bernhardt. I actually think this is going to end 
up being a major milestone of the President's tenure.
    First off, we are committed to public access, we are 
committed to increasing hunting, fishing, angling, and 
recreational opportunities. And I frankly think that the bill 
you all worked together to pass in such a bipartisan fashion 
gives us a number of things to even carry that farther forward.
    My expectation is we will be announcing soon over 1 million 
acres of additional public access, just on refuge areas. We are 
excited about it.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Cox.
    Mr. Cox. Yes, thank you. And thanks for being here, 
Secretary Bernhardt.
    I do want to touch on the reauthorization of the Land and 
Water Conservation Fund. It passed 92 to 8 in the Senate, 363 
to 62 in the House. And I think everybody on this Committee 
voted for that. It is certainly a victory for conservation, 
showing the strong bipartisan support of protecting access to 
our public lands. And, certainly, in my district it has helped 
fund Shafer Park in Selma, Hanford Sports Park, and the 
national parks Sequoia and Kings Canyon, just east of my 
district.
    So, this is one of the most successful conservation 
programs that we have. And I think all of us here were very 
concerned when the Interior's budget included a 95 percent 
reduction in funding for the fund.
    And as you testified earlier, your role is to ``work hard, 
effectuate the President's vision,'' which is the elimination 
of this fund. Can you explain why these cuts were proposed from 
the Interior Department? And, as you testified, if the funds 
are appropriated, you will expend those funds. But that would 
seem to be a direct contravention of the President's vision. 
So, how do you reconcile that?
    Secretary Bernhardt. Well, to your last question, it is my 
understanding the President proposes and the Congress disposes 
when it comes to appropriations, and that is the way our 
Constitution works.
    In terms of LWCF, I would say this, that we are thrilled 
that you created the permanent authorization. It is my 
experience that, since LWCF has been enacted, there have been 2 
years that it has been fully funded. And I actually think that 
the fact that it is reauthorized permanently gives me an 
opportunity in the next budget to push harder in our internal 
budget debates about it.
    But if you look at our budget overall, and you compare our 
budget to EPA and DOE and other similarly situated agencies, I 
think we did pretty good in the internal process. But we will 
spend money that Congress gives us for LWCF, and the question 
was really, I think, can we get it out quickly, and the answer 
is yes. We appreciate that you reauthorized it.
    Mr. Cox. No, the question was more--the President's vision, 
as enacted by his budget request, which came from Interior, I 
am assuming, was to terminate the program, to reduce it by 95 
percent.
    Secretary Bernhardt. It was to----
    Mr. Cox. And although that money may be appropriated, it is 
still against the President's vision, which you said you are 
working to enact, and not spend the money.
    Secretary Bernhardt. I don't think that is the case. I 
think the President said this year this is what we would like. 
You all take that and you decide what you like, and then we 
implement whatever you like. And the President is not going to 
say, if you appropriate it, ``We can't spend it.''
    Mr. Cox. What if the President would say, ``I don't want 
you to spend it on parks, I want you to spend it on a border 
wall''?
    Secretary Bernhardt. I probably don't want to get into a 
legal argument about the President's authority, but I don't 
know if that would be a----
    Mr. Cox. It was certainly a question that was raised 
earlier, and we know how everyone voted on that. But no, thanks 
very much with regard to that, because I know you are a strong 
supporter of public lands, and access to public lands. But I do 
see that conflict between yourself, the Interior Department, 
and the Administration.
    The other question I would like to ask is about climate 
change, and I am particularly interested in the threat that 
climate change poses to water infrastructure and water security 
in California, notwithstanding the other states. And we are 
expecting longer, more frequent droughts, higher temperatures, 
earlier spring runoffs.
    And I want to know more about how the Department is 
incorporating climate change into your infrastructure 
management.
    Secretary Bernhardt. Well, I think everybody recognizes 
that the climate is changing. Where we go in terms of thinking 
through these issues is a place that the fourth assessment and 
the USGS scientists all agree on, and that is that the largest 
uncertainty in projecting future climate conditions is the 
level of GHG, going forward.
    And what our scientists tell us are the best practices to 
use in thinking through these issues is that we recognize that 
there is not one particular model that is going to be the 
probabilistic answer. You need to look at all of the models, 
and a full range of models, and then look within that range. 
And they have said they use multiple models, use multiple 
representative concentration pathways. And that is what we are 
trying to do with our decisions, to ensure that we have the 
full range of modeling, and then utilize it as appropriate.
    And if you look at our written decisions, you see that that 
is the case.
    Mr. Cox. Great, thank you.
    The Chairman. Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. Good morning 
and congratulations on your recent confirmation, Mr. Secretary. 
I do have many questions, but I will try to focus just on one.
    The first is that I do understand that the Administration 
held a significant offshore wind lease in December of last year 
for Massachusetts totaling $405 million in revenue. And I do 
understand this will mean significant growth for the industry 
and Americans that are living on the mainland.
    I don't know if you are aware, but we introduced with a 
group of members in this Committee a bill that will promote the 
same kind of opportunities of offshore wind for the 
territories, as well. It was passed unanimously for this 
Committee and is going to the Floor.
    Is your Department supporting this kind of bill?
    Secretary Bernhardt. I am not familiar with that specific 
legislation and whether we took a particular approach to it. 
But I would say that, as a concept, we would absolutely be 
supportive of providing opportunities for the insular areas to 
develop their resources in a responsible way, of course.
    Miss Gonzalez-Colon. I do understand that the Royalty 
Policy Committee recommended pursuing the change, and the 
Bureau of Ocean Energy Management supported similar draft 
legislation that passed this House of Representatives last year 
and during the last Congress, so----
    Secretary Bernhardt. You are more familiar with it than I 
am. We are not going to change our position, I can promise you 
that.
    Miss Gonzalez-Colon. That was what I wanted to hear. Thank 
you for letting me know that.
    As you may know, the Department of the Interior got 
important certifications from the island and jurisdiction of 
many sites like the San Juan National Historic Park, which 
includes important 16th century fortifications from the Spanish 
colonial era, among many other sites.
    One of the questions that we did have during the last 
budget, last year, it was about letters coming from the loss of 
40 masons for the Department of the Interior----
    Secretary Bernhardt. Well, let me tell you. I can answer 
that right now. I don't know if it will be 40, it may be less 
than that, but I am issuing an order today that will allow 
recreational fee dollars to be used for permanent employees for 
certain situations, and one of those would be, in my opinion, 
the masons or some of the masons in--I think it is the fort at 
San Juan.
    So, I think we are about to take care of that. And what I 
can do is have somebody call you this afternoon with the 
specific details.
    Miss Gonzalez-Colon. I really appreciate that. They 
submitted a----
    Secretary Bernhardt. But it is a problem, and I think we 
have figured out a solution for you.
    Miss Gonzalez-Colon. I am glad to hear that. I do know that 
we have 88 full-time employees at that fort. But those 40 
masons are doing a great job implementing----
    Secretary Bernhardt. I have been there, I have seen their 
work. And it is really unprecedented.
    Miss Gonzalez-Colon. And another--members of this 
Committee, we traveled to Puerto Rico a few weeks ago, and we 
visited El Yunque, which is the only national rainforest in the 
United States. And the visitor center was hit directly----
    Secretary Bernhardt. With the hurricane?
    Miss Gonzalez-Colon. With the hurricane. Although the funds 
are being allocated to the island, allocated to the Department 
of the Interior to do the repairs in that area, it has been a 
year and a half and we haven't seen anything being done yet. Do 
you have any information on that?
    Secretary Bernhardt. The Fish and Wildlife Service has 
actually done a pretty good job of trying to obligate money. 
One of the challenges in those situations is there is such a 
demand for contractors that it is challenging.
    I will look into that specifically, but I know we are 
having some difficulties in that regard.
    Miss Gonzalez-Colon. And I do know the Department of the 
Interior presence is also seen through the--of course, the Fish 
and Wildlife, as you just mentioned. And we do have five 
national wildlife refuges in five islands: Desecheo, Cartagena, 
Culebra, Vieques. And I am pleased to hear that the President's 
budget request for a national wildlife system is $509 million, 
an increase of $23 million from this last fiscal year. Where is 
that money going to be used?
    Secretary Bernhardt. I am not 100 percent sure about that. 
I will have to get back to you on that one, specifically.
    Miss Gonzalez-Colon. So, in your view, that provision of 
$23 million will help strengthen the national wildlife refuges 
across the Nation, including those in Puerto Rico?
    Secretary Bernhardt. Well, that would be our hope, yes. We 
had better do better, right?
    Miss Gonzalez-Colon. If you can later on provide a detail 
or the breakdown of the total cost of the deferred maintenance 
projects across the five national wildlife refuges in Puerto 
Rico, I would really----
    Secretary Bernhardt. OK.
    Miss Gonzalez-Colon. And I will submit the rest of the 
questions for the record.
    Secretary Bernhardt. We will do that.
    Miss Gonzalez-Colon. I yield back.
    The Chairman. Mr. Neguse.
    Mr. Neguse. Good morning, Mr. Secretary. Thank you for 
coming today, and for your testimony.
    I want to start with reference and great respect to my 
colleague, Mr. Westerman, who posed the question of ``Where is 
the beef''--and I think it is an appropriate question. I would 
say the title of this hearing is the budget priorities of the 
Department of the Interior--the policy priorities of the 
Department of the Interior. So, certainly, that is where my 
questions will be focused.
    And to that end, I think it can get lost in some of the 
exchanges, just how much the Department's proposed budget, 
which I understand is a proposal, and that, obviously, Congress 
and our appropriators will be doing the bulk of the work in 
preparing a final budget, but nonetheless, just how much the 
budget decimates some really important programs.
    A decrease of $18.6 million for national park visitor 
services. As you know, Mr. Secretary, or as you may know, I 
represent the 2nd District in Colorado, which includes Rocky 
Mountain National Park.
    Secretary Bernhardt. My wife and I were married in Estes, 
right outside of Rocky----
    Mr. Neguse. I proposed to my wife in Estes.
    Secretary Bernhardt. Oh, did you? That is great.
    Mr. Neguse. I am glad that we have that in common. But 
nonetheless, the $18.6 million decrease in park services for 
the millions of visitors that will be visiting my district in 
the coming months is cause for great concern.
    A decrease of $12.9 million for resource stewardship, $11 
million to implement the Endangered Species Act, and a $11.6 
million decrease for fish and aquatic conservation, the 
elimination of the national wildlife refuge fund, the 
elimination of science support programs, juxtaposed against a 
66.4 percent increase in coal management programs, and a $1.4 
million increase to expedite permitting for oil and gas.
    So, Mr. Secretary, I would just say I agree with Mr. Cox 
and other colleagues of mine, that a budget fundamentally 
reflects our values. And I don't agree with the budget 
priorities as the Department of the Interior has laid them out.
    I want to focus in particular on the LWCF program. And if 
you could, kind of just help us, Mr. Secretary, understand the 
reasoning behind the Department's decision to really decimate 
that program and cut it by 105 percent. Because, I mean, I 
understand--we looked back, and I have a tweet--not my tweet, 
your tweet--that we can enter into the record from February 15 
of this year that says, from Secretary David Bernhardt, 
@SecBernhardt, ``There is a lot to agree on in the public lands 
package from the Senate. The Trump administration fully 
supports reauthorizing LWCF, and we included it in our budget 
last year.''
    And yet, 1 month later, we have a budget from the 
Department of the Interior that cuts by 105 percent that very 
same program.
    Secretary Bernhardt. That tweet was in reference to 
reauthorization. But, you know, in our budget, I think, is 
something that we can all agree on, and I would love, given 
your passion for the parks, to have us all work on, and that is 
creating an infrastructure fund to deal with our maintenance 
backlog issues, which are extreme. They are extreme in Rocky 
Mountain, they are extreme in Acadia, they are extreme 
everywhere. And that is not an insignificant thing to get 
through the budget. I mean I think it is about a $6.5 billion 
proposal. And it is a major commitment to parks and 
infrastructure----
    Mr. Neguse. I appreciate that, Mr. Secretary.
    Secretary Bernhardt. And I----
    Mr. Neguse. I am going to reclaim my time.
    Secretary Bernhardt. I do appreciate that----
    Mr. Neguse. Because I have limited time--I appreciate that.
    Secretary Bernhardt. OK.
    Mr. Neguse. I am certainly appreciative of that commitment. 
I would just say I would hope that it would be mirrored in the 
fundamental program around land acquisition for the LWCF. But I 
think you understand my point.
    I will move on to just one other topic. I believe you are 
probably aware of a woman by the name of Maria Caffrey, who was 
a researcher at CU Boulder in my district. Dr. Caffrey was 
contracted with the National Park Service to lead a report on 
the effects of sea level rise and storm surge on national 
parks.
    Before the final version of the report was published she 
was repeatedly pressured to remove any references to the human 
causes of climate change from the report. Dr. Caffrey believed 
that the science of the report required a discussion on the 
human impact of climate change, and ultimately adamantly 
refused.
    Fortunately, after the incident was publicized in an 
investigative report, major backlash ensued. The report was 
released with its original language.
    My understanding--this was before I came to Congress--was, 
thanks to the Chairman's leadership and the leadership of 
several other members of this Committee, a request was made of 
the Department of the Interior's Inspector General to look into 
this issue. The unfortunate aspect of this is that the IG 
subsequently, after the report was released without the edits, 
closed that investigation.
    I would hope that you would support the Inspector General 
taking another look, particularly given what I understand to be 
recent reports in the news around the fact that the doctor's 
contract was recently expired and not renewed in February of 
this year, and that there is some controversy around that 
aspect of it.
    Secretary Bernhardt. So, I will say this. I haven't looked 
at what the Inspector General said specifically, but my 
understanding--and I can go back and check this when I get back 
to the office and give you a call if this is wrong--but my 
understanding is what the Inspector General actually did is 
said, ``Hey, this looks like a matter of scientific 
integrity,'' and so it was sent to the scientific integrity 
team, and that they looked at it and decided there wasn't an 
issue.
    But I will go back and double-check that for you. But that 
is my understanding. It is not that the IG just said, ``We are 
not doing anything,'' it was--they said, ``Hey, this is 
probably better for this group,'' and they looked at it. But I 
will go back and double-check.
    Mr. Neguse. I would just say, Mr. Chairman--thank you, Mr. 
Secretary--with respect to that particular issue, to the extent 
that the IG did not essentially hold their investigation in 
abeyance, or close it because the issue was rendered moot, if 
that is not the case, then I would appreciate your support----
    Secretary Bernhardt. I will double-check, I don't know. I 
will ask Mary.
    Mr. Neguse. Thank you.
    The Chairman. Thank you.
    Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman and Mr. Ranking Member.
    Secretary, congratulations on your confirmation. Thank you 
for being here with us today, and staying with us so long.
    Due to a great bipartisan effort, we passed a major public 
lands package the beginning of this year. One of the largest 
bills in there was also due to some great bipartisan work, the 
Emery County Public Lands bill. Over a million acres in my 
district--in rare form we were actually able to agree on what 
to do with public lands.
    Inside that is a lot of work. And in some cases, the work 
has just started: the SITLA exchange, the San Rafael Swell 
Recreation Area Management Plan, Jurassic National Monument 
Management Plan. Given your shortage of resources and the many 
things that you have to do, can you see a path forward to put 
the resources into these management plans and the SITLA 
exchanges?
    Secretary Bernhardt. Let me tell you what I have done 
there.
    Shortly after the bill was signed into law, I sent an order 
to all of our bureau directors, demanding the following: that 
we go through the statute, look at those provisions that were 
in it, identify those provisions that needed some sort of 
implementation. And they gave me the overall list a while ago.
    And then I asked them to go back and develop an 
implementation plan for each of those priority items. I think 
that had a deadline of day 60, which would probably be the 22nd 
of this month.
    What I can do is come talk to you or visit with you after I 
get that on the 22nd. Because I think we will have a plan, and 
we will get it done.
    Mr. Curtis. Thank you, I appreciate that. SITLA alone 
represents millions of dollars in these exchanges for our 
schools in Utah, and is just really critical. Thank you for 
your----
    Secretary Bernhardt. I know how important it is.
    Mr. Curtis. Yes, thank you for your special attention to 
that.
    We have kind of a really unique situation in Carbon County. 
The Bureau of Reclamation--8 years ago there were some homes 
built on the wrong spot on their property, some private cabins. 
And the bureau has been doing quiet title to take these back. 
And with the Ranking Member and Senator Romney, we sent a 
letter to thank you for your response to that letter. This may 
be down too much into the weeds for you, but I would love your 
help and attention on trying to resolve this in a way that 
doesn't destroy these cabins, if there is an answer in there 
that works both for the Federal Government and----
    Secretary Bernhardt. I will talk to Brenda about it.
    Mr. Curtis. Thank you, I appreciate that. And also, a big 
thanks to you and Superintendent Kate Cannon and the Arches for 
a very, very difficult issue, the way that has been handled. I 
think it is very important that the residents of that town feel 
listened to. Thank you for that, and for the many people in 
your organization that made that possible.
    Also, just kind of a plug to keep that forward-most in our 
mind, how this is resolved. The public buy-in will have a lot 
to do with how thorough they feel that we have vetted the 
different options.
    Secretary Bernhardt. We respect that, and are very 
sensitive to blow-ups on that.
    Mr. Curtis. Thank you. And finally, I am going to let this 
be at your discretion. The moment may have passed. There have 
been a couple of things that you would have liked to have 
responded to in this hearing, and you were not given that 
opportunity. If the moment has passed, that is fine, but I did 
want to give you that.
    Thank you, Mr. Chairman, I yield my time.
    The Chairman. Thank you very much.
    Mr. Levin.
    Mr. Levin. Thank you, Chair Grijalva.
    Secretary Bernhardt, I appreciated the chance to meet you 
in my office earlier this month. I am pleased you joined the 
Committee for a public hearing.
    During our meeting, we discussed a number of issues, from 
offshore drilling to renewable energy on public lands to 
climate science. We discussed the myriad of actions this 
Administration has taken that impact our land and water. I came 
into our meeting, as I think you know, troubled by some of your 
Department's handling of important environmental issues. And 
our discussion, while it was productive, didn't fully alleviate 
those concerns.
    After our meeting, I sent you a letter outlining several 
remaining questions that I had from our conversation, and 
again, urging you to remove California from future offshore 
drilling plans. I requested a response to my inquiry by this 
past Monday. But unfortunately, you have not yet responded.
    Mr. Chairman, without objection, I would like to enter this 
letter, the letter that I sent Mr. Bernhardt, into the record, 
and request a written response from the Secretary.
    The Chairman. Without objection, so ordered.
    Mr. Levin. With that I will turn to my questions.
    Mr. Secretary, in our meeting you seemed to indicate that 
you don't believe Congress has directed you to address the 
impacts of climate change. But Federal courts have held on 
numerous occasions that the Department must take consideration 
of future impacts into account, especially those related to 
climate change under the National Environmental Policy Act and 
the Endangered Species Act, among many others.
    This means that courts interpreting and relying on existing 
law say that you must consider climate change, and decisions 
made on the basis of the very real threat of climate change are 
valid.
    I would also argue that a plain reading of the existing 
laws enacted by Congress squarely require you to manage for 
climate change in the natural resource planning process.
    Mr. Secretary, I would appreciate a yes-or-no answer to the 
following questions.
    First, does the Federal Land Policy and Management Act 
require you to take, and I quote, ``into account the long-term 
needs of future generations'' and ``take any action necessary 
to prevent unnecessary or undue degradation of those lands''?
    Secretary Bernhardt. I think that is in the policy 
statement of the Act.
    Mr. Levin. So, that would be a yes?
    Secretary Bernhardt. Sure.
    Mr. Levin. Again, yes or no, when it comes to the national 
wildlife refuge system, are you required by law to ``ensure 
that the biological integrity, diversity, and environmental 
health'' of the refuge system ``are maintained for the benefit 
of present and future generations of Americans''?
    Secretary Bernhardt. I think that is pretty consistent with 
the way it reads, without looking at it.
    Mr. Levin. So, that is a yes.
    Third, yes or no, are you required by law to ensure that 
national parks are ``unimpaired for the enjoyment of future 
generations''?
    Secretary Bernhardt. I believe that is what the Organic Act 
says.
    Mr. Levin. Correct.
    Fourth, yes or no, is it true that the SECURE Water Act of 
2009 tasks the Secretary of the Interior with the 
responsibility ``(a) to take the lead role in assessing risks 
to the water resources of the United States, including risks 
posed by global climate change; and (b) to develop strategies 
to mitigate the potential impacts of climate change''?
    Secretary Bernhardt. That Act is one of two acts I know 
that have affirmative obligations related to climate change for 
the Secretary of the----
    Mr. Levin. So, four for four, I believe.
    And finally, given these statements and law, yes or no, is 
there any doubt that you have a legal obligation to take into 
account the needs of future generations and manage the public 
lands to prevent unnecessary or undue degradation now and in 
the future?
    Secretary Bernhardt. We certainly have a need to take them 
into account. We are taking them into account.
    Mr. Levin. Yet, when we met you claimed that Congress 
hasn't given you enough direction to address climate change.
    Secretary Bernhardt. What I specifically said is you 
haven't given me any direction to stop any particular activity. 
And if you want to stop it, you need to give us that direction.
    The reality is we are compliant with NEPA, we are----
    Mr. Levin. Mr. Bernhardt, Secretary, what type of direction 
would you want Congress to give you to make it any clearer?
    Secretary Bernhardt. Whatever you think you can do to stop 
it, if that is what you want to do. Go for it. But that should 
happen in this body. That is not something the Department of 
the Interior does with a magic wand.
    Mr. Levin. Well, Secretary, I have just given you a number 
of examples where you do have to take climate change into 
account to do your work.
    And we are talking about real people in communities here 
that are impacted in my district and districts all across the 
country. And we know, when you talk about a range, we know the 
range is from very bad to extremely bad. We are talking about 
long-term economic consequences, environmental consequences. 
And you are at the forefront of that.
    And we talk a lot about draining the swamp. It is the 
epitome of the swamp to have a handful of polluters dictate the 
environmental policies of this Administration. And you might 
wonder why there are people in swamp creature outfits behind 
you. The public has real concerns about your work, sir. And you 
have done very little to address those.
    Secretary Bernhardt. Well, I am here voluntarily----
    Mr. Levin. And we are going to continue to hold you to 
account, Secretary.
    Secretary Bernhardt. I am here voluntarily----
    Mr. Levin. And with that, I would be happy to yield back my 
time.
    The Chairman. Mr. Fulcher.
    Mr. Fulcher. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. And I can tell by 
the comments that you have a lot on your plate. And I just want 
to go on record to say, for those of us in Idaho, we appreciate 
you.
    We also want to take some of that stuff off of your plate. 
We would be happy to take care of a little bit more of the 
things in our own backyard.
    Secretary Bernhardt. Well, our plan is to keep our public 
land and manage it, so----
    Mr. Fulcher. Good, all right. Well, we would like to help 
you with that.
    And to that end, you had some personal involvement with the 
sage-grouse plan in our state, with stakeholders there, with 
the state, and officials there, and collaborated nicely to work 
out a plan where we could deal with local threats. I want to 
thank you for that.
    I am disappointed that it is being litigated now. And that 
actually leads to the question that I had. This was originally 
for budget discussions. Do you have any insight, do you have 
any idea, in terms of cost and/or time, that litigation adds to 
your typical budget?
    Secretary Bernhardt. Well, litigation is a constant at 
Interior. It is a part of our world, and people are entitled to 
litigate.
    It is a significant amount of time to deal with litigation, 
but it is part of what we are responsible for, and we take it 
as it comes.
    Mr. Fulcher. Stakeholders in my state tell me that that is 
one of the No. 1 obstacles to making progress in how lands are 
managed, and just a positive improvement there.
    Secretary Bernhardt. I think the real issue at times is 
that it just adds uncertainty after a policy decision is made. 
And that uncertainty then affects planning.
    And I will say that for sage-grouse, I think what has 
happened over the last 10 years has been really pretty amazing. 
When you look at--all of these states have gotten together, 
they have come up with their own plans. The Federal Government 
is largely in alignment with their plans. And it doesn't matter 
whether it is Kate Brown in Oregon or your governor or others, 
the governors are all on board.
    And then you have a group that doesn't like it, and they 
sue. And they are entitled to do that. But the particular group 
here in this case, they sued on the prior plan, which was done 
in the Obama administration, and they just amended their 
complaint to the new one. And they will have their day in 
court.
    But what it does do is maybe not give people a feeling of 
momentum to get on with the important work. And we have 
collectively, as a society, invested a great deal in the sage-
grouse. The Ag. Department, we spend about $73 million a year 
within the Department of the Interior. And this has gone on for 
decades, and I think it has done some really good things for 
the sage-grouse. And it is an amazing commitment by the state 
governors on trying to be responsible for a particular species.
    So, they have done a lot of work and then the bottle gets 
shook up. But that is just the nature of our world today.
    Mr. Fulcher. Just to that end, I want to make a pitch for a 
piece of legislation that Mr. Westerman has had in the past, I 
am a sponsor of, as well, the Resilient Forests. It has a pilot 
provision in there for an arbitration process. And if someone 
does have a problem, then, OK, bring a solution to the table. 
And that is a fair request, I think. So, I am making a pitch 
for that.
    Secretary Bernhardt. That is an interesting idea. I will 
look at the bill.
    Mr. Fulcher. Making a pitch for that.
    Just to close things up, from my standpoint, thank you for 
a new director, John Roose, we are excited about that. And I 
appreciate anything else you can do to offer a little bit more 
flexibility within our state, and more collaborative efforts 
like that. That is much appreciated.
    I understand you are an outdoorsman, and we would love to 
invite you to our state and show you some of the best hunting 
and fishing in the world.
    Secretary Bernhardt. Well, I would like to take you up on 
that.
    Mr. Fulcher. All right. With that, I yield back my time.
    The Chairman. Ms. Haaland.
    Ms. Haaland. Thank you, Chairman. And thank you, Mr. 
Secretary, for spending time with us this morning.
    During the 5 months I have been in office I have met with 
over 300 Indian tribes and tribal organizations, and 90 percent 
of the time the issue they raise the most is the lack of tribal 
consultation prior to the Department of the Interior's 
reorganization, which caught many tribes by surprise. In the 
time since you have been sworn in, I have continued to hear 
about the lack of information provided to tribes on the 
reorganization's opt-out option.
    Secretary Bernhardt, you lead the Federal agency with the 
most responsibility to Indian Country. What happened during the 
reorganization was a clear breach of the Interior's policy to 
consult with tribes.
    I am a member of the Pueblo of Laguna, and I have worked 
with tribes my entire career. And I am going to read you a 
definition of tribal consultation, and that is ``to ensure 
tribes have a strong voice in shaping Federal policies that 
directly impact their ability to govern themselves.''
    Do you agree with this definition?
    Secretary Bernhardt. I agree that that is potentially a 
definition.
    Ms. Haaland. Well, I hope you agree with it, because that 
is your Department's definition.
    So, it seems that we are both in agreement that if the 
Interior makes a unilateral decision on a policy that impacts 
tribes in this country, then there has not been adequate tribal 
consultation.
    Secretary Bernhardt. Well, I think in reorganization in 
particular, tribes had an incredibly strong voice. They had 
such a strong voice that we decided that we would not include 
either the Bureau of Indian Affairs or the Bureau of Indian 
Education in the reorganization. That was exactly what they 
asked for.
    Ms. Haaland. That is interesting.
    Secretary Bernhardt. And that is exactly what they----
    Ms. Haaland. That is very interesting. So, perhaps the 
other 467 tribes that I haven't actually spoken to are the ones 
who agreed. Because the 300 that I have talked to absolutely 
did not.
    This reorganization redraws the boundaries of departmental 
regions across the country. So, I think it is reasonable to 
conclude that it impacts their governance, and it doesn't sound 
like they have a strong voice to shape this policy, at least 
not from my vantage point.
    I can confidently tell you that no tribal leader that I 
have talked to understands what the agency is doing. So, 
perhaps it is a matter of communication that needs to be 
addressed.
    Due to this lack of clarity surrounding the details of the 
reorganization, and because you lead the Federal agency with 
the most responsibility to Indian Country, I would like to meet 
with you and your staff to discuss this issue to find some 
clarity for tribes. And I hope that you will----
    Secretary Bernhardt. That would be great.
    Ms. Haaland. Thank you very much. Thank you.
    In your role as Secretary, you were charged to uphold the 
Department's trust responsibility to foster a government-to-
government relationship with tribes for this Administration. As 
lead of the Federal agency with the most responsibility to 
Indian Country, what is your responsibility to carry out this 
duty when the head of the executive branch of government says--
and I quote--and it seems like a day for tweets, so this is a 
tweet sent out by the President: ``If Elizabeth Warren, often 
referred to by me as Pocahontas, did this commercial from 
Bighorn or Wounded Knee, instead of her kitchen with her 
husband, dressed in full Indian garb, it would have been a 
smash''?
    So, essentially, I am curious as to what your duty is when 
the head of your Department seeks to not only alienate tribes, 
but essentially discount our history, make mockery of mass 
graves in our country. Because we know that this country is 
founded on genocide of Indians.
    What is your duty with respect to all of that?
    Secretary Bernhardt. I have a great regard for the culture 
and history of Native Americans and Alaskans throughout our 
country. I applaud their service in our services. And I have 
spent many years working on issues with Indian Country in 
various capacities. And even during my Senate confirmation, 
tribes submitted letters of support. I will carry out my duties 
faithfully.
    Ms. Haaland. Thank you. It looks as though I am out of time 
and I yield back, Chairman.
    The Chairman. Mr. Gosar.
    Dr. Gosar. Thank you, Mr. Chairman. First of all, I would 
like to commend Mr. Secretary for doing a wonderful job.
    During your tenure at DOI, you have worked diligently to 
increase hunting and fishing access to ensure clean water for 
future generations, and to empower local decision makers. That 
is a remarkable accomplishment so far.
    I have often told people I wish other agencies were running 
as smoothly as yours. Now, just imagine what we could have 
gotten done if my colleagues on the other side would have 
cooperated, instead of degrading?
    I would also like to apologize for what you are being put 
under, instead of looking at the budget.
    Once again, the Democrats on the Committee, as well as my 
other Committee, aren't being transparent about their real 
agenda today. Once again, the Democrats on the Committee failed 
to produce a public hearing notice memo, in violation of their 
own Committee Rules, so the media and the American people know 
what is supposed to occur today.
    Once again, Democrats want to talk about anything other 
than the point of the hearing, which is supposed to be about 
the excellent budget that you have proposed. I have always 
said, and I have been very consistent about this, whether it 
has been this Administration--my side of the aisle, their side 
of the aisle--good process builds good policy, builds good 
politics. It is that simple.
    This hearing should really be called the ``See How We Can 
Tear Down a Good Man.'' With that, I start my questions.
    Myself and numerous members of the Committee support the 
Administration's proposed reorganization in moving some 
operations out West. I have an appropriations submission letter 
here, signed by 16 Members, my colleagues, that supports the 
DOI's reorganization.
    Mr. Chairman, I ask permission for this to be submitted to 
the record.
    The Chairman. With no objection.
    Dr. Gosar. The only thing I would actually say is that, 
with the reorganization of Arizona with California, let's make 
the center Arizona. Make California come to Arizona. That would 
be a nice--maybe even Prescott.
    Mr. Secretary, government closest to the people works best. 
Can you quickly elaborate and why the Department's organization 
is so important?
    Secretary Bernhardt. I think the restructuring of the 
regional boundaries was a very significant thing because it 
will facilitate the Department's senior executive service level 
regional managers, collaborating and working together in a much 
more coordinated fashion.
    I think the fact that we had 49 different regional 
parameters for folks made the senior executives working 
together a little less jointed. And I really fundamentally 
believe that we have great senior managers. And with them 
working together with kind of a collective understanding of 
priorities, we will really minimize cross-jurisdictional 
conflict. And the folks that deal with Interior, when they come 
in, the last thing they need is one agency wanting to go one 
way and one agency wanting to go the other, and no one really 
understanding where things are going to go. So, I think the 
reorganization will really help with that, from a boundary 
adjustment.
    I do believe, fundamentally, that moving some more of our 
folks West has a very big benefit.
    First off, I think it is great for them, for how far a 
dollar goes in the West, versus how far a dollar goes here.
    Second, I think it will save us substantial time and money, 
in terms of travel costs. It will also save us substantial time 
and money in terms of real estate costs.
    And, more importantly, in my opinion, having them near the 
lands that they manage has a meaningful benefit. If you are 
able to see what is going on, and have a sense of it, I think 
that that overall is a good perspective.
    And this isn't a new thought. In 1936, in the hearing where 
the Secretary was begging for the creation of a Deputy 
Secretary, the Committee said, ``Well, we will think about 
giving you an Undersecretary,'' which is what they called the 
Deputy at that time, ``but we want to know whether you guys are 
going to spend over half of your time in the West.''
    So, there needs to be a core component here in DC, but 
there is no reason why folks can't be moved West.
    I am excited about both of those things occurring. I am 
excited about us implementing the regional boundaries that have 
been delineated in a way that creates kind of a one decision at 
Interior. And I am interested in the transfer of authority to 
the West.
    Dr. Gosar. I thank the gentleman. And for a letter in 
support of that forestry package, I ask for submission.
    The Chairman. Without objection, so ordered.
    Dr. Gosar. By the way, a real quick question. Are more of 
your holdings in the East or in the West for the Department?
    Secretary Bernhardt. Oh, far, far more in the West.
    Dr. Gosar. It makes more sense. Thank you.
    The Chairman. Thank you.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. Mr. Secretary, thank 
you for meeting with me a couple weeks ago, where we discussed 
several of the issues. And most important to me was the 
proposed budget, the overall WaterSMART project cut by 30 
percent, Title 16 by 95 percent.
    As you are well aware, the West is facing a lot of drought, 
still not over in California. But while these cuts impact farms 
and cities in vulnerable communities, there are 464 million 
authorized projects and 513 backlog for eligible recycling 
projects. How can the Administration justify?
    I am asking for $500 million to be able to help the West 
prepare for drought.
    Then the Title 16 program limits Federal funding of a 
project to 20 percent. The program is then aligned with the 
2018 Trump infrastructure plan, as it incentivizes overwhelming 
state and local participation. But why is the Administration 
infrastructure plan advocating for expanding Federal incentive 
program, while drastically cutting incentive programs of Title 
16?
    Secretary Bernhardt. I couldn't hear the question, and I 
apologize for that.
    Mrs. Napolitano. Well, why is the Administration cutting 95 
percent of my budget on Title 16, when we know we have a 
problem?
    Secretary Bernhardt. We have to make tough choices with the 
budget. And we certainly recognize there is a value to Title 16 
funding.
    I think the Reclamation was primarily focused on its 
operational side of the house, and so they did make some tough 
choices.
    Mrs. Napolitano. Well, it is surprising that they don't 
understand these are also economic choices. And I would like to 
be sure that we voice a very strong opposition to the budget 
cuts.
    I yield the further of my time to Mr. Huffman.
    Secretary Bernhardt. I think they are doing energy and 
water today, so----
    Mr. Huffman. I thank the gentlelady for yielding.
    Mr. Secretary, have you directed the re-initiation of 
consultation for CVP operations to include old and middle river 
storm flexibility provisions, like those in the WIIN Act?
    Secretary Bernhardt. I am not sure that is part of the 
long-term operations or not. I honestly would have to go back 
and look.
    Mr. Huffman. All right.
    Secretary Bernhardt. Honestly, I am happy to answer it, I 
just don't----
    Mr. Huffman. Well, please do provide us with whatever you 
have on any direction you have given in that regard. And I am 
hearing you commit to do that, is that correct?
    Secretary Bernhardt. I certainly will get back to you with 
an answer----
    Mr. Huffman. Thank you. Mr. Secretary, there was some 
unusual accounting that the IG criticized, where the Federal 
Government picked up the tab for studies that benefited the 
Westlands Water District, cost Federal taxpayers improperly, 
and the GAO is now investigating this accounting scheme. I am 
sure you are familiar with it.
    Chairman Grijalva and I wrote to you a couple of months 
ago, because we were told you were not providing information 
that GAO requested. Can you commit to directing Interior staff 
to cooperate with the GAO on this matter that would appear to 
redound to the benefit of your former client?
    Secretary Bernhardt. Well----
    Mr. Huffman. That is a yes or no. Will you commit to----
    Secretary Bernhardt. Actually, Congressman, it is not a yes 
or no. I will check with ethics, and I will decide if I can 
make that direction, give that direction or not.
    Mr. Huffman. All right, very good.
    Secretary Bernhardt. I honestly don't know----
    Mr. Huffman. Mr. Secretary, I wish I had more time to go 
into your calendars. We know your public calendars are either 
missing information about meetings, or they refer generically 
to internal meetings or briefings where, when we piece the 
details together from e-mails we receive, we see they actually 
involved parties and subjects that directly implicate former 
clients of yours, some----
    Secretary Bernhardt. I don't think that is accurate at all.
    Mr. Huffman. It is absolutely accurate. But here is the 
point. I want to give you a chance in the remaining time we 
have to assure the American people that you are not just doing 
the bidding of your former clients.
    So, give us some examples where one of your former clients 
from the oil and gas industry, or Westlands, or another former 
client has asked for something specific and you have had to say 
no, because it just wasn't in the public interest. This is your 
chance to show the public that you are not just doing the 
bidding of your former clients. You have the balance of my 
time.
    Secretary Bernhardt. Let me be very, very clear. My former 
clients aren't meeting with me. I haven't met with my former 
clients, except potentially in a very large group----
    Mr. Huffman. Can you give us any examples where you have 
said no----
    Secretary Bernhardt. We have said no significantly to 
requests from energy entities, we have said no to----
    Mr. Huffman. Specific examples?
    Secretary Bernhardt [continuing]. Requests for water 
allocations. We have said no to numerous, numerous----
    Mr. Huffman. Water allocations are formula-driven. I would 
like to know a specific policy request of a former client where 
you said no because it wasn't in the public interest. And I am 
not hearing any examples.
    Secretary Bernhardt. That is completely inflammatory and 
wrong.
    Mr. Huffman. It is a pretty important subject.
    Secretary Bernhardt. Significant requests were made in the 
well control rule. There are numerous places where we didn't 
agree with the industry's recommendation.
    Mr. Huffman. Thank you, Mr. Chairman.
    [Pause.]
    Mr. Huffman [presiding]. In the absence of the Chairman, I 
am told that I should recognize Mr. Gohmert for the next round 
of questioning.
    Mr. Gohmert. Well, thank you, Mr. Acting Chairman.
    [Laughter.]
    Mr. Gohmert. Secretary, you reacted with respect to the 
characterization of your calendar. Is there something else you 
would like to say about your calendar?
    Secretary Bernhardt. Yes. The reality is, if you go on to 
our DOI website, you can see every single pocket card I have 
ever had, you can see my calendar, you can see my private 
calendar. It is all available.
    And on top of that, since I have been--at least for the 
last several months I have published every single meeting I 
have had with an external third party. So, those are published 
on a regular basis, separately. You can see my calendar, you 
can see my pocket cards, you can request my briefing book, you 
can request the meeting requests that people send.
    You have 26,000 pages of material related to my calendar in 
this Committee.
    Mr. Gohmert. Thank you. And I know you didn't start out 2 
years ago in the position you are currently acting, but 
experiences I have had here in Washington, different groups 
that got permits for the mall and other areas, let me just tell 
you. If it is a Christian group, they have met with a great 
deal of hostility, last-minute changes, charges anywhere from 
$10,000 to $50,000 at the last moment.
    And on one occasion it was a huge crowd, probably 200,000 
or so, the last minute--well, they made them put fencing around 
that area of the mall. They, at the last minute, restricted 
them to one entrance, which meant people were going to stand in 
a line in the summer for hours. So, the Park Service 
officials--and I spent a great deal of time talking to them, 
and in the command module--the people I was dealing with had 
not made the decisions, but it was clear to me that there was a 
great deal of harassment in setting up events for failure, 
actions by the officials of the National Park Service which 
caused heat frustration that didn't need to be, forced them to 
line up in areas where there was no shade.
    Anyway, I just alert you to that, and ask you to keep a 
watch on it. I know you have already had discussions about--and 
we do appreciate that you didn't spend government money to shut 
down open-air, or public sidewalks, like World War II. I was 
brokenhearted for the people at Martin Luther King Memorial. I 
mean that is a really moving memorial, the way his statue is 
there, coming out of the rock. And yet people were around the 
barricades wondering--this is our trip, and the Park Service 
decided to make it difficult.
    On one good note, though, after I cut the tape and moved 
the barricade at the World War II Memorial--got the help of 
Steve Palazzo--and we got the veterans in there--because they 
weren't supposed to spend money to close a facility that didn't 
cost anything to keep open--three of us decided to go check the 
Iwo Jima Memorial. That is under the Park Service, isn't it?
    Secretary Bernhardt. Yes.
    Mr. Gohmert. And when we got up there, sure enough there 
had been a barricade put up there, but there were, like, three 
buses up at the memorial. One of them had a bus of mainly 
people that fought at Iwo Jima. And when I went up there, I 
said, ``I was impressed, you guys just ran over the 
barricade,'' and these elderly gentlemen said, ``We told the 
bus driver we didn't let the enemy keep us from the top of 
Suribachi, and we weren't going to let some little wooden stick 
keep us from getting up here to our memorial.''
    So, there are people out there that appreciate that you 
keep those things accessible.
    But one of my big concerns--there are stories here, 4,000 
percent up for illegal immigration arrests on Federal property. 
And I know Brian Terry was killed on Organ Pipe Park. Are you 
able to do anything? I know your budget is limited, but at 
least you have a budget, unlike Congress. So, what are you able 
to do with what you have?
    Secretary Bernhardt. So, this week is Police Week, and one 
of the things that we do during Police Week is we have a 
memorial service for fallen officers of the Department of the 
Interior. And yesterday, one of the parents that I met with, 
their son was killed down on the boundary. He was a park 
ranger. He was killed in 2002. And their request to me was to 
make sure that we do not for a minute let up on our investment 
in training, survival training, and preparing the folks that we 
put down there.
    And I think that that is--we certainly will not let up, but 
that is a real thing, that when we put people down there, we 
have to make sure they are well trained.
    Mr. Gohmert. Thank you, Secretary. And it was Chris Eagle.
    Secretary Bernhardt. Yes, that was Chris Eagle. That is 
right.
    Mr. Gohmert. OK, thank you, Mr. Secretary.
    Mr. Huffman. I thank the gentleman. The Chair now 
recognizes Mr. Brown for 5 minutes.
    Mr. Brown. Thank you, Mr. Chairman. And Mr. Secretary, 
thank you for being here today, and your testimony.
    The National Park Service owns and maintains a number of 
parkways that are part of the National Register of Historic 
Places, four of them in the National Capital Region. You are 
probably familiar with Rock Creek and Potomac Parkway, George 
Washington Memorial Parkway. There are two in my district. One 
is Suitland Parkway and the other is the Baltimore-Washington 
Parkway. Many of them--and certainly the B-W Parkway--serves as 
a very important regional artery, 120,000 commuters a day--many 
from my district, others from around the region--rely on it to 
commute back and forth to work, school, et cetera.
    Unfortunately, years of the Department's neglect has made 
the B-W Parkway one of the most dangerous and congested 
parkways in the region. In fact, according to the Volpe Center 
at the U.S. Department of Transportation, no capacity 
improvements have been made to the B-W Parkway since its 
construction in 1954.
    At the beginning of March of this year, in lieu of a 
meaningful maintenance work and rehabilitation, the National 
Park Service simply lowered the speed limit by 15 miles per 
hour, which doesn't address the maintenance issues, but 
certainly raises the aggravation level for commuters. And only 
after sustained pressure from the Maryland congressional 
delegation did some patchwork maintenance get done, about 60 
tons of asphalt.
    So, my question, Mr. Secretary, does the Park Service have 
sufficient funds to maintain the B-W Parkway and the other 
parkways on this National Register of Historic Places?
    Secretary Bernhardt. Well, I think if you look at our 
maintenance backlog budget, almost half of it is road 
maintenance. And we have challenges on the B-W Parkway, and we 
have challenges on Suitland.
    I mean, to be very honest, those areas have been, that 
maintenance has been deferred a very long time, and it 
creates----
    Mr. Brown. Do you know whether it is in the President's 
budget to increase funding for those parkways?
    Secretary Bernhardt. Well, I think we are trying to work on 
that through the infrastructure--we have an infrastructure 
improvement plan as part of our budget to deal with that. That 
was the way we tried to deal with that.
    Mr. Brown. And let me just suggest this. I don't think it 
is a question of ownership. I know there have been 
conversations with the governor of Maryland whether to convey 
that to the state of Maryland. I don't think it is a question 
of ownership. I think it is a question of whoever does own it 
should fulfill the responsibility to maintain it, particularly 
in a safe condition.
    And I would suggest that if ownership transfer is 
contemplated, then certainly address issues like the impact on 
the environment, whether tolling that road makes sense for 
commuters on that roadway. And I would hope that the National 
Park Service retain that property.
    Secretary Bernhardt. I would think that it would largely 
have to come back to your Committee here.
    Mr. Brown. Yes.
    Secretary Bernhardt. So, you would get to weigh in on all 
those things.
    Mr. Brown. Well, let me ask you, though, what are your 
thoughts about transferring these difficult and expensive 
parkways?
    Secretary Bernhardt. We generally take the position, as in 
restoration, that we are not terribly interested in 
transferring public lands out of the public estate. So, that 
would be a big discussion for us.
    Mr. Brown. And as you probably also know, Oxon Cove, 400-
plus-acre land in the shadows of the Nation's Capital in 
Maryland, in my district, your predecessor had signed an MOU 
with Governor Hogan to transfer that.
    Secretary Bernhardt. I think they are looking at 
exploring--I think it is more of, like, a letter of intent, 
looking at exploring different ideas.
    Mr. Brown. And now that you are the Secretary, and given 
what you just said, would that be your intent----
    Secretary Bernhardt. I would have to look at it and make a 
decision. I would have to get back to you on that.
    Mr. Brown. Since your predecessor left, has your office had 
conversations with Governor Hogan's team?
    Secretary Bernhardt. Not to my knowledge, but----
    Mr. Brown. OK. And again, I would suggest there are very 
few acres. I envy my colleagues in this Committee that talk 
about tens of thousands of acres of undeveloped land that is 
used for the public use and enjoyment. We don't have a whole 
lot in Maryland, but we do have about 400, 500 at Oxon Cove. It 
is the home to bald eagles, there are a lot of environmentally 
sensitive areas.
    So, I would hope that your comment here today, that you are 
not a fan--and I am paraphrasing--of transferring public lands 
for private-sector development--I just added that piece--I hope 
that holds true for Oxon Cove, as well.
    I yield back, Mr. Chairman.
    The Chairman [presiding]. Thank you very much.
    A stop-certain time of 1:30 p.m., if I am not mistaken, Mr. 
Secretary?
    Secretary Bernhardt. Whatever we agreed to.
    The Chairman. OK. And votes are going to be called at 1:15 
p.m. So, my urgentness to get to the questions, and we will go 
from there and try to make sure that everybody that is present 
has an opportunity to ask.
    Mr. San Nicolas.
    Mr. San Nicolas. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary. Thank you so much for being 
here with us. And thank you also for making time to visit me in 
my office and have a dialogue about some of the concerns we are 
facing on Guam. I thought it was very constructive, and I think 
that we shared some good ideas. I wanted to speak specifically 
about a budgetary concern that I think is something that 
relates to the conversation that we had when you met with me in 
my office, and this is in respect to the compacts of free 
association, and more specifically the compact-impact funding 
that is provided as a result of the compact of free 
association.
    Recently, the Department of the Interior published the 
recent counts of compact migrants, and I am going to reference 
those numbers with respect to Guam's count and with respect to 
Hawaii's counts. And I am going to reference the amount 
provided relative to those counts, and have a discussion about 
how those figures correlate. But more specifically, how there 
are certain elements that I think are not being properly 
accounted for.
    On Guam, the most recent count of compact migrants was 
about 18,874, based on the report. The funding levels that were 
provided as a result of the compact impact was $16,835,958, for 
an average per-migrant amount of $892 per migrant.
    For Hawaii, the compact migrant count was 16,680. The 
dollar figure provided was $14,880,034, and that was also for 
an average migrant amount of $892.
    Guam and Hawaii are both receiving the same amount of 
compact impact in order to assist the local governments in 
handling the costs associated with hosting compact migrants as 
a result of the treaty--the Compact of Free Association.
    However, there is one very distinct difference between 
Hawaii and Guam with respect to compact migrant costs, and that 
is the earned income tax credit. The earned income tax credit 
in Hawaii is actually funded by the U.S. Treasury. So, any 
compact migrant who qualifies for the earned income tax credit 
in their income tax filing, that is actually money that comes 
into Hawaii from the U.S. Treasury.
    On Guam, Guam has been absorbing their earned income tax 
credit liability since 2008. So, any migrant worker as a result 
of the treaty that is receiving the earned income tax credit is 
actually drawing those funds down from the Guam coffers.
    So, the $892 that is provided per migrant for Guam and for 
Hawaii, I am assuming, is formulaically based, as determined by 
the Department. But if that formula is also factoring in the 
economic contribution of the migrant worker, then the earned 
income tax credit liability of those migrant workers also needs 
to be factored in. And I don't think that that is something 
that this government has really paid attention to.
    When I brought this issue to the attention of your 
colleague, Mr. Mnuchin, during some questions I was asking him 
in my role in the Financial Services Committee, he was also 
taken by surprise with respect to that.
    So, the question that I have for you, Mr. Secretary, is are 
you aware of whether or not the earned income tax credit 
liabilities are being factored into the formula for the 
determination of compact impact?
    Secretary Bernhardt. You raised this issue with me last 
week, or the week before. And I don't have a good answer for 
you. But I am more than willing to either figure out if it 
should appropriately be factored in, or if we need to work with 
Treasury on it.
    I don't want to get into a question about the allocation of 
funds between two representatives, but it seems like an anomaly 
that maybe has just not been thought of.
    Mr. San Nicolas. Right.
    Secretary Bernhardt. But we will look into it and get to 
the bottom of that.
    Mr. San Nicolas. Thank you, Mr. Secretary. Formula 
notwithstanding, I think that my colleague from Hawaii will 
also agree with me that those formulas need to be reconsidered. 
Even just the cost of educating an individual, at least in my 
district, is $6,500 per pupil, and the $892 per migrant is just 
very grossly insufficient.
    As a matter of fact, based on a per capita basis, 18,874 
migrants represents over 10 percent of the population of Guam, 
and yet the compact impact that is provided is less than 2 
percent. So, there is a gross disparity with respect to that, 
and I think those formulas need to be revisited.
    But formulas notwithstanding, I would like to specifically 
request for your assistance in setting up meetings with 
Secretary Mnuchin, so that we can get to the bottom of this 
EITC question, because it is a serious liability for the people 
of Guam, and we really need to resolve that.
    Secretary Bernhardt. Well, I will promise that we will work 
with you and work with Treasury. I can't promise that we will 
get the Secretary of the Treasury, but we will get somebody.
    Mr. San Nicolas. All right.
    Secretary Bernhardt. That is a commitment I will make you.
    Mr. San Nicolas. Thank you, Mr. Secretary.
    I yield back.
    The Chairman. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman, for acknowledging my 
existence.
    Mr. Bernhardt, thank you for being here, and I appreciate 
your testimony. I apologize, I was in another hearing and I 
missed some of the opening here. But you may be surprised I am 
actually going to heap on to what Mr. Huffman has largely been 
doing for this whole hearing. I am also very frustrated by the 
lack of responsiveness from the Department of the Interior.
    I have contacted the Secretary. I asked directly for our 
office to be provided the analysis from the Government 
Performance Results Modernization Act in regard to offshore 
energy revenue sharing so we can restore our coasts and our 
wetlands in Louisiana. Because in the budget justification 
documents it explicitly said that that was why those funds were 
cut or rescinded. I asked for that, got nothing back. I asked 
for a phone call, I got nothing back. I asked for a meeting 
with the Director of BSEE. The entire Louisiana delegation 
asked for a meeting with the Director of BSEE, and we got 
nothing back. Nothing. And it is really frustrating, because it 
is very difficult for us to do our job when that happens.
    Oh, but wait, let me make note that all happened during the 
Obama administration. Those requests were made nearly 4 years 
ago, or 4 years ago for the Government Performance Results 
Modernization Act. We still got nothing back.
    Mr. Secretary and everybody here, everybody knows what this 
is. This is the silliness that goes on with the parties, where 
people make unreasonable requests and then they bang desks and 
gavels and other things when they don't get answers back.
    Except for in our case, I actually think we asked for 
pretty reasonable stuff. They specifically cited in budget 
justification documents why they were cutting a program that 
they had rated--they supposedly had rated it--r-a-t-e-d--rated 
it, and found that it had poor outcomes. The only problem is 
that the program hadn't actually started yet, so I am not real 
sure what they were rating. And I think that is why we never 
got anything back.
    In regard to Director Salerno, we asked for a meeting to 
talk about the well control rule. He refused to have a meeting, 
he refused to meet with the entire delegation. It was 
ridiculous, the lack of accessibility.
    Let me ask you a question about the well control rule. 
Being from the state that represents more offshore energy 
production than any other state--in fact, more than all of the 
other states combined--and in my old job of helping to restore 
our coasts and sustain our wetlands, I care very much about 
that. Let me ask you a question.
    In regard to the revisions for a well control rule, is 
there a single change in there that is now out of compliance 
with the recommendations that were made by the various 
independent boards that informed the changes?
    Secretary Bernhardt. Not a single one.
    Mr. Graves. Thank you. Mr. Secretary, let me ask you 
another question. Variances or alternative compliance is an 
issue that has come up here, meaning a company requesting 
alternative compliance with the regulations. Has this 
Administration or has the previous administration granted more 
variances or alternative compliance? Are you aware of those 
numbers?
    Secretary Bernhardt. It is my understanding that the 
numbers--that the prior administration was actually higher.
    Mr. Graves. I believe that is my understanding, as well. 
Thank you.
    In regard to the number of seismic testing in the offshore, 
do you know if it is this Administration or the Obama 
administration that granted more permits or approvals to do the 
3D seismic?
    Secretary Bernhardt. I suspect it is the prior 
administration.
    Mr. Graves. And I believe that, based on my evaluation, it 
was, as well.
    Mr. Secretary, I am not sure if you are aware, there was an 
Inspector General report from the Department of the Interior 
that found that an Interior official had effectively awarded 
about $325,000 to a wildlife program that a family member was 
the independent contractor on that program. Really, really 
looks awful, and that type of behavior cannot be tolerated.
    Are you aware of anyone on the other side of the aisle that 
has expressed concern to you about that?
    Secretary Bernhardt. Not with that specific issue, no.
    Mr. Graves. And that happened during this Administration or 
the previous one?
    Secretary Bernhardt. Both. We have things happening every 
day. We had a----
    Mr. Graves. This one specifically in the Inspector General 
report was----
    Secretary Bernhardt. The prior administration.
    Mr. Graves.  An Obama administration official, yes.
    So, Mr. Secretary, I am just making note of the silliness 
of what happens in this Committee sometimes.
    The last thing is, sitting behind you--I am sure no one has 
noticed yet, but there is actually someone wearing a mask. 
Actually, there are a couple of you. Hey, look at that. 
Welcome.
    It is ironic, because they are saying fund LWCF, Land and 
Water Conservation Fund, when the reality is you are swamp 
creatures and the Land and Water Conservation Fund can't be 
used for swamps. We have actually been working to restore our 
swamps in Louisiana, because that is where the money comes 
from. Every penny of it comes from the coast of Louisiana and 
the other producing states, but we are prohibited from using it 
for that purpose. So, there is some irony in the friends back 
there behind you. But thank you all very much for being here.
    Mr. Secretary, thank you for your testimony.
    The Chairman. Just for the record, I think----
    Mr. Graves. They are not swamps?
    The Chairman. I think you guys are speaking about two 
entirely different swamps.
    [Laughter.]
    The Chairman. Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Secretary Bernhardt, I would like to discuss some recent 
decisions the Interior made regarding dangerous pesticides, 
including Chlorpyrifos. The Fish and Wildlife Service has been 
working on a risk assessment of Chlorpyrifos, along with other 
toxic pesticides and their adverse impacts on endangered 
species for several years.
    Before your appointment, this Biological Opinion was nearly 
completed, and would have been released for public comment in 
2017. According to Interior Department documents, however, you 
personally convened a series of meetings that changed the 
opinion. The New York Times reported that, as a result of your 
intervention, the opinion will be delayed for 2 years, and will 
use a new standard that benefits the chemical industry.
    So, I have three questions, sir. Were you aware of industry 
opposition to the release of the Biological Opinion when you 
made your decision?
    Secretary Bernhardt. The industry views did not factor in 
at all to the decision I made. The decision I made is I read 
the document and I said who started----
    Ms. Velazquez. No, just tell me, answer my question. Did 
you or your staff discuss your decision with anyone in the 
White House?
    Secretary Bernhardt. I don't recall doing that.
    Ms. Velazquez. You don't recall.
    Will you release the draft Biological Opinions that the 
Committee has requested?
    Secretary Bernhardt. We will work with the Committee to see 
what kind of reasonable accommodation we can find.
    Ms. Velazquez. So, you are open to release?
    Secretary Bernhardt. Well, deliberative documents, there is 
a long history between these Committees and deliberative 
documents.
    Ms. Velazquez. So, sir, do you understand how cynical 
people are about decisions made under your leadership, given 
your previous lobbying work for Dow, the maker of these 
pesticides, and who opposed the ban that Interior reversed?
    Secretary Bernhardt. I never represented Dow in any way, 
shape, or form.
    Ms. Velazquez. You didn't? I guess the New York Times and 
other people are wrong.
    But also there is this cynicism because President Trump 
received a $1 million contribution from Dow Agriscience, a 
company that opposed this pesticide, that was against the ban.
    Secretary Bernhardt. Well, I can assure you that I read the 
documents and no one else did.
    Ms. Velazquez. There is a lot of skepticism and cynicism 
regarding decisions that are made because of your lobbying 
work, so I encourage you to release the documents so the 
Committee can fulfill our constitutional responsibility of 
determining whether or not it was a rational decision that was 
made without any type of motivation.
    Mr. Bernhardt, in August 2018, the Trump administration 
reversed a 2014 ban on the use of neonicotinoids on national 
wildlife refuges. This decision contradicts scientific research 
that has linked this class of pesticides to harmful effects on 
migratory birds, bees, and other pollinators. Over the duration 
of your tenure at the Interior, your agency has consistently 
made decision after decision that benefits your former clients, 
while showing little to no transparency.
    Is it realistic for the American people to believe the 
decisions you make in the dark with no oversight--because you 
are not providing the information and the documents that we are 
requesting--that benefits corporations you previously worked 
for is coincidental?
    Secretary Bernhardt. I think we have provided 66,000 pages.
    Ms. Velazquez. Well, we saw the kind of documents that you 
provided. Some were duplicates, and other papers didn't have 
any type of information.
    I just would like to share with you that I introduced 
legislation to ban Chlorpyrifos. It is H.R. 230. It has 105 co-
sponsors, more than 10 committee chairmen are supporting my 
legislation, and over 130 organizations nationwide are in 
support of such legislation.
    And, by the way, next week I will be introducing 
legislation to reinstate this ban on neonicotinoid pesticides 
on national wildlife refuges. And I am pleased that Chairman 
Grijalva and Subcommittee Chairman Huffman are co-sponsors of 
my bill. It will be a bipartisan bill, because Republican 
Member Radewagen is in support of such legislation. We have 
seen actions in New York, Hawaii, and California State 
Legislatures to reinstate the ban in those states. I guess that 
they know something that you don't, in terms of how harmful it 
is.
    The Chairman. Thank you.
    Mr. Van Drew.
    Mr. Van Drew. Thank you, Mr. Chairman. And Mr. Secretary, 
welcome to our hearing. I know we kept trying to get together, 
and you had a meeting and then I had a meeting, but I would 
still look forward to doing that, and having a good 
conversation with you.
    Secretary Bernhardt. That would be great.
    Mr. Van Drew.  And I appreciate you being here today.
    Let me just say I represent southern New Jersey, and 
specifically the 2nd Congressional District. It encompasses 
more than----
    Secretary Bernhardt. Do you have Cape May?
    Mr. Van Drew. Yes, I do.
    Secretary Bernhardt. I love Cape May.
    Mr. Van Drew. Cape May is a beautiful place. I spend a good 
amount of my time here trying to convince people to go there. 
People have a preconceived notion of New Jersey, and I don't 
think they have any idea what it really is about. It is a 
beautiful, beautiful area. And I am glad you have been there. 
It encompasses my district, because it is rural and shore--40 
percent of the state, more than 60 percent, actually, of 
coastline. And I am going to keep my questions focused on one 
topic, which is the Coastal Barrier Resource Act, also known as 
COBRA.
    And before I begin I just want to ask unanimous consent to 
enter a letter that I wrote to the Fish and Wildlife Service 
Acting Director into the record.
    The Chairman. So ordered.
    Mr. Van Drew. OK. Thank you, Chairman.
    I also want to note--and maybe you could just check up on 
that--that I haven't received a response yet, and that was 
about 2 months ago. So, maybe it got lost. If you could, look. 
And it was purely based on a factual issue that we are really 
having in Stone Harbor, North Wildwood, in that area.
    Secretary Bernhardt. We will find out.
    Mr. Van Drew. Thank you very much.
    As you know, COBRA was enacted in the early 1980s to 
prohibit Federal financial assistance for development on 
coastal barriers. The goals of COBRA are to minimize the loss 
of life and property, reduce wasteful expenditures, and protect 
our natural resources. And I think we all agree that these are 
worthy goals.
    In my district, we have a flood and coastal storm damage 
reduction project that was authorized by the Water Resources 
Development Act of 1999, called Townsend's Inlet to Cape May 
Inlet Shore Protection Project, which includes beach 
nourishment and the boroughs Avalon and Stone Harbor in Cape 
May County. And the project known as the Stone Harbor Project 
has used sand from a Hereford Inlet borrow area south of Stone 
Harbor that falls inside Coastal Barrier Resources System unit 
number New Jersey 9. And if you want any of this information 
again, we----
    Secretary Bernhardt. I think I had better----
    Mr. Van Drew. We will certainly--I know, it is very 
technical.
    On three separate occasions, because of an exception, it 
was granted from Fish and Wildlife, so we were able to borrow 
from that area, use that sand for beach replenishment.
    In 2016, however, the Service, under the previous 
administration--this, again, was the previous administration--
inexplicably reversed this exception and concluded that sand 
from Hereford Inlet could no longer be used for beach 
nourishment at Stone Harbor.
    The Service's objection to the use of the Hereford Inlet 
borrow site resulted in the sediment being taken from a more 
remote inlet called Townsend's Inlet, and transported at an 
additional price tag of $6.5 million, which the municipalities 
had to bear.
    Sediment surveys have all shown that there is simply not 
enough sand from Townsend's Inlet to nourish both the Avalon 
and the Stone Harbor portions of the project. In a perverse 
way, COBRA has the potential to have the opposite effect of its 
goal in this case.
    Secretary, do you agree that Fish and Wildlife granted an 
exception for the Stone Harbor project to use the Hereford 
Inlet borrow area with unit New Jersey No. 9 for beach 
nourishment outside of the unit?
    The answer is yes. You know.
    Secretary Bernhardt. I honestly don't know.
    Mr. Van Drew. OK. I know. This is technical, but they have. 
And it is a very big, important issue down by us. COBRA 
prohibits all Federal expenditures on units of the coastal 
barrier resource system, except for a few clearly defined 
exceptions, which are found in section 6 of the statute.
    I have a letter dated December 24, 1996, from the Fish and 
Wildlife Service Regional Director, Ronald Lambertson, to 
Lieutenant Colonel Robert Kaiser of the U.S. Army Corps, which 
states that it is the Service's conclusion that this proposed 
action does constitute an exception under section 6 of COBRA, 
provided that the following conditions are incorporated into 
the project design.
    During the planning phase of this project, the U.S. Army 
Corps coordinated with the Service and received additional 
approval. The project met those conditions. And without this 
project, Stone Harbor Point may not have existed today because 
it was experiencing severe erosion and habitat loss, due to the 
lack of littoral drift, which essentially recycles sand back to 
the unit.
    The Army Corps never placed sand directly on Stone Harbor 
Point. That habitat grew through natural processes of sand 
renourishing Stone Harbor's beach down south through the area.
    I have another letter that I ask unanimous consent to put 
into the record. And that was that last record, Mr. Chairman.
    And I will ask you the previous question. Do you agree that 
Fish and Wildlife Service granted an exception? And when you do 
research you will find that they did.
    So, I guess the whole point of this is that they had 
granted research--I mean an exception in the past to do this. 
We are doing no environmental harm. In fact, it is 
environmental good. But we seem to be hitting a stone because 
Fish and Wildlife Service--we really need your help, and would 
like our office directly to interact with yours, because we are 
causing more harm by what we are doing now.
    Secretary Bernhardt. We will work with you on that. We will 
absolutely work with you on it.
    Mr. Van Drew. Thank you very much.
    The Chairman. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here today and for meeting with our office 
a few weeks ago. Thanks for putting some time aside.
    Secretary Bernhardt. I think we got you some follow-up 
information on that.
    Mr. Cunningham. We got that yesterday. We still have a few 
more questions, though.
    Secretary Bernhardt. Sure.
    Mr. Cunningham. Before I begin, I would like to submit a 
letter for the record, I ask for unanimous consent. This is a 
letter from Governor Henry McMaster essentially stating his 
opposition to seismic airgun blasting and offshore drilling off 
the coast of South Carolina. And I submit that for the record.
    The Chairman. Without objection, so ordered.
    Mr. Cunningham. I assume, Mr. Secretary, that your office 
would take that into consideration when producing the next 
leasing plan, correct?
    Secretary Bernhardt. The letter?
    Mr. Cunningham. The Governor's support of banning offshore 
drilling----
    Secretary Bernhardt. Absolutely. It is a factor.
    Mr. Cunningham. All right. And you all would take into 
consideration local mayors, as well?
    Secretary Bernhardt. We have talked about that, absolutely.
    Mr. Cunningham. OK, that is good to know, then.
    And in late March, a district court found that President 
Trump's attempt to undo offshore drilling protections in the 
Arctic and portions of the Atlantic was illegal.
    And then recently, you put the new 2019 to 2024 leasing 
plan, the one that included the entire Atlantic Coast, on hold.
    Last week, I believe, you said you were weighing your 
options, that you could proceed as if the case was decided 
incorrectly, or as if it didn't exist.
    So, I just want to be clear here today. There is no legal 
impediment to stop your office from developing the leasing 
plan. Correct?
    Secretary Bernhardt. Well, I think there is no legal 
impediment to developing a leasing plan. There is a question 
about what the scope of that particular plan could be, and what 
it could contain when you got to the point of finalization. So, 
that is really the answer.
    Mr. Cunningham. So, there is no legal impediment to 
developing that plan. Is there a political one?
    Secretary Bernhardt. Well, there is not a political one 
from a politics point of view. Where we are with this plan is--
the draft proposed program was developed. It went out for 
public comment, as you know. It got a lot of comment. BOEM had 
been working on it. We have this decision. And my looking at 
the decision is asking the following things: one, does it make 
sense to move forward now, or wait and see how----
    Mr. Cunningham. OK, Mr. Secretary, I apologize, I don't 
mean to interrupt you, but I don't have a lot of time.
    So, my understanding, there is not a legal impediment to 
moving forward right now, that is what you testified to.
    Secretary Bernhardt. Well, there is a legal impediment to 
moving forward in a particular way that leads to a particular 
outcome. There is. I mean the district court has laid out a 
paradigm that I fully suspect the Department of Justice will 
want to challenge. And I will be trying to develop a plan while 
that is going on. And then the court will ultimately rule, and 
then I would have to deal with that. And if I guessed wrong--so 
I am not sure what I am going to do----
    Mr. Cunningham. So, you don't want to have to go back and 
recorrect the leasing plan if the court finds it in violation. 
Is that correct?
    Secretary Bernhardt. I think that that might not be a wise 
use of resources.
    Mr. Cunningham. OK. All right. And you were Solicitor of 
the Department of the Interior at the end of the Bush 
administration, correct?
    Secretary Bernhardt. Correct.
    Mr. Cunningham. And just before leaving office, the 
Department put out a proposed 2010 to 2015 plan that includes 
sales in the eastern Gulf of Mexico, even though that area was 
blocked off by statute. Correct?
    Secretary Bernhardt. That was a proposed plan, a draft 
proposed program.
    Mr. Cunningham. OK, so that was a proposed plan in 
violation of that statute. But in this case it is different, 
correct?
    Secretary Bernhardt. What is different is I have until 2022 
to get a new plan in place. I have some time. So, I am going to 
figure out what I am going to do, and then I will do it.
    Mr. Cunningham. And you have had direct communications with 
the President and the White House about this, whether or not to 
move forward with the leasing plan or wait?
    Secretary Bernhardt. Well, I certainly have informed the 
White House that I am in pause. And I am consulting with the 
Department of Justice.
    Mr. Cunningham. And what has been the President's response 
to that?
    Secretary Bernhardt. Well, I have not been told that I had 
to go in a different direction.
    Mr. Cunningham. OK. And moving to seismic, you mentioned 
when we spoke that there is no connection legally between the 
leasing plan and the seismic airgun blasting.
    Secretary Bernhardt. I think that is right, as a matter of 
law.
    Mr. Cunningham. OK. And your office is still processing 
seismic permits for the Atlantic Ocean right now, correct?
    Secretary Bernhardt. Well, actually, I think BOEM is 
processing----
    Mr. Cunningham. Right.
    Secretary Bernhardt. I think we gave you some documentation 
that shows that I think we have up to nine permits in various 
stages of processing.
    Mr. Cunningham. And while you are saying they are 
independent of each other, I believe your Assistant Secretary, 
Joe Balash, said to an industry gathering, ``I will tell you we 
wouldn't work really hard to get the seismic permits out if it 
was an area that wasn't going to be available.'' So, it sounds 
to me like they are directly involved.
    Secretary Bernhardt. Let me be very clear about that. I 
have a lot of respect for Joe Balash, but this is my decision.
    Mr. Cunningham. All right, so you disagree with him there. 
That is good to know.
    And here is what I am worried about. You have the next step 
of the plan, which has South Carolina and Florida directly in 
its crosshairs. And I think that this Administration and your 
office recognizes it is electoral poison to put those on the 
map before the 2020 election.
    And the court case in the Arctic is a convenient excuse to 
wait until that election passes, but the people of South 
Carolina aren't going to be fooled by this. It is clear you 
have your marching orders. I have mine from the constituents in 
South Carolina, and that is why we have introduced H.R. 1941 to 
ban offshore drilling off the Atlantic and off the Pacific 
Coasts, to make sure there are never any oil spills off our 
coastline. And that is what our intention is to do.
    I would yield back.
    The Chairman. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And welcome, 
Secretary Bernhardt.
    I wanted to ask you off the bat about working with my 
office to maximize the potential for increasing permits for 
renewables on public lands, and seeing how we can facilitate 
more renewable energy projects. Will you work with my office on 
that?
    Secretary Bernhardt. Sure. I think for BLM the last 2 years 
we had 15 applications for renewable projects.
    Mr. Cartwright. I can't hear you.
    Secretary Bernhardt. Yes, sir. I am happy to work with you.
    Mr. Cartwright. All right, good. I was reading the 
newspaper this week and it hit the headlines 2 days ago that 
carbon dioxide levels hit 415 parts per million, which is the 
highest in human history, the highest in 800,000 years. Did you 
happen to see that, Secretary?
    Secretary Bernhardt. I didn't see that particular factor--
--
    Mr. Cartwright. That was on the front page of USA Today. 
And I will ask unanimous consent that the article titled, 
``Carbon Dioxide Levels Hit Landmark at 415 Parts Per Million, 
Highest in Human History,'' be made part of the record.
    The Chairman. So ordered.
    Mr. Cartwright. And that was, of course--there were no 
humans the last time it hit that kind of level. So, my question 
for you is, on a scale--and this is a number question. I am 
looking for a number, Secretary--on a scale of 1 to 10, how 
concerned are you about that?
    Secretary Bernhardt. Well, what I will say is I believe 
that the United States has the No. 1----
    Mr. Cartwright. Ten being the most concerned and one being 
the least concerned, what is your number, Secretary?
    Secretary Bernhardt. I believe the United States is No. 1, 
in terms of decreasing CO<INF>2</INF>----
    Mr. Cartwright. Did you hear me all right, Secretary? I am 
asking you. What is your number of your level of concern about 
that, on a scale of 1 to 10, 10 being the most concerned? What 
is your number for how concerned you are about us hitting 415 
parts per million of carbon dioxide?
    Secretary Bernhardt. I haven't lost any sleep over it.
    Mr. Cartwright. OK, so you are a zero or a one, is that it?
    Well, let me ask you this. One of your clients----
    Secretary Bernhardt. We are No. 1 in terms of reductions 
amongst developing countries in CO<INF>2</INF> emissions.
    Mr. Cartwright. Well, one of your clients used to be the 
Independent Petroleum Association of America. Am I correct in 
that?
    Secretary Bernhardt. They were a client at one time.
    Mr. Cartwright. OK, and one of your clients used to be 
Halliburton Company, which is a very significant player in oil 
and gas, correct?
    Secretary Bernhardt. I have represented Halliburton.
    Mr. Cartwright. Do you know what their level of concern, on 
a scale of 1 to 10, would be about the carbon dioxide levels 
hitting the highest in human history?
    Secretary Bernhardt. I have no idea.
    Mr. Cartwright. No idea? OK. Well, I want to talk about 
coal for a second.
    Secretary Bernhardt, the Administration claims to support 
an all-of-the-above energy strategy, but there really seems to 
be a preference for coal over renewables.
    In southern Nevada, the BLM terminated its resource 
management plan revision, which was supposed to be a way to 
designate more solar leasing areas.
    In Utah, the BLM has yet to hold an auction in a designated 
solar leasing area that was originally planned for September.
    At the national level, the agency dissolved the Renewable 
Energy Coordination Office. As a result, progress on wind and 
solar on public lands has nearly come to a halt. The proposed 
budget for renewable energy at the BLM is essentially flat. But 
despite decreasing demand for coal-fired power generation, you 
are requesting a 66 percent increase in funding for the coal 
program.
    Why is the Administration proposing to spend more of our 
scarce taxpayer resources on an energy source for which demand 
is declining?
    Secretary Bernhardt. Well, I think that when I look at our 
budget and renewable numbers, here is what I see. Right now BLM 
has about 127 renewable projects ongoing. Over the last 2 
years, we have gotten 15 applications. Two of those, two solar 
projects, have been approved. We are using about 122 staff on 
those various projects and applications.
    And in our oil and gas operations we get about 4,000 APDs a 
year. We have 96,000 wells. We have about 850----
    Mr. Cartwright. I don't mean to interrupt you, but on that 
train of thought, we learned in an April 30 hearing held by 
this Committee that investors are reluctant to apply for new 
renewable projects on public lands, due to the lengthy and 
complicated permitting processes.
    The question there is what are you doing to address the 
barriers to siting new renewable projects on public lands? For 
example, what are you doing to facilitate programmatic reviews 
of renewable projects, instead of time-consuming, one-by-one 
permitting currently used?
    Secretary Bernhardt. We have actually reduced our review 
time in DC from, on average, 199 days for BLM projects to 29.
    Mr. Cartwright. I yield back.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member, for this important hearing.
    Mr. Secretary, I want to talk about three areas. I would 
like to get to wildfires. I probably won't have time to.
    But the topic dealing with Central Valley Project water 
allocations, methods of predicting water availability, and 
reasons for the challenges of meeting contractual obligations, 
to the importance of water infrastructure and using all the 
water tools in our water toolbox, to include storage, 
conveyance, conservation, and innovation, and our national 
parks and the deferred maintenance, which is a real problem, I 
think, and all of this in light of climate change and sea level 
rising and a very complex water system in the West, especially 
in California, as you know, between the partnership of the 
state and Federal water projects.
    Let's begin on the water allocations here. We have 176 
percent snowpack this year. I mean it is either feast or 
famine. We have been blessed with a good snowpack and rainfall. 
As a matter of fact, they are even talking about snow this 
weekend in the high country. Yet, while large portions of the 
Federal contractors have 100 percent allocation, the San Luis 
water unit is still stuck at 65 percent.
    In a year like this, if we can't increase--I mean, we 
understand on average or below and all the constraints on the 
system, but with the existing Biological Opinions do you have 
any thoughts on this?
    Secretary Bernhardt. I know that Ernest, Brenda, and Tim 
are working hard on those issues.
    Mr. Costa. So, you think I should focus that question to 
her tomorrow?
    Secretary Bernhardt. Well, actually, it would be a better 
question focused to her. She is the one directly involved.
    Mr. Costa. OK.
    Secretary Bernhardt. I am not.
    Mr. Costa. Let me ask a broader question as it relates to 
storage and infrastructure. You and I have been involved in 
trying to solve water problems in the West and in California, 
particularly, for more years than I care to count. But for me, 
it is 39 years. What do you think is achievable in the next 2 
years?
    I had a good conversation with folks in Sacramento last 
week. You talked about your meeting with the governor. What do 
you think is possible?
    Secretary Bernhardt. So, to be candid, I think we have had 
very, very good conversations with the governor and his team. 
And, at some point, we all have to make measurable progress 
here. Some folks----
    Mr. Costa. And get past the politics of water, and the 
finger-pointing and the blame game, which just frustrates the 
hell out of me.
    Secretary Bernhardt. I know it does. And, look, we are 
prepared to engage with the state. We are prepared to engage 
with you all and move the ball forward.
    And it is not always the case that you have interests line 
up across administrations, and I would like to see if we can 
get something done here.
    Mr. Costa. Well, I want to urge you to continue to work 
with the folks in California, because I think there are efforts 
that Senator Feinstein and I and others have been engaged in. I 
think there are bipartisan opportunities here, if we get past 
the politics and the finger-pointing, and trying to paint 
people as villains.
    Whether it be the San Joaquin Valley and agriculture, or 
whether it be environmentalists, the fact of the matter is the 
climate is changing, sea levels are rising, and we have to 
determine how much agricultural land we want to keep in 
production in California, and how much we can deal with species 
that are being threatened from numerous sources. And that is 
the reality.
    Let's shift over--my time is quickly going.
    National parks, deferred maintenance. How, realistically, 
are we going to provide--not just Yosemite and Kings Canyon, 
but throughout the country?
    Secretary Bernhardt. Well, our view, really, is to work 
with you all, collectively, to get behind some sort of 
maintenance backlog infrastructure fund. And we have proposed a 
proposal. We would like to work with you on that, or something 
like that.
    Mr. Costa. What do you think the primary source of funding 
mechanism should be?
    Secretary Bernhardt. Our proposal is based on energy 
revenue, not only oil and gas revenue, but alternative energy 
revenue and its prospective growth.
    There are probably a variety of ways to do it, but the 
reality is if we don't get something done--the maintenance 
backlog today is much worse than it was when we thought it was 
out of control when I left Interior the first time.
    Mr. Costa. Mr. Chairman, I know my time has expired, but I 
would like you to provide a list for the Committee's purposes 
of what Interior is doing to prioritize how you tackle that 
deferred maintenance----
    Secretary Bernhardt. We can do that, Congressman.
    Mr. Costa. Thank you.
    Mr. Bishop. He did say it was a dam good bill, right?
    Secretary Bernhardt. A dam good bill, d-a-m.
    Mr. Costa. There you go.
    The Chairman. Mr. Case.
    Mr. Case. Good afternoon, Mr. Secretary. I join my 
colleagues on the Committee in thanking you for appearing here 
personally. I thank you for the time you spent in my office.
    We discussed a number of issues in my office to include 
tour helicopters overflying our national parks and destroying 
their ambience, and full implementation of the national parks 
air tour management plan.
    We talked about the USS Arizona, a sacred site in Pearl 
Harbor, which has been closed for repairs, and we talked about 
accelerating those repairs.
    We talked about the Japanese-American confinement site 
program in general, and the Honouliuli confinement site, 
national monument now, I should say, in Hawaii that needs 
advancing.
    We talked about endangered species funding and 
disproportionate funding that does not fully recognize Hawaii's 
status as the endangered species capital of the world.
    We appreciate all of those.
    I do want to follow up on one issue we discussed, and which 
my colleague from Guam, Mr. San Nicolas, talked about, which is 
the compact of free association and compact impact aid.
    The first thing I would say is I completely agree and 
sympathize with his plight, in terms of the earned income tax 
credit and the insufficiency of compact impact aid to 
compensate Guam fully for the actual economic consequence of 
the compact country residents.
    I certainly have a similar concern, where, essentially, the 
healthcare funding goes through the roof because many, many of 
the compact country folks come to Hawaii. Their healthcare 
needs are taken care of through our State Medicare program. 
These include folks from Guam, because Hawaii is really the 
healthcare capital of the Pacific.
    And just as he views the compact aid as completely 
insufficient, so do I. We have calculated our healthcare costs 
alone at somewhere in the range of $100 million. And then, if I 
follow his formula in terms of the cost of education, if you 
take the distribution per capita that he had mentioned and 
apply it to our own cost of education per pupil, which is 
roughly double that of Guam, you come up with another $200 
million.
    So, pretty soon you are talking about some real money that 
is paid for by Hawaii, $300 million plus, for which we get 
somewhere in the range of $14 million of compact impact aid.
    We welcome the folks from the compact countries coming to 
Hawaii. They have been an incredible contribution to our 
community, to our ohana, as we say, to our economy. And we look 
forward to that continuing. But we cannot absorb that level of 
economic consequence and continue to support the compact, 
overall.
    The compact is a very, very strong initiative by our 
country, fulfilling historical trust obligations from the trust 
territories. And increasingly, as you and I discussed, it is a 
critical part of our overall national defense strategy, because 
certainly many other countries would like to basically get more 
involved with those countries, primarily China.
    Let me ask you this. It seems to me that fitting the 
compact issues into the Department of the Interior--to include 
compact impact aid--and to treat it as a continuing obligation, 
from a trust perspective, is trying to fit the shoes into the 
wrong box. And it seems to me that, as we take a look at the 
big picture--and we are starting the renegotiations on the 
compact right now with two of those three countries--we should 
be looking increasingly to our defense obligations, as opposed 
to the Department of the Interior.
    And I just wanted to ask for your thoughts on that. Do you 
think that is a productive approach for us to start to take? I 
just see no way that Interior can be responsible, or that the 
Interior budget, for that matter, can support a consequence on 
compact impact aid which has really been good for our country, 
but not so good for Guam and Hawaii.
    Secretary Bernhardt. I appreciate that question a lot. I 
don't have the authority to say where it should be in the 
budget, but I will tell you this--those areas mean a lot to our 
country in a variety of ways, including our national security 
interests.
    And I do think that we are paying more and more attention 
than maybe was paid to those issues historically, because of 
that. Certainly, we paid a lot of attention after World War II, 
but I think there may have been some variation of the 
intensity. And I think we have a better perspective.
    So, I think it merits thinking about this outside of the 
box, compared to a small office within the Department of the 
Interior.
    Mr. Case. Thank you very much, Mr. Secretary. I just think 
that, as we go into this next round of negotiations and the 
related discussions on compact impact aid, Guam and Hawaii 
simply cannot afford to continue down the status quo.
    Secretary Bernhardt. I appreciate that.
    The Chairman. Mr. Soto.
    Mr. Soto. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here. It is always great to see a GW 
Colonial like myself. And thanks for visiting me at my office. 
We talked a little bit about the national offshore drilling 
plan. And, as you know, there is unanimous bipartisan 
opposition to that happening in Florida.
    Can we expect to see offshore drilling off of Florida any 
time soon?
    Secretary Bernhardt. I think it is a while before we figure 
out our plan. And even in the most active scenario, the soonest 
for a development plan would be years from now.
    Mr. Soto. And is the Administration going to consider the 
fact that we have united bipartisan opposition in determining 
whether we would be in the plan?
    Secretary Bernhardt. I have been very clear with every 
Member I have met with that it is my view that the states' 
input is a very important component of any final plan.
    Mr. Soto. As you know, the Department of the Interior has 
primary oversight over Everglades restoration. We had the 
Herbert Hoover Dike around Lake Okeechobee where we were 
restoring the southern reservoir. Again, these are major 
bipartisan supported issues.
    Last year, we got $139 million into the budget. In the 2020 
budget, we saw an initial 31 percent cut, but now we are seeing 
there may be support for the $200 million we are requesting.
    Secretary Bernhardt. I think the President actually 
submitted a budget amendment the night before last on that. 
And, obviously, the Appropriations Committee is meeting today.
    Mr. Soto. So, you could expect we have a much better shot 
at that now?
    Secretary Bernhardt. Well, I know that they made the 
request.
    Mr. Soto. OK.
    Secretary Bernhardt. It is in the Corps' budget, I believe.
    Mr. Soto. Sure. A lot of this is really important, as you 
know, because red tide could be exacerbated by coming out of 
Lake Okeechobee through St. Lucie and the Caloosahatchee River. 
So, it is important for me that we have a commitment that the 
Department of the Interior understands that that load could 
exacerbate red tide, and that we need to continue to work----
    Secretary Bernhardt. Well, I can assure you that that 
fishery in the south is phenomenal. We have done a lot 
collectively, as a society, on the Everglades, and there 
shouldn't be backsliding in any way, shape, or form.
    We do have significant issues with invasives, as you know, 
so we have to be aggressive with----
    Mr. Soto. And we are going to get into that in a moment.
    Secretary Bernhardt. OK.
    Mr. Soto. A bill that I worked on in the past, in a 
bipartisan manner last year, was to make the Kissimee River a 
wild and scenic river. Restoring the rest of that river is 
already in the new budget that President Trump put forward. Can 
we expect support from the Department of the Interior to do a 
good faith study, should the bill pass, and potentially make it 
a wild and scenic river, since we spent a billion dollars 
restoring it?
    Secretary Bernhardt. You gave me a draft of that language, 
and we will work with you on that.
    Mr. Soto. The other issue we are working on developing is 
in a bipartisan way with Senator Rubio on re-instituting a Reef 
Protection Act. The Florida Reef has been devastated over the 
years. We have a lot of pollution and population, and this 
would go at that and re-propagation.
    If we could get a bipartisan bill together, would this be 
something that the Department of the Interior would work with 
us on?
    Secretary Bernhardt. Yes, I think that is something we 
would be very interested in working with you on.
    Mr. Soto. With regard to species, obviously first, the ones 
that are endangered. We saw a downlisting of the manatee, which 
is iconic in Florida, from endangered to threatened. With 804 
deaths last year, that was a record. The population wildly 
shifts. We won't see any reduction from threatened any time 
soon, would we, with regard to the manatee's status?
    Secretary Bernhardt. I have no knowledge of a petition or 
something floating around. I would think that is incredibly 
unlikely.
    Mr. Soto. OK. And then with the Florida panther, that is an 
endangered species that we have seen people try to say it is 
not entitled to protection because it is not a subspecies, even 
though there have been overwhelming studies on it. There are no 
attempts right now to downgrade the Florida panther, are there?
    Secretary Bernhardt. I am not aware of any.
    Mr. Soto. OK.
    Secretary Bernhardt. I think we just did a recovery 
program.
    Mr. Soto. Yes. And last, what are some of the things that 
you all are working on to address the invasive species in 
Florida?
    Secretary Bernhardt. I think we have been very aggressive 
on pythons, and I think there is some interest in being more 
aggressive on that. We are working very closely with the state 
wildlife agency, and I think the governor is interested in 
that, as well. And we have had some novel techniques that have 
made news, in terms of attracting larger female pythons to 
particular areas. So, that is certainly a big issue for us.
    Mr. Soto. Thanks, I yield back.
    The Chairman. Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman, for organizing 
today's hearing on the Department of the Interior and its 
policy priorities for Fiscal Year 2020.
    I also want to thank Secretary Bernhardt for taking the 
time to testify. It is good to see you again.
    Today's oversight hearing is of the utmost importance. 
Prior to voting on the Interior environment appropriations 
bill, Members of Congress must have assurance that Federal 
funding will be spent in the best possible way, according to 
the intentions of Congress.
    Currently, the Department of the Interior is reorganizing 
its structure in an effort to streamline the efficiency and 
effectiveness of its respective agencies. While the Trump 
administration has often claimed it wants to streamline 
efficiency and increase effectiveness, these statements have, 
in several cases, translated to decreases in consultation, 
elimination of important programs, streamlining of 
environmental reviews, and Federal employee hiring freezes.
    I hope, however, that under the Department of the 
Interior's new leadership we can work with you, Secretary 
Bernhardt, and ensure that the DOI keeps its promise to the 
American people, and works to improve its services. As I shared 
with you when we met, my home state of Nevada, where we have 
more than 85 percent of land that is managed by the Federal 
Government, our dependence is really on our Federal 
partnership.
    Mr. Bernhardt, as the threats from climate change increase 
in number and severity, Nevadans need assurance from the 
Department that our state will continue to get the resources it 
needs, something the prior Secretary failed to provide.
    As park visitation increases in our state, the 
Administration has continued to propose full-time employee 
staff reductions.
    Deferred maintenance backlogs for the National Park Service 
now exceed $250 million in Nevada, and more than $11 billion 
nationwide.
    The Tule Springs National Monument, which I helped 
designate in Congress more than 5 years ago with the support of 
the Ranking Member, still lacks a visitor center.
    I hope we can work collaboratively to find solutions to 
these shortcomings, and that the DOI will make a promise to the 
American people that it will manage our lands according to the 
best interests of all Americans.
    So, Secretary, can you assure Nevadans and all Americans 
that you will respond to the needs of our constituents and 
promote scientifically-backed management efforts?
    Secretary Bernhardt. Yes. I don't believe there is a hiring 
freeze at all. I will have to go back and look at that.
    In addition to that, I am signing an order today that will 
allow superintendents to use FLREA dollars for permanent staff 
under certain conditions. So, if we have a real hiring problem 
out there, we will get to the bottom of that. I am just not 
aware of it.
    Mr. Horsford. Thank you for looking into that. The national 
park visitation increased by 14 percent, while staffing, 
according to our----
    Secretary Bernhardt. That is a very legitimate point, and 
it is my perspective that the Park Service spent a lot of time 
planning for a centennial, which was great, and they got folks 
to really show up, which was great. But they didn't spend a lot 
of time thinking operationally about that, so we certainly have 
seen some challenges.
    I have a new Director of Operations, David Vela, who is 
working on that, but I think it is a legitimate point.
    Mr. Horsford. The recreation economy on Nevada's land alone 
supports $4 billion in wages and salaries, and 87,000 direct 
jobs.
    In the 2019 Conservation In the West poll, 81 percent of 
Nevadans surveyed believe that the recreation economy is 
important for the future of Nevada, and half of all respondents 
said that the ability to live and recreate on public lands is 
significant reason we live in the West.
    So, again, Secretary, what can you say to our constituents 
in Nevada's 4th to give us the confidence that you and the 
Department, under your leadership, recognize climate impacts on 
public lands and have a plan to account for these changes to 
protect our recreational economy.
    Secretary Bernhardt. Well, we certainly feel strongly about 
the recreational opportunities on public land. I have issued an 
order that says that no land can be transferred, exchanged, or 
acquired without thinking through its benefits or loss of 
recreational access.
    We are committed to managing to ensure that recreationists 
have plentiful access to public land.
    Mr. Horsford. Thank you. And finally, what steps are you 
taking to help create additional clean, green jobs, and reduce 
carbon pollution by expanding renewable energy development?
    Secretary Bernhardt. So, despite the comments today, my 
view is that we are processing renewable applications when they 
come in, and I think that my data would support that 
understanding.
    There is no interest at all of prioritizing traditional 
energy over renewable. That is simply not something I am 
proposing.
    The Chairman. Thank you.
    Mr. Horsford. Thank you, Mr. Secretary, I yield back.
    The Chairman. Ms. DeGette.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    Welcome, Mr. Secretary. I am sorry I have been in and out, 
but as you know, we have multiple hearings going on at once.
    Secretary Bernhardt. I know you are busy.
    Ms. DeGette. Your Department makes land management 
decisions every day over the land that you supervise. Is that 
correct?
    Secretary Bernhardt. Certainly.
    Ms. DeGette. Yes. And, in fact, you have the discretion to 
issue oil and gas leases on Federal lands. Is that correct? 
When people apply for oil and gas leases, you can decide 
whether to grant them or not?
    Secretary Bernhardt. They go through a process----
    Ms. DeGette. Right, and you also decide the appropriate 
circumstances under which those leases should be granted, and 
you have the ability to decide how the drilling is going to 
proceed. Is that right?
    Secretary Bernhardt. Within the parameters of the law.
    Ms. DeGette. Right, so that answer is yes?
    Secretary Bernhardt. Well, the answer is----
    Ms. DeGette. Yes, it is a pretty easy question. I am not 
tricking you with that one.
    Secretary Bernhardt. OK.
    Ms. DeGette. OK. So, as Mr. Levin discussed with you, many 
hours ago it seems now----
    Secretary Bernhardt. It certainly feels----
    Ms. DeGette. There are certain laws that require the 
Department to take climate change into account when it is 
managing its land. Correct?
    Secretary Bernhardt. Certainly. NEPA would be one of those 
laws.
    Ms. DeGette. Right, NEPA would be one of them. So, Interior 
would have the ability to make choices that would be consistent 
with those goals. Is that correct?
    Secretary Bernhardt. Well, not to the exclusion of other--
--
    Ms. DeGette. Well, no. But when you are deciding land 
management, that is one of the criteria you take into account. 
Is that right?
    Secretary Bernhardt. Of course.
    Ms. DeGette. So, I was a little bit perplexed when you said 
that to make land management decisions, with climate change 
taken into account, that you needed direction from Congress. 
What direction, exactly, is it you think you need from 
Congress?
    Secretary Bernhardt. The direction, I think, is if you all 
have a view on climate change that says don't develop energy on 
Federal lands, that is fine. You have to go through a process 
of codifying and providing that direction. And if you provide 
it, we will certainly faithfully execute it.
    Ms. DeGette. I understand that. But when you are----
    Secretary Bernhardt. And the consequence of that----
    Ms. DeGette. Are you saying you don't have the authority to 
take that into account?
    Secretary Bernhardt. Just to say--today? From today 
forward, David Bernhardt says no development on Federal lands? 
I absolutely do not have that authority. You have that 
authority.
    Ms. DeGette. Mr. Secretary, nobody is asking you to do 
that. We are asking you----
    Secretary Bernhardt. Well, that is exactly what we are 
talking about.
    Ms. DeGette. No, it is not. What we are asking you to do is 
to take climate change into effect when deciding these leases.
    Let me just give you a specific----
    Secretary Bernhardt. We already do.
    Ms. DeGette. Excuse me. Let me just give you a specific 
example, and that is methane gas. You have the ability to 
determine what kind of methane gas should be allowed from these 
oil and gas developments on Federal lands. Is that correct?
    Secretary Bernhardt. Within certain boundaries, that is 
correct.
    Ms. DeGette. OK, and would you agree that when methane gas 
is released into the atmosphere it is a powerful global warming 
pollutant, which is 80 times more potent than carbon dioxide in 
the short run?
    Secretary Bernhardt. I have heard that statistic.
    Ms. DeGette. OK, and are you aware this is scientifically 
settled, that statistic?
    Secretary Bernhardt. I don't know, but I am not disputing 
the fact.
    Ms. DeGette. Oh, OK, you are not disputing it. And one of 
the reasons why your Department repealed the BLM methane waste 
prevention rule was you said that states are doing enough to 
reduce methane waste. Is that right?
    Secretary Bernhardt. Well, certainly in your state. Your 
state is a leader----
    Ms. DeGette. Our state?
    Secretary Bernhardt [continuing]. In methane. My state. 
Colorado has been a leader, and----
    Ms. DeGette. But are the other states----
    Secretary Bernhardt. I am familiar with that, and----
    Ms. DeGette. Sir, are the other states doing that, too?
    Secretary Bernhardt. Certainly the top 10 energy-producing 
states are.
    Ms. DeGette. OK. Are the state methane waste regulations as 
strong or stronger than the requirements of the 2016 BLM rule?
    Secretary Bernhardt. I don't know that for sure.
    Ms. DeGette. You don't know. And, in fact, not all states, 
where oil and gas development occurs on public land, are as 
protective. It might be news to you most states have much 
weaker rules that allow companies to vent and flare a higher 
percentage of gas, and require less frequent leak detections 
and repairs.
    Do you think a billion cubic feet per day is a large amount 
of natural gas?
    Secretary Bernhardt. I honestly don't know.
    Ms. DeGette. You don't know. Well, a billion cubic feet----
    Secretary Bernhardt. A billion cubic feet a day of natural 
gas?
    Ms. DeGette. Yes.
    Secretary Bernhardt. It is significant, yes.
    Ms. DeGette. Yes, OK. Because it is enough to power over 
24,000 homes, so that seems like a lot.
    If we would regulate that, if we would tax that, we could 
get a lot of money back into our coffers, wouldn't you agree?
    Secretary Bernhardt. It certainly would have a financial 
component.
    Ms. DeGette. Thank you. I yield back, Mr. Chairman.
    The Chairman. If any Member wishes to ask additional 
questions--Mr. Huffman?
    Mr. Huffman. Thank you, Mr. Chair.
    Mr. Secretary, a moment ago I believe I heard you testify 
that there was no effort to give preference to traditional or 
fossil fuel energy development over renewables. Did I hear you 
correctly?
    Secretary Bernhardt. That is certainly my view, that the 
effort should be to do both.
    Mr. Huffman. I was confused by that, because during the 
government shutdown we were told that work on renewable 
projects ground to a halt. We have the evidence of at least one 
specific project, where BOEM basically shut it down, canceled 
public meetings, announced that it would not reschedule them 
until the shutdown ended. But we know that, for fossil fuel 
projects, you designated essential personnel and mandated that 
that work continue without interruption. Do you not regard that 
as a double standard?
    Secretary Bernhardt. Well, I can tell you specifically that 
we also directed folks to report for renewable projects. 
Certainly for one particular solar project I am aware of, we 
put people back to work right away.
    Mr. Huffman. It certainly didn't appear to be with that 
wind project. There didn't appear to be essential personnel.
    Secretary Bernhardt. I think the issue is--I asked BOEM 
about that, because it came up in some of my interviews and I 
was surprised by that. Their view was the dollar amount 
associated there, in terms of putting people back to work, was 
low. My view at the time----
    Mr. Huffman. If I could reclaim my time, Mr. Secretary----
    Secretary Bernhardt. With all due respect, I would like to 
finish.
    Mr. Huffman. I would love more information on that, but I 
have two more questions and very little time.
    I also note that BLM's budget request for renewable energy 
for 2020 is essentially flat, while the budget proposal for the 
BLM coal program is an increase of 60 percent. That doesn't 
exactly look like even-handed preference for these different 
energy sources.
    But back to a conversation we were having, where I asked 
you for some examples where some of your former clients in the 
oil and gas industry had made specific policy requests, and you 
had to tell them no because it wasn't in the public interest. 
And you brought up the well control rule as an example.
    I am confused by that, because that wasn't telling industry 
no by any stretch.
    Secretary Bernhardt. Actually, that is not accurate.
    Mr. Huffman. The petroleum industry, if you will pardon the 
pun, was gushing with praise for your Administration when you 
released this rule.
    Secretary Bernhardt. That is not----
    Mr. Huffman. It is going to save big oil, $980 million over 
10 years.
    Secretary Bernhardt. They wanted--I believe----
    Mr. Huffman. It references private copyrighted standards of 
the oil industry that, for the public to even see the standards 
referenced in your rule, they have to sign up with the API 
website and pay a fee of $70.
    Really? Is that an example of you pushing back on big oil?
    Secretary Bernhardt. I want to be clear here. I think, if 
you look at the comments fairly, I think you will see that they 
wanted more than what that rule gave. We rejected a number of--
--
    Mr. Huffman. You didn't give them everything they wanted, 
but you saved them $980 million over 10 years, and they were 
lavishing you with praise in their characterization of the 
rule.
    I want to give you the rest of my time, though. Let's find 
a real example where one of your former clients asked a 
specific policy request, and you had to say no.
    Secretary Bernhardt. That is a real example.
    Mr. Huffman. Because the other one you mentioned, the water 
allocations, we know that is formula-driven. And earlier in 
your testimony you said Brenda Burman makes that call anyway. 
So, I am still waiting.
    And I will give you the balance of my time to reassure the 
American people that you are capable of even-handed policy 
making, and pushing back on your former clients.
    Secretary Bernhardt. Congressman, I have absolutely no 
problem telling people no.
    Mr. Huffman. Let's hear some examples.
    Secretary Bernhardt. I have done it. I just provided them 
to you--one to you.
    Mr. Huffman. The $980 million windfall to your former----
    Secretary Bernhardt. That is an unfair characterization. 
They asked for more; they got less.
    Mr. Huffman. Clearly, we are not going to get any examples.
    So, you testified when you were asked about your level of 
concern that this planet has hit 415 parts per million on 
carbon dioxide concentrations, the highest level since humans 
evolved, and you said you are not losing any sleep over that. 
Well, an overwhelming consensus of the world's climate 
scientists are losing sleep. It is a hair-on-fire crisis for 
them.
    Secretary Bernhardt. Let me be very clear. We have the No. 
1----
    Mr. Huffman. And I want to give you a chance to revise your 
statement because a lot of people are watching, and I think it 
is one of those clips of testimony that will reverberate. 
People will look back on what you said. So, I want to just give 
you this chance to assure people that you actually get it on 
climate change.
    Secretary Bernhardt. I appreciate that gracious gesture. 
The reality is that America has the No. 1 reduction in 
CO<INF>2</INF> amongst developing countries. We are No. 1----
    Mr. Huffman. You keep bringing it back to our reduction. 
The question was do you care about the concentration----
    Secretary Bernhardt. I absolutely care. I absolutely care 
that our climate is changing----
    Mr. Huffman. You are just not losing any sleep.
    Secretary Bernhardt [continuing]. And that we need to 
factor that into our thinking. I absolutely believe that, and I 
have said that over and over and over. That is the reality.
    Mr. Huffman. Thank you, I yield back.
    The Chairman. Thank you.
    Mr. Bishop.
    Mr. Bishop. Yes, thank you. We are calling for votes now, 
so this may be the last chance we have to abuse you for this 
morning. But I am certain we will have other opportunities in 
the near future.
    This is supposed to be about Interior budget policy 
priorities. Can you just briefly go through some of the lines 
that you have increased in your budget lines that you have put 
priorities on for an increase?
    Secretary Bernhardt. Our biggest priority right now, sir, 
is trying to address the maintenance backlog. We would love 
help in doing that.
    Mr. Bishop. I appreciate that one. Let's go into that. We 
have talked about LWCF. For someone like me, who is concerned 
about increasing our maintenance responsibilities by adding to 
it, how would you respond to me as to what we can do to look at 
that maintenance backlog best?
    Secretary Bernhardt. Well, my thinking is that we really 
need to start with our facilities and trying to get them up to 
snuff.
    Mr. Bishop. How is LWCF funded?
    Secretary Bernhardt. It is funded, in theory, by Congress 
appropriating money to it. And that funding comes from offshore 
oil and gas revenue, actually.
    Mr. Bishop. And if we were doing a maintenance backlog as 
we have proposed it so far in both the House and the Senate, it 
would be all forms of energy development----
    Secretary Bernhardt. All forms of energy. And there is a 
great growth, we think--for example, we had an offshore lease 
sale of $400 million.
    Mr. Bishop. So, what amount of revenue do solar and wind 
proposals generate in relationship to oil and gas for both 
funding LWCF and potential for maintenance?
    Secretary Bernhardt. Oh, it could be very significant.
    Mr. Bishop. OK. What are you doing to implement S.B. 47? 
That is one of the last things we actually did in a bipartisan, 
bicameral way.
    Secretary Bernhardt. I feel great about that. We have put a 
team together. We gave the Assistant Secretary 60 days to come 
to us with an implementation plan. And I think that, by the end 
of this month, we will be implementing pretty much all the 
major provisions of that Act in a very aggressive way.
    And one of those events was the one we went to last week.
    Mr. Bishop. And once again, I appreciate that. And your 
presence was there, as well.
    Last thing, and we will get through this very quickly, so 
people can get to vote. Fees are something I care about. FLREA 
I care about. Everyone else's eyes glaze over, but I care about 
it.
    You were very creative and legal in how you used fees 
during the shutdown, or how the Department used fees during the 
shutdown. What kind of standards do you have in looking at how 
fees can be implemented, how we handle, how we deal with the 
maintenance, how we deal with the backlog, as well.
    Secretary Bernhardt. I think we have areas where we can 
think through and improve the utilization of fees.
    For me, the reality is that using those fees to enhance the 
visitor's experience, ensuring that we have safe areas and 
amenities is really important, because that is where I think 
the future of funding for enhanced services comes from. I think 
the reality is Congress is only going to give us so much money, 
and so we really need to think about appropriate partnerships, 
we need to think about appropriate fee structures. And that is 
the future of the Park Service, and maybe even BLM.
    Mr. Bishop. Are you still looking to Interior's commitment, 
though, to have the fees going back to the areas in which----
    Secretary Bernhardt. Absolutely. That is right, that the 
majority, the vast majority, of that money stays in the park, 
where that fee was collected.
    We have some superparks, but if it doesn't stay there, it 
completely undermines the purpose.
    Mr. Bishop. And I will still lobby you for a 90/10 split, 
rather than 80/20, if we can do that.
    Secretary Bernhardt. Fair enough.
    The Chairman. Mr. Lowenthal.
    Dr. Lowenthal. Thank you. And I want to thank you, Mr. 
Secretary, for spending all this time. I will try to really be 
brief.
    I just got your news release that said that the Department 
of the Interior has renewed the two Twin Metals projects in 
Minnesota.
    Secretary Bernhardt. I don't think it is my news release, 
but it is a BLM release, probably.
    Dr. Lowenthal. Yes, under the Department of the Interior, 
though, BLM, so I assume that you OK'ed this.
    In it, it says, ``To prevent public lands from being 
indefinitely encumbered by these leases with no benefit to the 
public, the terms placed upon the renewed leases include new 
diligent development requirements whereby the lessee is 
obligated to submit a complete proposed mine plan of operation, 
obtain all necessary permits, and meet certain project 
milestones for mine construction within the 10-year period, or 
these leases will be terminated.''
    Pretty clear that they got 10 years, and that is really 
where you are.
    The reason we got into this was that the Solicitor General, 
in 2017, Mr. Jorjani, said the Obama administration had no 
right to cancel the Boundary Water leases. He said the 
historical record of the 1966 lease implications shows that 
production was not made a condition of renewal. That was real. 
They are 50 years old, those leases, but never entered into 
production.
    The thing that is so strange is--and I would like to enter 
into the record the last news release that I have from Interior 
from 1966, which says that if this property is not brought into 
production within the initial 20-year term, it is terminated.
    I feel like this is a bait and switch. This is a con job. 
You are saying, hey, we are not going to follow what happened 
before. Those leases should have been terminated. But we are 
going to put the same conditions in the new leases. This is 
very confusing. I don't understand this. Maybe you can kind of 
clarify how the leases weren't terminated after waiting 50 
years, and yet now you put into it if they are not done in 10 
years they will be terminated, when they are both conditions of 
the lease.
    Secretary Bernhardt. So, I think this is, obviously, the 
third version of this lease. And I think that what you will see 
is--and I am happy to make sure they are appropriately 
provided--that they have real diligence provisions.
    We are not in the business of saying you can just sit on it 
and do nothing. So, we came up with some appropriate terms, I 
believe, that will ensure that they----
    Dr. Lowenthal. I understand that, I just have no time left. 
So, you stand by Jorjani's, the Solicitor's, opinion that 
production was never part of the earlier lease?
    Secretary Bernhardt. Well, I certainly stand by the 
legality of the Solicitor's opinion. And I think you will find 
that this lease is legal, as well.
    Dr. Lowenthal. Well, I think the decisions were made, you 
just wanted to do it there. You put this into it, that it is 
going to be done in 10 years, by ignoring what had happened 
before. So, I am just going to end.
    Now that you have begun this process of turning out a news 
release and putting forth that the leases will be renewed, was 
the White House part of this decision making?
    Secretary Bernhardt. You mean in terms of the decision 
itself?
    Dr. Lowenthal. Yes. Now you have just started this. You are 
renewing leases.
    Secretary Bernhardt. This is a department in the Interior--
--
    Dr. Lowenthal. So, the White House was not involved?
    Secretary Bernhardt. No.
    Dr. Lowenthal. Thank you, and I yield back.
    The Chairman. Thank you very much.
    And Mr. Secretary, thank you for your indulgence, thank you 
for being here, and part of the meeting.
    There are consequential issues that this Committee has in 
its jurisdiction, consequential. And as I said earlier in my 
comments, the differences that we have have to do with 
direction and policy that you are carrying out within that 
Department. I think that was obvious in some particular areas.
    We have a responsibility to do our due diligence to try to 
convince you or the American public that we should be going in 
a different direction. And there are areas that are special in 
this country that should be left alone and not extracted from. 
And that is just one example.
    As we go forward, I hope that the candor and the frankness 
that we had at our meeting and that you shared with this 
Committee today continues, because differences in direction 
require this Committee and the Majority to seek as assertively 
as we can the motivation behind policy changes and direction 
and, more importantly, for the oversight function and our 
constitutional responsibility, the rationale.
    So, going forward, thank you again. The meeting is 
adjourned.

    [Whereupon, at 1:24 p.m., the Committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Cartwright

  --  USA Today article: ``Carbon dioxide levels hit landmark 
            at 415 ppm, highest in human history,'' by R.W. 
            Miller and D. Rice, May 14, 2019.

Submission for the Record by Rep. Cunningham

  --  Letter from the Henry McMaster, Governor of South 
            Carolina, to David Bernhardt, Secretary of the 
            Interior, dated May 15, 2019.

Submission for the Record by Rep. Grijalva

  --  Letter from the U.S. Fish and Wildlife Service New Jersey 
            Field Office to Peter R. Blum, U.S. Army Corps of 
            Engineers, dated August 9, 2016.

Submission for the Record by Rep. Levin

  --  Letter from Rep. Levin to DOI Secretary Bernhardt with 
            additional questions, dated May 7, 2019.

Submissions for the Record by Rep. Lowenthal

  --  DOI News Release: ``Government Grants Leases for Nickel 
            and Copper Mining,'' dated June 14, 1966.

  --  Chart on DOI Responsiveness to Boundary Water Document 
            Requests.

Submission for the Record by Rep. McClintock

  --  U.S. Department of the Interior Memo from Heather Gottry 
            and Edward McDonnell to Scott de la Vega, Director, 
            Ethics Office, dated February 19, 2019.

Submission for the Record by Rep. Neguse

  --  Letter from the Upper Colorado River Commission to 
            Secretary of the Interior Ryan Zinke, dated 
            September 19, 2018.

Submissions for the Record by Rep. Van Drew

  --  Letter from the U.S. Fish and Wildlife to Lt. Colonel 
            Robert B. Keyser of the U.S. Army Corps of 
            Engineers, dated December 24, 1996.

  --  Letter from Rep. Van Drew to Aurelia Skipwith, Acting 
            Director of the U.S. Fish and Wildlife Service, 
            dated March 14, 2019.

                                 <all>
</pre></body></html>
